<html>
<title> - CHILD PROTECTION OVERSIGHT</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]



 
                       CHILD PROTECTION OVERSIGHT

=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON HUMAN RESOURCES

                                 of the

                      COMMITTEE ON WAYS AND MEANS
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 22, 1999

                               __________

                             Serial 106-25

                               __________

         Printed for the use of the Committee on Ways and Means

                               <SNOWFLAKE>

                       U.S. GOVERNMENT PRINTING OFFICE
60-978 CC                      WASHINGTON : 2000



                      COMMITTEE ON WAYS AND MEANS

                      BILL ARCHER, Texas, Chairman

PHILIP M. CRANE, Illinois            CHARLES B. RANGEL, New York
BILL THOMAS, California              FORTNEY PETE STARK, California
E. CLAY SHAW, Jr., Florida           ROBERT T. MATSUI, California
NANCY L. JOHNSON, Connecticut        WILLIAM J. COYNE, Pennsylvania
AMO HOUGHTON, New York               SANDER M. LEVIN, Michigan
WALLY HERGER, California             BENJAMIN L. CARDIN, Maryland
JIM McCRERY, Louisiana               JIM McDERMOTT, Washington
DAVE CAMP, Michigan                  GERALD D. KLECZKA, Wisconsin
JIM RAMSTAD, Minnesota               JOHN LEWIS, Georgia
JIM NUSSLE, Iowa                     RICHARD E. NEAL, Massachusetts
SAM JOHNSON, Texas                   MICHAEL R. McNULTY, New York
JENNIFER DUNN, Washington            WILLIAM J. JEFFERSON, Louisiana
MAC COLLINS, Georgia                 JOHN S. TANNER, Tennessee
ROB PORTMAN, Ohio                    XAVIER BECERRA, California
PHILIP S. ENGLISH, Pennsylvania      KAREN L. THURMAN, Florida
WES WATKINS, Oklahoma                LLOYD DOGGETT, Texas
J.D. HAYWORTH, Arizona
JERRY WELLER, Illinois
KENNY HULSHOF, Missouri
SCOTT McINNIS, Colorado
RON LEWIS, Kentucky
MARK FOLEY, Florida

                     A.L. Singleton, Chief of Staff

                  Janice Mays, Minority Chief Counsel

                                 ______

                    Subcommittee on Human Resources

                NANCY L. JOHNSON, Connecticut, Chairman

PHILIP S. ENGLISH, Pennsylvania      BENJAMIN L. CARDIN, Maryland
WES WATKINS, Oklahoma                FORTNEY PETE STARK, California
RON LEWIS, Kentucky                  ROBERT T. MATSUI, California
MARK FOLEY, Florida                  WILLIAM J. COYNE, Pennsylvania
SCOTT McINNIS, Colorado              WILLIAM J. JEFFERSON, Louisiana
JIM McCRERY, Louisiana
DAVE CAMP, Michigan


Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Ways and Means are also published 
in electronic form. The printed hearing record remains the official 
version. Because electronic submissions are used to prepare both 
printed and electronic versions of the hearing record, the process of 
converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.



                            C O N T E N T S

                               __________

                                                                   Page

Advisory of April 15, 1999, announcing the hearing...............     2

                               WITNESSES

U.S. Department of Health and Human Resources, Hon. Olivia A. 
  Golden, Ph.D., Assistant Secretary for Children and Families...    17
Library of Congress, Karen Spar, Congressional Research Service..    33

                                 ______

American Public Human Services Association, William Waldman......    38
Children's Defense Fund, MaryLee Allen...........................    50
Florida Department of Children and Families, Hon. Kathleen A. 
  Kearney........................................................    68
Illinois Department of Children and Family Services, Jess 
  McDonald.......................................................    72
KidsHELP! Foundation, Kim Warburton..............................    45
North American Council on Adoptable Children, Joe Kroll..........    81

                       SUBMISSIONS FOR THE RECORD

Child Welfare League of America, Inc., statement.................    97
Hear My Voice, Protecting Our Nation's Children, Ann Arbor, MI, 
  Janet R. Snyder, statement.....................................    15
Men's Health Network, Cory J. Jensen, statement and attachment...    99
National Association of Foster Care Reviewers, Atlanta, GA, 
  statement......................................................    99
Stark, Hon. Pete Fortney, a Representative in Congress from the 
  State of California, statement and attachment..................   103
Voice for Adoption, statement....................................   106



                       CHILD PROTECTION OVERSIGHT

                              ----------                              


                        THURSDAY, APRIL 22, 1999

                  House of Representatives,
                       Committee on Ways and Means,
                           Subcommittee on Human Resources,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:06 a.m., in 
room B-318, Rayburn House Office Building, Hon. Nancy Johnson 
(Chairman of the Subcommittee) presiding.
    [The advisory announcing the hearing follows:]



ADVISORY

FROM THE 
COMMITTEE
 ON WAYS 
AND 
MEANS

                    SUBCOMMITTEE ON HUMAN RESOURCES

                                                CONTACT: (202) 225-1025
FOR IMMEDIATE RELEASE

April 15, 1999

No. HR-4

                      Johnson Announces Hearing on

                       Child Protection Oversight

    Congresswoman Nancy L. Johnson (R-CT), Chairman, Subcommittee on 
Human Resources of the Committee on Ways and Means, today announced 
that the Subcommittee will hold a hearing on the implementation of a 
Federal review system to hold States accountable for their child 
protection systems and the impact of the Adoption and Safe Families Act 
of 1997 (P.L. 105-89) on the number of adoptions in the U.S. The 
hearing will take place on Thursday, April 22, 1999, in room B-318 of 
the Rayburn House Office Building, beginning at 10:00 a.m.
      
    Oral testimony at this hearing will be from invited witnesses only. 
Witnesses will include representatives from the Administration, the 
Congressional Research Service, State policymakers, and advocacy 
groups. However, any individual or organization not scheduled for an 
oral appearance may submit a written statement for consideration by the 
Committee and for inclusion in the printed record of the hearing.
      

BACKGROUND:

      
    Under both the Interethnic Adoption Act of 1996 (Section 1808 of 
P.L. 104-188) and the Adoption and Safe Families Act of 1997 (P.L. 105-
89), the U.S. Department of Health and Human Services (HHS) is 
responsible for reviewing State child protection systems and for 
holding States accountable for how children are faring in these 
systems. HHS had been responsible for overseeing child protection 
programs under previous legislation as well, especially the Adoption 
Assistance and Child Welfare Act of 1980 (P.L. 96-272). However, in 
1989, Congress imposed a moratorium on the collection of penalties 
levied on States for failing to comply with Federal law. Then in 1994, 
Congress directed HHS to develop a child protection review system to 
monitor State compliance with Federal foster care and adoption laws. 
Congress further required that the new review system allow for 
corrective action and impose penalties. Final regulations from HHS were 
to take effect in 1996. In November of 1998, HHS published preliminary 
regulations and invited public comment. Final regulations are still 
pending.
      
    The Adoption and Safe Families Act of 1997 was intended to increase 
the number of adoptions out of foster care. Preliminary survey findings 
confirm that the new adoption law is having its intended effect with 
significantly more children adopted out of foster care in 1998 than in 
1997. Several States have reported that the unprecedented rise in 
adoptions can be attributed to the new adoption law as well as several 
innovative State initiatives.
      
    In announcing the hearing, Chairman Johnson stated: ``The 
Subcommittee has a strong interest in how HHS is monitoring State 
compliance with Federal adoption reforms and other Federal child 
protection laws. In addition, our Subcommittee wants to know what has 
caused the recent increase in adoptions so we can do more of it.''
      

FOCUS OF THE HEARING:

      
    The hearing will focus on two main issues. First, the Subcommittee 
wants to examine the status and adequacy of the Federal child 
protection review system proposed by HHS last November. Of particular 
importance are the performance measures adopted by the Administration, 
the methods used to determine State performance, the measures used to 
determine permanency, and the use of penalties for violations of 
Federal requirements. Second, the Subcommittee wants to learn as much 
as possible about the causes of the recent increase in adoption. In 
addition, it is interested in learning about the details of how 
specific States and localities have changed their policies to increase 
adoption.
      

DETAILS FOR SUBMISSION OF WRITTEN COMMENTS:

      
    Any person or organization wishing to submit a written statement 
for the printed record of the hearing should submit six (6) single-
spaced copies of their statement, along with an IBM compatible 3.5-inch 
diskette in WordPerfect 5.1 format, with their name, address, and 
hearing date noted on a label, by the close of business, Thursday, May 
6, 1999, to A.L. Singleton, Chief of Staff, Committee on Ways and 
Means, U.S. House of Representatives, 1102 Longworth House Office 
Building, Washington, D.C. 20515. If those filing written statements 
wish to have their statements distributed to the press and interested 
public at the hearing, they may deliver 200 additional copies for this 
purpose to the Subcommittee on Human Resources office, room B-317 
Rayburn House Office Building, by close of business the day before the 
hearing.
      

FORMATTING REQUIREMENTS:

      
    Each statement presented for printing to the Committee by a 
witness, any written statement or exhibit submitted for the printed 
record or any written comments in response to a request for written 
comments must conform to the guidelines listed below. Any statement or 
exhibit not in compliance with these guidelines will not be printed, 
but will be maintained in the Committee files for review and use by the 
Committee.
      
    1. All statements and any accompanying exhibits for printing must 
be submitted on an IBM compatible 3.5-inch diskette WordPerfect 5.1 
format, typed in single space and may not exceed a total of 10 pages 
including attachments. Witnesses are advised that the Committee will 
rely on electronic submissions for printing the official hearing 
record.
      
    2. Copies of whole documents submitted as exhibit material will not 
be accepted for printing. Instead, exhibit material should be 
referenced and quoted or paraphrased. All exhibit material not meeting 
these specifications will be maintained in the Committee files for 
review and use by the Committee.
      
    3. A witness appearing at a public hearing, or submitting a 
statement for the record of a public hearing, or submitting written 
comments in response to a published request for comments by the 
Committee, must include on his statement or submission a list of all 
clients, persons, or organizations on whose behalf the witness appears.
      
    4. A supplemental sheet must accompany each statement listing the 
name, company, address, telephone and fax numbers where the witness or 
the designated representative may be reached. This supplemental sheet 
will not be included in the printed record.
      

    The above restrictions and limitations apply only to material being 
submitted for printing. Statements and exhibits or supplementary 
material submitted solely for distribution to the Members, the press, 
and the public during the course of a public hearing may be submitted 
in other forms.

      
    Note: All Committee advisories and news releases are available on 
the World Wide Web at ``http://www.house.gov/ways__means/''.

      

    The Committee seeks to make its facilities accessible to persons 
with disabilities. If you are in need of special accommodations, please 
call 202-225-1721 or 202-226-3411 TTD/TTY in advance of the event (four 
business days notice is requested). Questions with regard to special 
accommodation needs in general (including availability of Committee 
materials in alternative formats) may be directed to the Committee as 
noted above.
      

                                <F-dash>


    Chairman Johnson of Connecticut. Good morning. The hearing 
will come to order.
    I can't help but comment, in light of Tuesday's tragic 
events, that brain research in this country and developmental 
research is leading us to an understanding of how children who 
have no empathy and no control and no real grasp of 
consequences are amongst us. And I hope that we will all begin 
to read books like ``Ghosts From the Nursery'' and think 
through what are the implications of modern science for our 
children because very clearly science is demonstrating that 
there are certain things that we are actually doing as 
irresponsible adults that are creating human beings who are 
incapable of empathy, who do not think in a way that brings 
consequences to their concrete understanding, and who don't 
have the normal controls that we assume in a human society and 
that are essential to a civil society.
    So I would just say I am reading those things and thinking 
about those things. And we will be open to your thoughts on 
what we do with the very clear evidence that many of our 
children are growing up without the essentials necessary to 
being part of a human community.
    Today, we do have a host of wonderful witnesses who will 
shed light on two important issues in regard to abused and 
neglected children. Recently, under the very strong leadership 
of this Subcommittee, of my colleague Clay Shaw from Florida, 
this Subcommittee adopted a very progressive national policy 
governing adoption that has resulted in a dramatic increase in 
the number of children finding love and security with adoptive 
parents.
    Many people in this room worked on that 1997 adoption bill. 
Among other important provisions, this law gave States a cash 
incentive for increasing the number of adoptions out of foster 
care. Perhaps of even greater long-term importance, the law 
required States to make decisions on terminating parents rights 
within 15 months of the time children enter foster care.
    These and many other important provisions were designed to 
reduce the time a child lived in foster care limbo by 
increasing adoptions.
    Now, 2 years later, reports from the North American Council 
on Adoptable Children and the General Accounting Office report 
truly dramatic and wonderful news: Adoptions have increased 
between a whopping 52 percent and 101 percent. And without 
objection, I would like to enter both of these studies into the 
record.
    In fact, in its study of Connecticut, Florida, Illinois, 
Iowa, and Texas, GAO found that, ``The emphasis on adoption in 
the Adoption and Safe Families Act was among several factors 
that State officials cited as contributing to an increase in 
fiscal year 1998 foster care adoptions over the base numbers.''
    This is something important. We passed a law on a 
bipartisan basis requiring important changes in social policy 
throughout our country and it has helped kids. We must do more 
of this.
    Two concerns have developed as a result of our success. 
Because adoptions have increased so dramatically in numbers and 
so rapidly, the amount of money we have in the law for 
incentive payments is inadequate. This is a good problem to 
have. I asked CBO to check it out, and they are now estimating 
that we will be around $28 million short this year.
    I think I speak for all Members of this Subcommittee in 
saying that we will figure out how to get this money. States 
have done a great job, and they should and will get the 
payments they have earned.
    The second concern I would raise is far more long-term. The 
greater our success with adoption, the fewer children in foster 
care, and the fewer dollars flowing to the States in spite of 
the need of troubled families. That long-term concern has got 
to be very real for all of us.
    But now to the second issue we address today. It is the 
child protection regulation issued last September by the 
Clinton administration. Republican Members of the Ways and 
Means Committee, including Mr. Camp, along with Senator DeWine 
and Senator Craig, sent a detailed letter to the administration 
stating that the draft regulation had both great strengths and 
serious weaknesses.
    Let me mention a few of the weaknesses. First, the proposed 
review system does not state as clearly as it should the 
specific measures for which States will be held accountable. 
Thus it is unclear precisely how HHS will determine the 
adequacy of State performance and at what point inadequacy will 
result in the imposition of fines.
    Second, neither the length of time a child remains in 
foster care nor increases in the number of adoptions are 
included in outcome measures. Let me repeat that: Neither the 
length of time a child remains in foster care nor increases in 
the number of adoptions are included in outcome measures. I 
mean, it has been simply astounding to me as a national 
policymaker who served on this Subcommittee for 6 years in the 
eighties that we have not known and never been able to say how 
many kids were in foster care.
    There's one thing I do want to know. I want to be able to 
know how many kids are in foster care. How long have they been 
there. And how many kids were adopted. So these are two of the 
most important measures of State performance and simply must be 
included as outcomes.
    Third, the child safety goal is to be measured by both 
protecting children and by maintaining children in their own 
homes. Safety and keeping families intact are separate goals 
and cannot be considered together. There is a tension between 
them. They are both important.
    We are fortunate to have Dr. Golden to explain the 
regulation in greater detail and to answer our questions. I 
also would like to say I am terribly apologetic, but I must 
leave the hearing for about 15 minutes and I will be back. But 
after hearing the testimony by the administration on the 
regulatory issues, I do hope that we will be able to resolve 
that dialog satisfactorily.
    [The opening statement and attachments follow:]

Opening Statement of Hon. Nancy L. Johnson, a Representative in 
Congress from the State of Connecticut

    Today we have a host of wonderful witnesses who will shed 
light on two important issues concerning national policy for 
abused and neglected children.
    The first issue we want to examine is recent increases in 
the number of adoptions. Many people in this room worked on the 
splendid 1997 adoption bill--a bill, by the way, that was first 
drafted by members of this Subcommittee. Among other important 
provisions, this law gave states a cash incentive for 
increasing the number of adoptions out of foster care. Perhaps 
of even greater long-term importance, the law required states 
to make decisions on terminating parent rights within 15 months 
of the time children enter foster care. These, and many other 
fine provisions, were designed to reduce foster care limbo by 
increasing adoption.
    Now, two years later, thanks to superb reports from the 
North American Council on Adoptable Children and the General 
Accounting Office, we find that adoptions have increased 
dramatically--in the GAO study by between a whopping 52 percent 
and 101 percent. [Without objection, I'd like to put copies of 
both studies in the record.] In fact, in its study of 
Connecticut, Florida, Illinois, Iowa, and Texas, GAO found 
that--``The emphasis on adoption in the Adoption and Safe 
Families Act was among several factors that state officials 
cited as contributing to an increase in fiscal year 1998 foster 
care adoptions over the base numbers.''
    Now here's something new. We pass in law in Washington on a 
bipartisan basis, important changes in social policy take place 
throughout the country, and the status of children improves. We 
should do more of this.
    By the way, there is lots of concern that because adoptions 
have increased so much, so fast, that the amount of money we 
have in the law for incentive payments is inadequate. We have 
asked CBO to check into this problem and they are now 
estimating that we will be around $28 million short this year. 
I think I speak for both myself and Mr. Cardin in saying that 
we will figure out how to get this additional money. States 
have done a great job--they should and will get the payments 
they have earned.
    The second issue we address today is the child protection 
regulations issued last September by the Clinton 
Administration. Republican members of the Ways and Means 
Committee (including Mr. Camp), along with Senator DeWine and 
Senator Craig, sent a detailed letter to the Administration 
stating that the draft regulation had both great strengths and 
serious weaknesses.
    Let me mention a few of the weaknesses. First, the proposed 
review system does not state as clearly as it should the 
specific measures for which states will be held accountable. 
Thus, it is unclear precisely how HHS will determine the 
adequacy of state performance and at what point inadequacy will 
result in the imposition of fines. Second, neither the length 
of time a child remains in foster care nor increases in the 
number of adoptions are included as outcome measures. These are 
two of the most important measures of state performance and 
simply must be included as outcomes. Third, the child safety 
goal is to be measured by both protecting children and by 
maintaining children in their own homes. Safety and keeping 
families intact whenever possible are separate goals and cannot 
be considered together. The conflation of these goals may 
suggest that HHS is still overly invested in the philosophy of 
family preservation. I know that some of our witnesses have 
other concerns about the regulations. We are fortunate to have 
Dr. Golden here to explain the regulation in greater detail and 
to answer our questions. I trust that after hearing our cogent 
arguments, the Administration will make appropriate changes in 
the regulation.
      

                                <F-dash>


                     U.S. General Accounting Office        
         Health, Education, and Human Services Division    
                                       Washington, DC 20548

                                                     April 20, 1999

B-282472

The Honorable Nancy L. Johnson
Chairman, Subcommittee on Human Resources
Committee on Ways and Means
House of Representatives

Foster Care: Increases in Adoption Rates

    Dear Madam Chairman:

    The Adoption and Safe Families Act of 1997 (ASFA) authorizes 
incentive payments to states for increasing the number of foster child 
adoptions in fiscal years 1998 through 2002. States may receive up to 
$6,000 for each finalized adoption of a foster child over a state's 
base number for a fiscal year. The Department of Health and Human 
Services (HHS) is responsible for determining the base number of foster 
child adoptions that a state must exceed in order to be eligible for 
incentive payments. To determine each state's base numbers for fiscal 
year 1998, HHS averaged that state's number of finalized foster care 
adoptions for federal fiscal years 1995, 1996, and 1997. Recently, the 
North American Council on Adoptable Children (NACAC) reported that, of 
the 42 states that provided estimates for the survey, at least 36,000 
foster children were adopted in fiscal year 1998, which represents an 
increase of 7,859 over the base numbers.\1\
---------------------------------------------------------------------------
    \1\ Joe Kroll, ``1998 U.S. Adoptions From Foster Care Projected to 
Exceed 36,000,'' Adoptalk (Winter 1999), pp. 1-2.
---------------------------------------------------------------------------
    This letter responds to your request that we determine the source 
of information states used to derive both the fiscal year 1998 and the 
base numbers of finalized foster care adoptions, and to identify 
factors that contributed to the increases in foster care adoptions. You 
were interested in the increases reported in finalized adoptions of 
foster children in five states--Connecticut, Florida, Illinois, Iowa, 
and Texas. These five states estimated increases in finalized foster 
care adoptions for fiscal year 1998 of at least 50 percent over their 
base numbers. In responding to your request, we conducted interviews 
with state child welfare officials in March 1999.

    STATE DATABASES WERE PRIMARY SOURCE OF NUMBERS REPORTED TO NACAC

    Officials in four of the five states we reviewed told us 
that they derived the fiscal year 1998 and base numbers of 
finalized foster care adoptions reported by NACAC from their 
state child welfare databases. These databases contain child-
specific records of a state's foster care population and are 
the source of data submitted by these states to the federal 
Adoption and Foster Care Analysis and Reporting System.\2\
---------------------------------------------------------------------------
    \2\ The federal Adoption and Foster Care Analysis and Reporting 
System (AFCARS) is the primary source of federal administrative data 
about foster care and adoption. It allows HHS to perform research on 
and evaluate state foster care and adoption programs, and it assists 
HHS in targeting technical assistance efforts, among other uses.
---------------------------------------------------------------------------
    The fifth state conducted a manual count of finalized 
adoptions; although that state included the name of each foster 
child in the tabulation of fiscal year 1998 adoptions, it did 
not do so for the earlier base numbers. Thus, with the 
exception of the base numbers for one state, all five states 
could identify the individual children included in their 
counts.

                Table 1.--State Estimates of Finalized Foster Care Adoptions in Fiscal Year 1998
----------------------------------------------------------------------------------------------------------------
                                                                    Fiscal year
                      State                       Baseline Total  1998 estimated   Number change    Percentage
                                                                       total                          change
----------------------------------------------------------------------------------------------------------------
Connecticut.....................................             207             314             107            51.7
Florida.........................................             987            1549             562            56.9
Illinois........................................           2,200           4,423           2,223           101.0
Iowa............................................             350             537             187            53.4
Texas...........................................             880           1,548             668            75.9
----------------------------------------------------------------------------------------------------------------
Source: Adoptalk (Winter 1999), p. 2.


            ASFA CITED AS CONTRIBUTOR TO INCREASED ADOPTIONS

    The emphasis on adoption in ASFA was among several factors 
that state officials cited as contributing to an increase in 
fiscal year 1998 foster care adoptions over the base numbers. 
Other factors included administrative reform, such as assigning 
additional staff to efforts to move children toward permanent 
placement; increased recruitment efforts, such as state funding 
for recruitment of adoptive parents for children with special 
needs; and court-related changes, such as an increase in the 
number of staff attorneys to help caseworkers prepare cases for 
court reviews.

 Table 2: Factors Cited by State Officials as Contributing to Increased
                          Foster Care Adoptions
------------------------------------------------------------------------
                                                               Number of
                           Factors                               states
------------------------------------------------------------------------
Increased emphasis on adoption in federal or state laws......          3
Changes in internal processes or administrative reform.......          3
Increased emphasis on recruitment of adoptive parents........          2
Streamlined court process or increased court-related                   2
 personnel...................................................
------------------------------------------------------------------------


    An official in one state told us that she expects the 
number of adoptions to continue to increase. Officials in two 
other states expected the number of adoptions in those state to 
remain high but to not increase above the level estimated for 
fiscal year 1998. Officials in the remaining two states did not 
offer estimates of future adoption levels.

                            AGENCY COMMENTS

    We requested that HHS review a draft of this letter. HHS 
provided no substantive comments.
    As we arranged with your office, unless you publicly 
announce its contents earlier, we will make no further 
distribution of this correspondence until April 22, 1999. At 
that time, we will send copies to other relevant congressional 
parties and to the Honorable Donna E. Shalala, the Secretary of 
Health and Human Services.
    If you have any questions about this information, please contact me 
on (202) 512-7215. Major contributors to this correspondence were David 
D. Bellis, Kerry Gail Dunn, and Ann T. Walker.

            Sincerely yours,
                                         Cynthia M. Fagnoni
         Director, Education, Workforce, and Income Security Issues

(116031)

[GRAPHIC] [TIFF OMITTED] T0978.005

[GRAPHIC] [TIFF OMITTED] T0978.006

      

                                <F-dash>


    Chairman Johnson of Connecticut. So we will now call 
forward our first witness----
    Mr. Cardin. Madam Chair, if I----
    Chairman Johnson of Connecticut. Oh, excuse me, I am sorry. 
I yield to my colleague Ben Cardin.
    Mr. Cardin. I will be very brief, Madam Chair. First, let 
me ask consent to include my full statement in the record and 
the letter from the citizen review board for children, which is 
the Maryland Citizens Board for Review of Out-of-Home Placement 
of Children, dated April 21 for the record.
    Madam Chair, let me first comment as you did on the tragic 
events that took place in Colorado, the stark reminder to all 
of us that no neighborhood is safe and that protecting our 
children is a concern of every neighborhood in our country. And 
I applaud you for holding today's hearings on our programs to 
protect our children.
    There is no greater obligation for any Member of Congress, 
particularly those of this Subcommittee, than ensuring the safe 
care and protection of America's neglected, abused, and 
abandoned children.
    As you pointed out, we do have some positive news, and that 
is the number of children in the foster care system that are 
finding permanent, loving homes. The statistics are very, very 
encouraging.
    I want to congratulate Dr. Golden, who is the Assistant 
Secretary for Children and Families in the Clinton 
administration, on placing a very high priority on our 
children. And we are starting to see many of those results.
    Also due in large part to the passage in 1997 by Congress 
of the Adoption and Safe Families Act. That was passed on a 
bipartisan basis, Madam Chair. I think it reminds all of us 
that if we work together in a bipartisan way, we can get a lot 
accomplished for our children in this country.
    The Adoption and Safe Families Act maintains the 
requirement that States attempt to reunify children with their 
birth families when they have been removed from their homes. 
However, the law made it clear that reunification was not 
appropriate where it posed a clear danger to the child or meant 
the child would be doomed to linger in foster care for a long 
period of time.
    Well, at this hearing, we want to hear how the States are 
attempting to achieve that critical balance between restoring 
families and protecting children and the permanency of the 
relationship between the child and his or her parents. It is 
also important that we hear from the witnesses today of changes 
that may be needed in the Adoption and Safe Families Act.
    For example, it appears the annual cap funding financial 
incentives paid to the States, that increase adoptions out of 
foster care, may need to be adjusted and raised if we are going 
to continue to provide bonuses promised in the 1997 
legislation.
    We also want to hear from you at this hearing how we can 
improve our child welfare system. For example, more must be 
done for children who are aging out of foster care. And I am 
very optimistic under Mrs. Johnson's leadership that this 
Subcommittee and, indeed, this Full Committee will address this 
issue. There are additional issues that we need to consider in 
the child welfare system, including that courts have sufficient 
resources to fulfill the requirements of the Adoption and Safe 
Families Act.
    And finally, we must address the clear link between child 
abuse and substance abuse, which contributes to 7 out of 10 
cases of child abuse and neglect.
    So I do look forward to the panel of witnesses we have 
today and to Dr. Golden as we work together in a bipartisan way 
to try to ensure that the laws that we pass are adequate and do 
whatever we can to make sure our children are safe.
    [The opening statement and attachment follow:]

Statement of Hon. Benjamin L. Cardin, a Representative in Congress from 
the State of Maryland

    Madame Chair, let me start by commending you for holding 
today's hearing on our Nation's child protection system. There 
can be no greater obligation for any Member of Congress, 
particularly those of us on this Subcommittee, than ensuring 
the safe care and protection of America's neglected, abused and 
abandoned children.
    Fortunately, we have some positive news to report about 
children in our foster care system--more of them are finding 
permanent, loving homes. In fact, it appears that adoptions of 
foster care children rose 40% nationwide last year compared to 
1995.
    This is due in part to the Adoption and Safe Families Act 
enacted at the end of 1997 with broad bipartisan support, and 
it should once again remind all of us of what we can accomplish 
for America's children when we work together. Of course, we 
must continue to vigilantly oversee the implementation of that 
law to ensure that the safety and well-being of children is 
always the paramount concern when placement decisions are being 
made.
    The Adoption and Safe Families Act maintained the 
requirement that States attempt to reunify children with their 
birth families when they have been removed from their home. 
However, the law made it very clear that reunification was not 
appropriate when it posed a clear danger to the child, or if 
meant that child was doomed to linger in foster care for a 
prolonged period of time.
    We want to hear how States are attempting to achieve that 
critical balance between restoring families and providing 
protection and permanency for children.
    It is also important for us to hear whether our witnesses 
believe any changes are needed to the Adoption and Safe 
Families Act. For example, it appears the law's annual cap on 
funding for the financial incentives paid to States that 
increase adoptions out of foster care may need to be raised if 
we are going to provide the bonuses promised in the 1997 
legislation.
    I also look forward to hearing from our witnesses about 
other challenges this Subcommittee must confront to improve our 
child welfare system. For example, we must do more to help 
children in foster care who do not return home and who are not 
adopted--in other words, children who age out of the system. 
Under the leadership of Mrs. Johnson, I am confident this 
Subcommittee will address that important issue shortly. 
Additional issues to consider include whether the current child 
welfare system, including the courts, have sufficient resources 
to fulfill the requirements in the Adoption and Safe Families 
Act. And finally, we must address the clear link between child 
abuse and substance abuse, which contributes to 7 out of 10 
cases of child abuse and neglect. Thank you. 

[GRAPHIC] [TIFF OMITTED] T0978.003

[GRAPHIC] [TIFF OMITTED] T0978.004

      

                                <F-dash>


    Chairman Johnson of Connecticut. Thank you very much, Ben, 
and I would also like to recognize Mr. Camp of Michigan who was 
part of the Subcommittee last year and played such an important 
role in these regulatory issues.
    Mr. Camp.
    Mr. Camp. Well, thank you, Madam Chairman. I just have a 
brief statement. I would like to call the Subcommittee's 
attention to the testimony of Janet Snyder, for the record, of 
Hear My Voice.
    [The information follows:]

Statement of Janet R. Snyder, Executive Director, Hear My Voice, 
Protecting Our Nation's Children, Ann Arbor, Michigan

    Chairman Johnson and other distinguished members of the 
subcommittee, this testimony is submitted to you on behalf of 
Hear My Voice, ``Protecting Our Nation's Children,'' a 
nonprofit, child advocacy organization with headquarters in Ann 
Arbor, Michigan, and chapters in many parts of the country. 
Hear My Voice (HMV) was established to promote the right of all 
children to have safe, permanent families. Within this context, 
HMV informs the public and decision-makers that children's 
rights and needs are often unrecognized in our judicial and 
social service systems, and that they may be harmed by this 
lack of recognition.
    Thank you for the opportunity to offer comments on needed 
changes for the proposed regulations on The Adoption and Safe 
Families Act of 1997, (PL 105-89).
    Hear My Voice began its sixth year of work on August 2, 
1998. During the past five years, HMV has advocated for more 
than 150 individual children in communities across the country, 
and has given referrals and advice to thousands more. The 
fundamental work of HMV is to bring support to the public 
domain in order to broaden the definition of family, and to 
change the perceptions of judges, social workers, legislators, 
and other decision-makers who impact the lives of those who 
look to them for protection. In helping to bring about these 
changes, HMV affects the lives of children who are now at risk 
as well as thousands of others who will follow.
    We were very pleased with the passage of ASFA in November, 
1997, and worked to support this passage. We were asked to 
testify before the House Ways and Means Committee in April, 
1997 in support of ASFA. It was gratifying to see that after 
almost 20 years, through this new law, child safety and 
permanency became key points for child welfare work. We are 
equally interested that the proposed regulations do indeed 
accurately reflect Congressional intent, and that these 
encouraging changes for children are supported.
    Please consider the following points of response:
    1. [Page 50073) Section 1356.21(b), paragraph 11 of page 
addressing ``Reasonable Efforts,'' beginning: ``determination 
that (1) Reasonable Efforts were made to prevent....'' It has 
been very difficult to consistently define and understand the 
term of ``Reasonable Efforts.'' Each State, agency or 
caseworker may hold its own understanding of what is meant by 
this and interpretations may often be to the detriment of the 
child. Any time this term is used, some sort of guideline 
emphasizing the safety of the child must be addressed.
    2. [Page 50074] Section 1356.21(b)(4) paragraph 4: 
``Judicial Determination....'' (when reunification is not the 
permanency goal): The age of the child involved and the 
permanent goal should be of paramount concern in assessing how 
often the case goes to court for determination. The guideline 
for every three or six months should be that the priority cases 
are children whose goal is adoption, and/or any child who is 
not currently living in a permanent placement. These needs 
should be considered by the court during the review of 
individual cases.
    3. [Page 50076], paragraph 13 of page, Section 1356.21 (i), 
paragraph 7 of section, ``Requirements for Filing a Petition to 
Terminate....,'' paragraph beginning, ``In Subparagraph 
(i)(1)(i)(C), we propose that...:'' It is critical that all 
time spent in the foster care system is addressed when 
calculating the issue of 15 out of 22 months. A child's sense 
of time, permanency and belonging should not be disrupted when 
possible manipulation of time elements, based upon 
strategically timed hearings and determinations, may be 
utilized in order to prolong any termination of parental 
rights.
    4. [Page 50086), paragraph 6 of page, paragraph 3 of 
section, Section 1355.20, Definitions (a), paragraph 3, 
beginning ``Date the child enters foster care means:'' 
Calculating the date the child enters foster care in this way 
could actually prolong the time of permanency planning 
hearings, in much the same way as done previously. It is within 
Congressional intent that the foster care entry date be kept to 
the time-line, or up to 15 months after the date the child was 
physically removed from the home.
    5. [Page 50074], paragraph 8 of page, Section 
1356.21(b)(5), paragraph 3 of section, ``Circumstances in 
Which...,'' beginning, ``In circumstances in which the criminal 
proceedings....'' It is extremely important that ASFA give 
States direction in the definition of aggravated circumstances 
that do not require reasonable efforts for reunification. It is 
not within Congressional intent to return children to extreme 
situations simply due to the fact that the particular 
circumstance is not listed in federal law. It is not right for 
a child to be harmed or killed because decision makers were 
unclear as to what acts are too heinous to deny reunification.
    The goal of ASFA is to streamline the adoption process for 
children in the foster care system, to support children who can 
be reunified with a biological family and to assure safety for 
all these children. While reunification with a biological 
family is of great importance, there are times when it is just 
not feasible. As Congress has recognized, in some situations 
children can not safely go back to a biological home for any 
number of reasons. ASFA attempts to prevent these children from 
languishing in the foster care system by freeing them for 
adoption in a timely fashion, while attending to their safety.
    We need strong federal law to guide the States in their 
efforts of keeping children safe as per the Congressional 
intent with which ASFA was written. As existing presently, many 
of the proposed regulations do not address a penalty structure 
should States not follow the law. What, then, is the motivation 
for addressing children's needs in any fashion other than that 
used over the past, almost, 20 years?
    We need strong methods by which to educate decision makers 
on ASFA and the implications for their work with children. 
Through our work with specific cases we have found a great lack 
of awareness about ASFA, even to the point of its existence, in 
many States from numerous people working closely with children.
    We urge you to address the proposed regulations by 
upholding Congressional intent in the writing and passage of 
The Adoption and Safe Families Act of 1997. Our nation's 
children deserve the safety and permanence at the foundation of 
this new law.
    Thank you for your consideration.
                                            Janet R. Snyder
                                                 Executive Director
                    Hear My Voice, Protecting Our Nation's Children
      

                                <F-dash>


     Mr. Camp. I met with Janet last week, and I know she 
regrets not being able to be here today, and I strongly believe 
that we would not be talking about foster care and adoption 
without the efforts of Janet and her organization. I think the 
Adoption and Safe Families Act was a team effort because of 
child advocacy groups like Hear My Voice and their key role in 
pushing for this legislation, which promoted children's right 
to safe and permanent families.
    They didn't let up, and they also gave me a lot of personal 
encouragement to keep going forward. So I would also encourage 
the Department of Health and Human Services to pay careful 
attention to her recommendations and her testimony as you 
continue to implement the legislation.
    Thank you, Madam Chairman.
    Chairman Johnson of Connecticut. Thank you. And now, I'd 
like to bring forward Hon. Olivia Golden, Assistant Secretary 
for Children and Families, of the U.S. Department of Health and 
Human Services. Welcome.

  STATEMENT OF HON. OLIVIA A. GOLDEN, ASSISTANT SECRETARY FOR 
  CHILDREN AND FAMILIES, U.S. DEPARTMENT OF HEALTH AND HUMAN 
                            SERVICES

    Ms. Golden. Thank you.
    Madam Chairman and Members of the Subcommittee, thank you 
very much for the opportunity to appear before you today to 
discuss Federal oversight of the child welfare system. I want 
to thank all of you for your leadership. This work is 
enormously important, and I appreciate your leadership and your 
commitment.
    These last 5 years have seen extraordinary changes in the 
laws and procedures affecting child welfare and significant 
investment in resources designed to strengthen systems and 
improve outcomes for hundreds of thousands of children and 
families. I'd like to mention some of the most important 
accomplishments. First, as already cited, thanks to 
congressional leadership, the administration's Adoption 2002 
Initiative, the passage of new Federal legislation, and 
innovative activity supported by States and foundations, we 
have made great progress in finding adoptive families for 
children waiting in foster care. Between 1996 and 1997, the 
number of children adopted grew from 28,000 to 31,000, and it 
appears the increase in 1998 was even greater.
    Second, in response to the Adoption and Safe Families Act, 
33 States have already passed legislation to promote better 
outcomes for children.
    Third, we have made significant investments in new child 
welfare information systems and tremendous strides in the 
reporting of data. For instance, all States are now submitting 
adoption and foster care data, compared to the 33 to 37 States 
that previously submitted data in any given reporting period.
    Yet, we still have a long way to go. I would like to 
briefly summarize the key actions that the Congress and the 
administration have taken to strengthen the national framework 
and national oversight of child welfare, and the most important 
next steps that we must take on behalf of children.
    The success we have seen in adoption reflects the work that 
we have done together to strengthen the national framework for 
child welfare. Over the last several years, the administration 
and Congress, working together in a bipartisan manner, have 
passed critically important child welfare legislation, 
including the Adoption and Safe Families Act, the Multiethnic 
Placement Act, and Inter-ethnic Placement provisions.
    These laws have made children's safety the primary 
consideration, emphasized the need for timely decisionmaking on 
behalf of children in foster care, torn down barriers to 
adoption, and placed increased emphasis on accountability and 
the achievement of positive outcomes for children and families.
    In response to these legislative changes, we have held 
States accountable for promptly bringing their laws and 
policies into compliance, and we have provided technical 
assistance to help them do so.
    A key part of our strategy for improving child welfare has 
been a focus on developing the capacity to measure results and 
to hold all partners in the system accountable for improved 
performance. The progress made in adoptions demonstrates the 
effectiveness of this strategy.
    I would like to mention two additional areas where we are 
moving forward in focusing on results in child welfare. First, 
as required in the Adoption and Safe Families Act, the 
department has developed, in consultation with the field, an 
initial list of results measures that can be used to gauge 
State performance in ensuring child safety and permanence. The 
list has been published for comment in the Federal Register, 
and we are now reviewing input received.
    Second, in response to legislation adopted by Congress in 
1994, we have published a proposed regulation for a new 
outcomes-based child welfare monitoring system. We realized 
from the beginning that this statutory requirement offered an 
important opportunity to redesign the monitoring system to 
focus on results rather than process and to dramatically 
improve the way the child welfare system works for children.
    At the same time, we realize that this ambitious goal would 
require major changes in the previous system and that no one 
person or organization had the answers for how to do it. 
Therefore, following passage of the law, we undertook extensive 
consultation and conducted 24 pilot tests.
    These pilot reviews served to hold States accountable in 
new ways as they uncovered both systemic problems and strengths 
that the old approach to monitoring had not identified. They 
also suggested a number of lessons about monitoring that are 
reflected in our proposed regulation.
    For example, structuring a review around the outcomes we 
want for children and families, safety, permanence, and well-
being, help to reorient all parties involved in the review 
process to focus on the improvements needed to assure those 
outcomes.
    We are now carefully reviewing and analyzing the extensive 
and thoughtful comments we received and working to complete the 
final rule.
    At the same time that the Federal Government has a critical 
role in accountability for results, it is also essential for us 
to invest in building the capacity of States to provide quality 
services.
    My long statement presents much more detailed information 
in this area, including our support of 10 national resource 
centers, the initiation of a national longitudinal study of 
child welfare, and the approval of child welfare demonstration 
projects in 18 States.
    In conclusion, we are at a critical juncture in child 
welfare. We have together strengthened the legal framework for 
children, increased attention to outcomes, and begun to address 
the capacity needs of courts and agencies.
    Now is the time to continue the momentum of change. This is 
a critical time for States to take the next step to move reform 
from the policy arena to changes in frontline practice of every 
child welfare worker and to build strategies that go far beyond 
the child welfare agency to involve every community.
    At the Federal level, we must remain an active participant 
in helping States achieve these improvements by exercising 
leadership, providing resources and assistance, and holding 
States accountable for positive results.
    Thank you for the opportunity to appear before the 
Subcommittee today, and I would be delighted to answer 
questions.
    [The prepared statement follows:]

Statement of Hon. Olivia A. Golden, Assistant Secretary, Children and 
Families, U.S. Department of Health and Human Services

    Madam Chairman and Members of the Subcommittee,
    Thank you for the opportunity to appear before you today to 
discuss federal oversight of the child welfare system: the 
network of state, local, and private organizations that seeks 
to ensure safety, permanence, and well-being for our nation's 
most vulnerable children, those children who have experienced 
or are at risk of child abuse and neglect. This work is 
enormously important and I want to thank the Committee for your 
leadership and commitment. I am also pleased to have the 
opportunity to report to you on our success in increasing the 
number of children adopted from the foster care system.
    These last five years have seen extraordinary changes in 
the laws and procedures affecting child welfare and significant 
investment in resources designed to strengthen systems and 
improve outcomes for hundreds of thousands of children and 
families. In fact, a significant achievement of the last five 
years is that today all parties involved in child welfare--from 
the federal government to state government to private 
providers--are looking at outcomes and working to determine how 
to improve them. The changes that we and the states have made 
have the potential to make significant improvements in the 
results achieved from these services. Among the most important 
accomplishments:
    <bullet> Thanks to the Administration's Adoption 2002 
initiative, federal legislation, and innovative activities 
supported by states and private foundations, we have made great 
progress in finding adoptive families for children waiting in 
foster care. Between 1996 and 1997, the number of children 
adopted grew from 28,000 to 31,000 and it appears the increase 
in 1998 was even greater.
    <bullet> In response to the Adoption and Safe Families Act, 
33 states have passed legislation to promote better outcomes 
for children, including provisions that strengthen the focus on 
safety by clarifying circumstances when it is neither necessary 
nor appropriate to reunify children with their parents.
    <bullet> We have made significant investments in new 
automated systems that can generate the data and information 
needed by states and the federal government to track results 
and manage cases effectively.
    Yet we still have a long way to go. Because of the 
continuing problems of child abuse and substance abuse and 
other factors, the number of children in foster care continues 
to grow and too many children remain in care for too long; the 
median length of stay nationally is 21 months. And 
approximately 18 percent of children have been in care for 5 
years or more. There are simply too many children who drift in 
foster care wondering to whom they belong.
    In my testimony, I would like to provide an overview of the 
child welfare system today, highlight the key actions that the 
Congress and the Administration have taken to strengthen the 
national framework and national oversight of child welfare, and 
summarize the results we have seen so far. I would also like to 
identify the most important next steps that we must take on 
behalf of children.

                 Children and the Child Welfare System

    Each year, child protective services (CPS) agencies 
investigate reports involving almost 3 million children, nearly 
a million of whom are found to be victims of substantiated or 
indicated abuse and neglect. These figures have begun to 
decline slightly over the past several years, following two 
decades of steady increases in the number of children reported 
to CPS. While the majority of children coming to the attention 
of CPS remain with their families, about 15 to 20 percent of 
the victims of abuse and neglect must be removed from their 
homes and placed in foster care for some period of time in 
order to ensure their safety. Approximately 520,000 children 
were in foster care as of the end of March 1998, an increase of 
28 percent over the estimated 406,000 children in care at the 
end of 1990.
    Every day, front line workers, administrators and judges 
across the country are called on to make incredibly difficult 
decisions about the lives of these children and their families. 
How can they best ensure a child's safety? Can a family facing 
multiple problems be strengthened to provide appropriate care 
and nurturing of its children? Can a child's need for a 
permanent place to call home best be achieved by working with 
the family of origin, or should an adoptive family be sought?
    The child welfare system is complex--involving many 
organizations, institutions, and individuals. Public child 
welfare agencies, other public human services agencies, 
juvenile courts, private service providers and, of course, 
families themselves, all share responsibility for ensuring 
children's safety, permanence and well-being. Historically, 
child welfare services began largely as a function of private 
agencies and later developed as a responsibility of state and 
local governments. Ultimately, it is state government that has 
primary responsibility for carrying out child welfare programs 
and for protecting children in their care and custody. And, it 
should be noted states retain significant latitude in the 
design and delivery of child welfare services to help fulfill 
this responsibility in a manner that best meets the needs of 
their jurisdiction. Consequently, there is significant 
variation across states in practice and policy, including 
distinctions in the definitions of abuse and neglect and the 
standards for intervening in family life.
    The federal role in child welfare is a relatively recent 
historical development. Today, the federal government's role 
includes creating and implementing a common policy framework in 
which child welfare services are to be carried out; sharing in 
the financing of child welfare services; and, holding states 
accountable both for using federal dollars in an appropriate 
manner and for achieving the results these programs are 
intended to accomplish. The federal role also includes helping 
to establish goals and priorities that provide direction to 
states; promoting innovation in service delivery; funding 
research and evaluation that help us to understand the dynamics 
of the child welfare system and the practices that can lead to 
better results; and, providing technical assistance to help 
states and localities strengthen their programs.

                         Increases in Adoption

    In at least one area of child welfare, the adoption of 
children from the foster care system, we already have begun to 
see positive changes resulting from the reforms in federal and 
state laws and the increased federal attention being paid to 
child welfare issues. In November 1996, the Administration 
launched the ``Adoption 2002'' initiative, the centerpiece of 
which called for doubling the number of children who are 
adopted from the foster care system by the year 2002.
    This ambitious and specific goal, along with a set of 
strategies to reach the goal, have served to elevate the 
importance of adoptions, hold states accountable for their 
actions, and reward progress in increasing the number of 
adoptions.
    The Congress, in responding to the President's initiative, 
made key legislative reforms and by authorizing and 
appropriating funds for the adoption incentive program, 
provided vital leadership to encourage greater state activity. 
The results have been impressive. In fiscal year 1997, there 
were approximately 31,000 children adopted from the foster care 
system, up from about 28,000 the year before. Preliminary 
analyses of data for fiscal year 1998 suggest that there was an 
even greater increase in adoptions last year. And, the fact 
that there is now national attention being paid to the number 
of adoptions has prompted the states to improve their 
collection and reporting of information on children being 
adopted from foster care. These improved reporting systems 
allow states to identify and solve problems sooner and help us 
all better track states' progress.

         Strengthening the National Framework for Child Welfare

    The success in adoption reflects a part of the work we have 
done together to strengthen the national framework for child 
welfare. Over the last several years, the Administration and 
Congress, working together in a bipartisan manner, have passed 
critically important child welfare reform legislation, 
including the Adoption and Safe Families Act, the Multiethnic 
Placement Act of 1994 and the Interethnic Placement provisions 
of 1996. Together, these laws:
    <bullet> make it clear that ensuring children's safety and 
well-being is the first consideration of the child welfare 
system;
    <bullet> require timely decision-making on behalf of all 
children in foster care;
    <bullet> tear down barriers to adoption, whether based on 
racial discrimination, geographic boundaries or simply outmoded 
assumptions about which children are adoptable;
    <bullet> provide additional resources for services and 
encourage greater collaboration to create a network of supports 
for families at risk or in crisis; and
    <bullet> place increased emphasis on accountability and the 
achievement of positive outcomes for children and families.
    In response to these changes in federal law, we have held 
states accountable for promptly bringing their laws and 
policies into compliance. After the passage of the Multiethnic 
Placement Act, for instance, we found that 29 states and the 
District of Columbia had laws or policies that allowed race-
based discrimination in foster care and adoption placements and 
we worked with them to eliminate discriminatory policies. 
Similarly, to ensure that states would promptly change laws as 
required by the passage of the Adoption and Safe Families Act 
(ASFA), we provided technical assistance for state legislatures 
through the National Conference of State Legislatures and 
others at the same time that we made clear to states the 
funding consequences of failure or delay in passing appropriate 
legislation. As of April 1, 1999, 33 states have passed the 
appropriate legislation to come into compliance with ASFA and 
another 7 states have passed legislation that is now being 
reviewed by ACF to determine if it does comply. Two states have 
passed laws that do not fully conform to ASFA and we will work 
with them to correct these problems. The remaining states 
either have not begun a legislative session since passage of 
ASFA or have legislation that has been introduced but not yet 
passed. We will continue to hold states accountable to ensure 
that all come into compliance with ASFA's reforms.

                            Focus on Results

    A key part of our strategy for improving child welfare 
since early in this Administration has been a focus on 
developing the capacity to measure outcomes and hold all 
partners in the system accountable for improved performance. 
The progress we have made in adoptions demonstrates the 
effectiveness of this strategy. Tracking adoption outcomes, 
setting goals for the future, making those goals visible, and 
providing fiscal incentives tied to results have been key 
elements of this successful strategy. Another key element, 
described more fully below, has been the improvement of state 
capacity to measure adoptions as well as other outcomes, which 
has required a sustained effort to improve dramatically the 
quality of state information systems. To push the results 
agenda beyond adoption and hold all partners in the child 
welfare system accountable for the key goals of safety, 
permanence, and well-being, we must build on the knowledge we 
have attained through the adoption strategy and three key 
accomplishments:
    <bullet> As required in the Adoption and Safe Families Act, 
the Department has developed, in consultation with the field, 
an initial list of results measures that can be used to gauge 
State performance in ensuring child safety and permanence. The 
list has been published for comment in the Federal Register, 
and we are now reviewing input received from almost two-thirds 
of the states, at least 12 organizations, a number of 
researchers, several members of Congress, and other interested 
individuals.
    <bullet> The Department has conducted 24 pilot tests of an 
outcomes-based monitoring system and has published proposed 
regulations that draw substantially on the lessons from those 
pilots. We currently are reviewing public comments on the 
regulations and intend to publish a final rule before the end 
of this year.
    <bullet> As a result of federal financial assistance, 
technical support, and clear accountability that includes 
phased-in penalties, states are now collecting and able to 
report much more timely and accurate data on foster care and 
adoptions. Reporting on child abuse and neglect also has 
improved considerably, as a result of both financial and 
technical assistance.
    Each of these elements which focus on results is described 
more fully below.

      ASFA Requirement for National Child Welfare Outcome Measures

    To develop a list of measures that would reflect the best 
available knowledge in the field, the Department engaged in 
extensive consultation, including focus group discussions at 
major child abuse and child welfare conferences. We also formed 
a consultation work group comprised of state and local 
administrators, state elected officials, advocates, 
researchers, and others, who met twice and participated in 
several conference calls to help select and refine measures and 
discuss their appropriate use. Since publication of the initial 
list in the Federal Register in February, we have been 
reviewing the extensive comments that we received and analyzing 
the availability of data to support suggestions that were made. 
We plan to finalize the list of measures soon and will then 
submit the first annual report based on these measures later 
this year.

                        Child Welfare Monitoring

    As you know, another area where we have been working to 
increase the focus on outcomes is in our proposed revision of 
the child welfare monitoring process. In fact, one reason we 
have been able to make good progress in response to the ASFA 
requirements for outcome measures is that, as part of our work 
to revise child welfare monitoring, we already had articulated 
the basic goals of the child welfare system: child safety, 
permanence, and child and family well-being. These three goals 
are now well accepted by the child welfare field and are being 
used by many states in their own work with child outcome 
measures.
    We had begun work to revise our process for conducting both 
programmatic reviews and title IV-E foster care eligibility 
reviews in 1994, when Congress adopted legislation requiring a 
new approach. The law required the Department, in consultation 
with state agencies, to promulgate regulations for review of 
state child and family services programs in order to determine 
whether programs are in substantial conformity with applicable 
state plan requirements and federal regulations. Among other 
requirements, the statute said that the regulations should 
afford the states an opportunity to develop and implement a 
corrective action plan, receive technical assistance, and 
rescind the withholding of funds if a state's failure to 
conform is ended by successful completion of a corrective 
action plan.
    We realized from the beginning that this statutory 
requirement offered an important opportunity to redesign the 
monitoring system to focus on outcomes rather than process and 
to dramatically improve the way the child welfare system works 
for children. At the same time, we realized that taking on such 
an ambitious goal would require major changes in the previous 
system and that no one person or organization had the answers 
for how to do it. Therefore, following passage of the new law, 
we held numerous focus groups to gain public input into the 
revision of the procedures used for both programmatic and 
financial reviews. In addition, we determined that we would 
have to go out and conduct pilot reviews in order to design and 
field-test an effective and practical way of assessing state 
performance with an outcome focus. This entire process did 
result in a delay in issuing regulations for longer than any of 
us would have wanted, but provided invaluable insight into the 
major redesign of the monitoring system.
    Before publishing proposed regulations, we conducted a 
total of 24 pilot reviews--12 Child and Family Services Reviews 
and 12 title IV-E Foster Care Eligibility Reviews. These pilot 
reviews suggested a number of lessons about approaches to 
monitoring, and they also served to hold states accountable in 
new ways as they uncovered both systemic problems and strengths 
that the old approach to monitoring had not identified.
    Among the key lessons from the pilots that drove the design 
of our proposed monitoring system:
    <bullet> A review team comprised of both federal and state 
staff fostered working partnerships that more effectively 
assisted states in identifying strategies for corrective action 
and technical assistance.
    <bullet> In the program reviews, where we went beyond state 
officials and included local caseworkers, recipients of 
services, foster parents, and other stakeholders in the 
process, we found that this strategy broadened the perspective 
of the review.
    <bullet> An emphasis on program improvement planning in the 
eligibility reviews led to specific recommendations for 
improving the accuracy of title IV-E eligibility 
determinations, foster care licensing, and the quality of 
services provided to children.
    <bullet> Structuring a review process around the outcomes 
we want for children and families--safety, permanence and well-
being--helped to reorient all parties involved in the review 
process to focus on the improvements needed to assure those 
outcomes.
    <bullet> By contrast, focusing solely on procedural steps 
and on the case records that document compliance with those 
steps is insufficient for improving performance in child 
welfare services. As reviewers looked at the case folders that 
had been designed to meet previous requirements, they found 
that these folders often reflected a focus only on documenting 
procedural steps. As one reviewer noted, ``We got what we asked 
for.'' The case folders often did not reflect a focus on the 
key goals of safety, permanence, or well-being of children.
    The work we did and the lessons we learned through the 
pilot review process informed the development of a Notice of 
Proposed Rulemaking (NPRM) relating to both title IV-E foster 
care eligibility reviews and Child and Family Services State 
Plan Reviews. In our NPRM, published on September 18, 1998, we 
outlined the new procedures that we are proposing for both 
types of reviews. In response to the Federal Register notice, 
we received 176 letters primarily from state and local child 
welfare agencies, national and local advocacy groups for 
children, educational institutions, and individual social 
workers. We also appreciated receiving the thoughtful comments 
of several members of Congress. We have been carefully 
reviewing and analyzing comments and working to complete the 
final rule.

                   Child Welfare Information Systems

    The third critical building block of a results-based 
strategy for improving child welfare performance is improvement 
in child welfare information systems. The last several years 
have seen dramatic progress, as a result both of state 
commitment and federal financial assistance, technical support, 
and clear accountability.
    <bullet> The Omnibus Budget Reconciliation Act of 1993 
authorized enhanced Federal financial participation at the 75 
percent rate for statewide automated child welfare information 
systems (SACWIS). This enhanced level of funding was initially 
authorized for three years, through September 30, 1996, but was 
later extended to September 30, 1997. Federal funds continue to 
be available at the 50 percent match rate. To date, 19 States 
have SACWIS systems that are fully operational.
    <bullet> On the same day that guidance was issued to the 
States on applying for SACWIS funds, the Department also 
released the final regulations for the Adoption and Foster Care 
Analysis and Reporting System (AFCARS). The AFCARS collects 
automated case-level information on all children in foster care 
for whom the state child welfare agency has responsibility for 
placement, care or supervision. It also collects information on 
children whose adoptions from the foster care system have been 
finalized. AFCARS data are reported semi-annually.
    <bullet> We are now seeing substantial improvements in the 
completeness and quality of the AFCARS data after an initial 
developmental period. To encourage the submission of timely and 
accurate data, our regulations outlined a penalty structure for 
data submissions that are missing data or that fail certain 
quality checks. No penalties applied during the first three 
years (or six reporting periods) of data collection. However, 
beginning with the submission of data for the period of October 
1, 1997--March 31, 1998, states are liable for penalties, if 
they fail to correct the problem within six months. 
Consequently, we are seeing significant improvements in the 
data. All states and the District of Columbia are now 
submitting data, whereas in the past only 33-37 States 
submitted data for any given reporting period.
    <bullet> In the area of child abuse and neglect, we are 
also making progress in the reporting of data through the 
National Child Abuse and Neglect Data System (NCANDS). Almost 
all states have submitted aggregate data for eight consecutive 
years (1990-1997) on the numbers and characteristics of 
children reported to child protective services, providing the 
most complete trend data ever collected on child abuse and 
neglect. In response to amendments made in the 1996 
reauthorization of the Child Abuse Prevention and Treatment 
Act, the number of data elements on which states report 
annually also has been expanded. In addition to progress in the 
submission of aggregate data, we are seeing increasing numbers 
of states submit automated case-level data that enables us to 
undertake more complex analyses.
    The investments of financial and technical assistance 
resources we are making in information systems and data 
collection are critical for at least two reasons. First, new 
information systems will provide State child welfare agencies--
from administrators down to caseworkers--with access to 
expanded and more timely information that will better enable 
them to serve children and families. Second, the systems will 
be capable of collecting and reporting the data that States and 
we need to be able to track outcomes.

  Supporting Successful Performance: Technical Assistance, Training, 
                      Research, and Demonstration 

    At the same time that the federal government has a critical 
role in accountability for results, we also believe it is 
essential for us to invest in training and technical assistance 
to build the capacity of states to implement legislative 
reforms and provide quality services. For instance, the 
Children's Bureau in ACF provides over $6 million annually for 
10 resource centers whose role is to build the capacity of 
state, local, tribal and other publicly administered or 
publicly supported child welfare agencies. These resource 
centers are organized around subject areas (e.g. Special Needs 
Adoptions, Child Maltreatment, Permanency Planning, 
Organizational Development, Legal Issues, etc.) and can provide 
specialized assistance in each of these areas tailored to state 
needs. The resource centers also develop written materials for 
broad distribution, such as the guide on the implementation of 
the Multiethnic Placement Act and the Interethnic Adoption 
provisions developed by the National Resource Center on Legal 
and Court Issues, which is operated by the American Bar 
Association's Center on Children and the Law. Through training 
grants, we also have seeded partnerships across the country 
between schools of social work and public child welfare 
agencies to improve the training of front line workers and 
managers.
    Another important area of federal activity is the support 
of research and innovation. I would like to highlight two 
different areas of activity that will increase our 
understanding of the child welfare system and promote knowledge 
about innovative practices in service delivery and financing.
    Thanks to the authorization of funds for a longitudinal 
study of child welfare included in the Personal Responsibility 
and Work Opportunity Reconciliation Act of 1996, we have 
awarded a contract to the Research Triangle Institute to 
conduct a National Survey of Child and Adolescent Well-Being. 
This study will provide nationally representative, longitudinal 
information on the functioning, service needs and service 
utilization, and outcomes for children and families who are 
referred to the child welfare system within a one-year period. 
We expect that the first report from this study, describing the 
characteristics of the children and families in the sample will 
be available by the end of 2000.
    A second area of activity that we expect to generate 
important new information is the title IV-E child welfare 
waiver demonstrations, which this committee was instrumental in 
creating. Through the end of FY 98, 18 states--the maximum 
number allowed by the statute--have received approval for 
demonstration projects, and we currently are awaiting state 
responses to the announcement seeking applicants for FY 99 
demonstrations. The demonstration projects involve waivers of 
certain provisions of title IV-E and related regulations, and 
each one includes a rigorous evaluation. The demonstrations 
cover a wide range of topics, from broad systems reform 
strategies to specific projects that focus on addressing 
substance abuse, increasing the number of adoptions, and 
testing strategies for assisted guardianship.

                           Future Directions

    We are at a critical juncture in child welfare. We have 
strengthened the legal framework for children. We have 
increased attention to outcomes. We have begun to address the 
capacity needs of both courts and agencies. We have started to 
build more collaborative arrangements with other human service 
agencies whose services are critical if we are to meet the 
needs of children and families in the child welfare system. We 
have also begun to tap the broader resources of communities to 
support families before they go into crisis and to help find 
new families for children in foster care who cannot return home 
safely.
    Of course, there is a great deal remaining to be 
accomplished. Far too often, despite the dedication and 
creativity of state and local policy-makers and the 
extraordinary commitment of front-line child welfare workers, 
state child welfare systems are overwhelmed by high caseloads, 
burn-out and high turnover among workers; lack of training and 
experience among both workers and supervisors; lack of 
communication across agencies and between state agencies and 
the community; unclear or shifting missions; and, information 
systems that --despite the recent improvements catalogued 
above--far too often feel like a burden rather than a support 
to staff. Under these circumstances, changes in policy can take 
a very long time to translate into true improvements in 
services for children. And under these circumstances, 
children's well-being--and, too often, even children's live--
are at risk.
    Now is the time to continue the momentum of change and 
seize the opportunities that federal and state policy have 
created--opportunities that build on the dramatic improvements 
in adoption, the shift to a focus on results, the stronger 
information systems, and the national investment in technical 
assistance, research, and demonstration. This is a critical 
time for the states to take the next steps to move reform from 
the policy arena to changes in the frontline practice of every 
child welfare worker, and to build strategies that go far 
beyond the child welfare agency to involve every community. At 
the Federal level, we must remain an active participant in 
helping states achieve these improvements, by exercising 
leadership, by providing resources and assistance, and by 
holding the states accountable for achieving positive results. 
As part of this leadership, we must finalize regulations for 
monitoring and fully implement the results-based approach to 
federal oversight.
    There also is at least one additional area that warrants 
increased national attention through passage of federal 
legislation--the issue of children aging out of the foster care 
system. Just last month, this Subcommittee held a hearing on 
the issue of how to help youth emancipated from foster care 
become self-sufficient, productive and healthy adults. As you 
know this is an issue which the President identified as a 
priority in his FY 2000 budget, and on which we have submitted 
proposed legislation. We are very much looking forward to 
working with you to enact a bipartisan bill this year. In doing 
so, I believe we will make a difference in the lives of the 
estimated 20,000 young people who are emancipated from foster 
care each year, just as we have helped to make a difference in 
the lives of thousands of children who now are living in 
adoptive families, rather than remaining in the limbo of foster 
care.
    Thank you for the opportunity to appear before the 
Subcommittee today. I would be pleased to answer any questions 
you may have.
      

                                <F-dash>


    Chairman Johnson of Connecticut. Thank you very much. You 
know, it is interesting to me that we have had almost a decade 
now, since we suspended the penalty process, and with it, 
certain aspects of Federal oversight. We also have not 
promulgated regulations that were supposed to be promulgated in 
1995. And, you know, when you look at, in a sense, the relative 
lack of regulatory mechanisms and oversight mechanisms in a 
number of areas in the last 10 years, and now a really new 
approach that you are taking, do you see--what would you say is 
the effect of those regulations?
    Did they create an opportunity to experiment with new 
systems? Are there things you have learned from our having 
relieved the regulatory environment through, sort of, default 
in the last 10 years?
    Ms. Golden. Well, I think I would describe the 5 years 
since Congress required that monitoring be in regulation as an 
enormous opportunity for us because it really reflected the 
consensus it was time to change the system substantially. This 
was the first time that the monitoring process was to be 
addressed through regulations, the previous monitoring system 
had not been regulated.
    I think that what we did was take the opportunity to try 
out what an outcome-based system would look like; that's why we 
conduct 24 pilots. We also didn't wait for the regulations to 
create an environment of accountability. What we did was push 
on accountability through a lot of different mechanisms, 
through the pilot reviews themselves, where States learned what 
they needed to do, and through enforcement with States based on 
the statute. For example, after passage of the Adoption and 
Safe Families Act, we didn't wait for regulations to tell 
States that they needed to change their laws.
    We gave them technical assistance and made sure they did 
it. And we also created an environment of accountability around 
data collection. So we didn't wait for the regulations. But I 
believe that when they are final, they will give us a very 
important additional tool. You also asked what we learned from 
the pilots. I would like to talk about that because I think, 
based on what I observed on one pilot review and what I have 
heard from others, we have learned an enormous amount.
    One of the things we learned is that when you do outcome-
based reviews, you really do focus everybody on what has to 
change in order to make a difference for children. I think 
there are many examples of that and having the regulations 
final will give us an extra tool to make that happen.
    Chairman Johnson of Connecticut. I am very interested in 
this aspect because really the substance and the guidance for 
welfare reform came from States doing things that they had 
never done that were out from under the law, using their own 
resources, particularly. And the regulations that were--the 
laws that were adopted in 1994 and the regulations that were 
supposed to be in place by 1995--the fact that they weren't in 
place I don't consider that necessarily a bad thing. But it is 
true that is what we had anticipated.
    But it did give the States a framework in which they 
thought we wanted them to perform with also an opportunity for 
them to think about how best to do that. And so I would like to 
gain a better understanding of what kind of State experiments 
and State efforts are reflected in your regulations because I 
think we have to be sure that now that we have come back with 
regulations, we don't stifle the variety of changes that we are 
seeing happening. And I personally would like to see some 
loosening up of the waiver process.
    You know, with the Ed flex bill, basically you are seeing 
this kind of movement into education. That's what I see 
happening in children's services in my State. And so I want to 
be sure that those initiatives are well-reflected by your 
regulation.
    Ms. Golden. Well, a couple of examples might address that. 
I think you are raising two issues that are both really 
important. One is about the monitoring structure and 
regulations and one is about the contents of how States do 
their programs.
    On the monitoring side, Connecticut is actually, I think, 
an example of how we learn from the pilot reviews and how the 
State learned. We did a pilot review there. The State, and we 
learned some things from that, including areas where they could 
be stronger, such as training. They were doing administrative 
case reviews but they weren't necessarily feeding what they 
learned from it back into their practices fully.
    And they have made some of those changes. They are one of 
the States where we learned how, when you do the review 
together, you really can push change and improvement.
    On the demonstration side, I really appreciate your 
leadership and the Subcommittee's leadership in making sure we 
have that demonstration authority. Eighteen States now have 
waiver authority from us, and the maximum allowed by the law 
through the end of 1998. We are awaiting State responses for 
1999.
    And just some examples there. We have States working on 
substance-abuse issues; we have States working on guardianship 
strategies; we have States working on various kinds of systems 
reform, how to get dollars to counties in different ways. We 
have a number of States working on youth issues. And I know, in 
light of the tragedy that both you and Mr. Cardin noted, I do 
think that all the work that is being done in the youth area is 
especially important.
    So I would say that we have an array of very interesting 
demonstrations going on, and we are looking forward to the 
evaluation results.
    Chairman Johnson of Connecticut. Would you support 
eliminating a numerical number on the number of waivers that 
you can approve?
    Ms. Golden. Well, I think what we have found helpful about 
the limit on the number of demonstrations is that it has made 
the States have to compete a little bit. It has created 
somewhat of a pressure for effective demonstrations. If the 
Subcommittee was interested in making some proposals to change 
the number, we would certainly review them. But at this point, 
I think we feel as though the existing authority has been a 
pretty effective one and has enabled us to get some really good 
demonstration projects.
    Chairman Johnson of Connecticut. I am going to recognize 
Mr. Cardin and yield the chair to Mr. English.
    Thank you.
    Mr. Cardin. Dr. Golden, welcome. It is always a pleasure to 
have you before our Subcommittee.
    Obviously, the fact that the number of foster children 
being adopted is at record numbers is good news. And all of us 
are very pleased to see this trend. Let me just comment on the 
Washington Post article and ask for your comment on it, where 
the article points out that experts caution, however, that the 
surge in placements could have dangerous side effects. With 
pressures building for increased adoptions, this may lead to 
more cases of ill-prepared families taking on emotionally 
troubled children.
    And then the article goes on to suggest that there is no 
information as to the age of the children or the minority 
status of the children currently being adopted and that we may 
have good numbers because of the easier children and it is 
going to be more difficult getting the older children and 
minority children and those with disabilities adopted.
    Your comments on both points; that is, whether we are at 
risk because of the surge in adoptions, whether the families 
are prepared. Second, whether we are just dealing with the 
easier, the younger foster children?
    Ms. Golden. Well, I'd to share a couple of thoughts. The 
first is that what we all clearly want is permanent, loving 
adoptive homes that succeed for those children. So we all share 
a goal here, which is about enabling children to move quickly 
to adoption, not to linger in foster care.
    In terms of the issue of whether families are prepared, I 
think the key issue is making sure that at the Federal level we 
are holding States accountable, and then at the State level 
that they are building partnerships and investments to make 
sure that families are prepared. The Promoting Safe and Stable 
Families Program authorized by the Adoption and Safe Families 
Act offers some dollars. And in addition, a couple of the 
demonstrations that we have approved involve States that are 
focusing, to some degree, on postadoption services.
    So I really see this as an area that we all have to be 
committed to working on.
    Mr. Cardin. That actually brought me to another question, 
and that is, what have we learned from the demonstration 
programs. And that's good to hear. You feel comfortable that--
obviously there is always risk--but you feel comfortable that 
there is adequate authority and attention by the States to this 
particular issue?
    Ms. Golden. I guess the way I would say it is that I don't 
think we are done yet, but I think it is the right thing for us 
to be focusing on. In some ways, as I think you said earlier, 
there are some good problems to have. As we succeed in moving 
children more quickly through the system, we have to focus on 
making sure that we are supporting families so they can succeed 
with those children.
    And I do think that we are going to learn a lot more about 
how to do that and that we have some of the core authority to 
do that.
    Mr. Cardin. Good. And I would encourage you to place 
priority on the followup.
    With respect to the $20 million cap on the bonuses that we 
pay for foster children being adopted, with the large number of 
adoptions, is there a concern that we might be reaching this 
cap? Is there a need for us to look at changing that cap?
    Ms. Golden. Well, let me tell you where we are now on that, 
and then I think that is one on which we will be coming back to 
you as our information gets more firm.
    Right now, we are still reviewing the final 1998 
information. We don't quite have the final numbers either on 
the total number of adoptions or on the breakout of the number 
with or without special needs. So we are working on that. You 
are right to note that we are delighted by what we see in the 
State performance so far and that it really does look as though 
there has been very substantial improvements beyond what was 
expected.
    And it is also right that if that holds up as the numbers 
become final, then the amount that is there now wouldn't be 
enough to do the total bonuses. The provision that is in the 
statute right now would have a pro rata reduction of the amount 
of the bonus if the increase is greater than anticipated. So 
right now we are reviewing all that information. It is not 
quite final yet.
    Mr. Cardin. Is it possible you will be coming in and asking 
for an adjustment?
    Ms. Golden. Right now, where we are is that we are looking 
at the information and we will get back to you.
    Mr. Cardin. We should try to get that done as quickly as 
possible.
    One of the requirements in the law is that States with 
certain exceptions, must institute a termination of parental 
rights if the child has been in foster care for 15 out of the 
22 months. My question: Are any of the pilot programs dealing 
with that? Do the States have adequate resources in order to 
really follow up with that requirement? What is the status of 
compliance with that part of the Federal law?
    Ms. Golden. Well, the first important thing about 
compliance is that we were really clear with States that they 
needed to change their own State laws and policies to comply 
with the ASFA statute. And 33 States have done that. Seven 
States have passed legislation that we are still reviewing to 
see if it is fully in compliance. Two States we are still 
working with. And the rest are awaiting legislative sessions.
    What we have been doing in terms of support for States as 
they do that is to provide technical assistance. We have had 
the National Conference of State Legislatures as a technical 
assistance source both working with the States up front and 
also tracking what some of their choices are.
    So that is a status report on where that is.
    Mr. Cardin. Is there any indication that there may not be 
enough resources in order to deal with this requirement? Or 
does it look like it is adequate?
    Ms. Golden. I have not yet heard about that being an issue. 
What I have heard is that States are moving forward. So I think 
we will keep an eye out for that.
    Mr. Cardin. Thank you. Thank you, Mr. Chairman.
    Mr. English [presiding]. Thank you. The Chair recognizes 
Mr. Camp.
    Mr. Camp. Thank you, Mr. Chairman, and thank you, Dr. 
Golden. It is a pleasure to see you again, and certainly was 
good to work with you on this legislation. And I have a great 
deal of respect for you. I especially appreciate your testimony 
about the increase in adoptions since 1996, 1997, and even the 
greater increase in 1998. And I think some of that is a result 
of the legislation we worked on with the administration, and I 
think that is very good news.
    I am interested in talking to you about a letter that the 
Chairman, then-Chairman of the Subcommittee and I sent you 
along with Senators Craig and DeWine in December of last year 
really dealing with this whole area of regulation. And I have 
some concerns that it is unclear to me how HHS will determine 
the adequacy of State performance under this legislation.
    I don't see any objective benchmarks in this, and I wonder 
if you could just comment briefly on that. I have a couple of 
other points, and I realize my time is limited. So I have some 
other points I want to make as well.
    Ms. Golden. Sure. Well, I'd like to say a couple of things 
briefly. The first is that our goal in the regulations, and I 
think it is our shared goal and one that you have really 
exercised leadership on, is that what we want is a monitoring 
system that will improve State performance, that will be better 
for children. And I think you are highlighting the fact that 
clarity about expectations is an important part of that.
    You are raising the specific issue of how to go about 
creating that clarity in the regs. That is an issue which we 
got a lot of comment on, and we are now reviewing those 
comments. Because of where we are in the regulatory process, 
I'm not in a position to talk about specific proposals because 
we are governed by the Administrative Procedures Act when we 
review comments. But where we are is that the issue of what's 
the best way to be clear about expectations is an issue that is 
serious and is one a lot of people commented on. We are now 
reviewing and thinking about those comments.
    Mr. Camp. I think the idea of some objective benchmark 
would be very, very helpful. The other point. In determining a 
permanency, and in understanding the permanency, and I realize 
my letter wasn't written to you, but we haven't gotten an 
answer back yet. And if we could get an answer in writing at 
some point, it would be very helpful.
    Ms. Golden. Let me just say, what we usually do during the 
regulatory process is we simply acknowledge comments. They are 
all available publicly. And then we review all the comments. So 
we wouldn't typically do a point-by-point answer.
    Mr. Camp. An acknowledgement would be nice.
    Ms. Golden. OK. I apologize. I am very sorry if we haven't 
done that.
    Mr. Camp. The letter wasn't written to you. So I am not 
trying to put you on the spot.
    The other area is the item of permanency. And I think there 
are two important items that have been left out. And that is 
the length of time a child is in foster care. Obviously that is 
one of the main things that drove this whole effort, was the 
length of time a child spends in foster care as a factor of 
this whole permanency issue. And second of all, the idea of 
adoption being the best measure of permanency. And those two 
items were left out. And I wondered if you could just comment 
just briefly on that.
    Ms. Golden. Well again, let me give you the general 
framework of how that fits into the regulation. As you know, 
since we worked on the legislation together, we completely 
share the commitment both to reducing the amount of time 
children spend in foster care, not letting them remain in 
limbo, and to making sure that children who can't go home have 
permanent adoptive homes.
    The specific question of what measures should be where in 
the regulations is again an issue that we got considerable 
comment on. We received your comments, which were helpful. We 
received other comments about what measures to use and how to 
use them and where to use them in the review framework. So 
where we are right now is that we are looking at all of those 
comments as we move into the final rule.
    Mr. Camp. Another area of concern is the approach to 
aggravated circumstances. And, you know, obviously we made a 
conscious decision not to expand on a specific, enumerated list 
of what constituted aggravated circumstances. It was a definite 
attempt to give the States flexibility so that when reasonable 
efforts of reunification were not required--and I think that it 
is very important that we make it certain that the State know, 
this is not a list of limitation. It is a list of illustration. 
And I want to make sure we deal with that.
    And then I guess I just have two last questions. When we 
expect the final regs to be published and made final? And then 
second, I guess 33 States have legislated in this area. Has 
there been any analysis of the quality of that legislation?
    For example, I think New York has this reasonable efforts 
override, but then they require a 12-month waiting period, 
which is not in conformance with our legislation. So I think we 
need an analysis of various States' efforts in this matter.
    Ms. Golden. On the first point, on the timing. I don't have 
a date for you. Where we are right now, we received about 170 
letters, of which your thoughtful letter was one, and many of 
those letters included many issues. We are now reviewing those, 
and we want to move as fast as we can, consistent with the need 
to give serious reflection to the issues raised. So we are 
really pushing on it, but I don't have a date for you.
    In terms of the question of analysis, we are, through NCSL 
and through our regional offices, collecting the information on 
the State laws. As I said to Mr. Cardin, 33 States have laws 
that are in compliance; seven have laws that we are still 
reviewing. So there are seven that have just passed and we are 
still reviewing to see if they are in compliance. Two have 
passed laws about which we have concerns and we are working 
with those States. As you recall, the statute staggers the time 
that they have to pass laws depending on their legislative 
sessions. So the remaining few States are either still in 
sessions or awaiting them. And we can certainly share with you 
the particulars of which are the States that are finished and 
which aren't.
    Mr. Camp. Thank you very much.
    Ms. Golden. Sure.
    Mr. English. The Chair recognizes Mr. Lewis.
    Mr. Lewis of Kentucky. I have no questions.
    Mr. English. In that case, in your testimony, Dr. Golden, 
you specifically refer to the fact that the Adoption and Safe 
Families Act ``makes it clear that ensuring children's safety 
and well-being is the first consideration of the child welfare 
system.'' And that is certainly a marvelous sentiment, yet as 
you heard in the Chair's opening statement and in the letter 
that Mr. Camp referenced, the regulations appear to be somewhat 
confused on this issue. And here I am referring to the child 
safety indicator that will measure ``the children are first and 
foremost protected from abuse and neglect and maintained safely 
in their homes whenever possible.''
    I am curious, why did HHS combine these goals?
    Ms. Golden. Well, let me start by noting that we do clearly 
share the goal that a child's safety is paramount, and we 
haven't waited for the regulations to make that clear to the 
States. We have been clear in our guidance, and in our 
technical assistance. As the States pass legislation, for 
example, we are making sure that they pass the provisions 
around TPR, termination of parental rights, and around the 
aggravated circumstances issues.
    The specific issue you note in the regulations, which is 
exactly how should we structure the indicators, is one that we 
got a lot of comment on. So again, as I said to Mr. Camp, we 
are at the point where we are reviewing all the comments on how 
we structure the regulations, how we structure the indicators, 
and in what way it makes sense to do that in the final rule.
    So I won't be specific about giving you an answer about 
next steps, but we received an array of comments on that issue 
and we are reflecting on them now.
    Mr. English. Fair enough. Dr. Golden, I have one last 
question. This predates my presence in Congress. But we have 
testimony that the 1994 legislation required HHS to promulgate 
regulations establishing a new system by 1995 to take effect in 
1996, and yet we are still wrestling with the final 
regulations. Is that a fair summary?
    Ms. Golden. Yes. I think that when Congress passed the 
statute in 1994, telling us to redesign the monitoring system, 
and to put the requirements in regulation for the first time, I 
think there was a consensus that we had a big opportunity to 
try to do something completely different, or at least 
substantially different, that would really change results of 
the system. And it has taken longer than I wanted it to, or any 
of us wanted it to.
    But I think the reason it has taken longer is that no one 
knew how to do an outcomes-based system at the beginning. We 
did a lot of consultation. We actually, and this was really 
interesting, we looked at other kinds of approaches. For 
instance, how do they do accreditation in the health world and 
other worlds? We used that information, and then we did 24 
pilots to make sure we knew how to do it right. So we haven't 
waited for the regulations to get actions from the States.
    And that is why we are right now at the point of reviewing 
the draft regulation.
    Mr. English. And I appreciate that insight. Let me say, I 
have no further questions----
    Mr. Cardin. Would the gentleman yield just for 1 second on 
that point and the point that Mr. Camp raised?
    Mr. English. Certainly.
    Mr. Cardin. And Dr. Golden, I appreciate your response. One 
of the concerns expressed is that we are going, hopefully, more 
to outcome and less to a lot of paperwork going back and forth. 
It just might be useful for you to respond on the record. I 
understand that is your goal. You want this to be less 
bureaucratic and more outcome-based. And the final regulations, 
in your anticipation, will move us in that direction?
    Ms. Golden. Absolutely. Our goal is that the final 
regulations will carry out a monitoring process that is about 
outcomes and, really, about results for children, about safety, 
about permanence for children. And that what we learned from 
the pilots was that what you need to do is get people focused 
on those results and then you can get changes in the 
performance of the system.
    That's our goal.
    Mr. Cardin. And less burdensome to the States with 
paperwork?
    Ms. Golden. I think it will be less burdensome with 
paperwork. I think the aim is that the burden that is there is 
really about changing the system and making it succeed. The 
strategy is to conduct the reviews with the States and to 
identify corrective actions, the changes that have to happen to 
achieve better results, so that we can embark on those right 
away and get genuine change.
    Mr. English. Thank you, Dr. Golden, as always for your 
testimony.
    Mr. Camp. Mr. Chairman, if I could just make a comment.
    Mr. English. Certainly, Mr. Camp.
    Mr. Camp. It is in response to a question that Mr. Cardin 
asked and regarding the incentive moneys that were in the 
original legislation. We do have a CBO estimate that there will 
be more money needed there. And our estimate is $28 million. 
And I would like to work with you on a bipartisan basis to try 
to find the money to continue that part of the bill because I 
do think we will need to have an effort there. And if we could 
work together on that, I think that would be something----
    Mr. Cardin. If the gentleman would yield, the Chairman 
would yield.
    Mr. English. Certainly.
    Mr. Cardin. Absolutely, and the reason why I mention it is 
that our information is similar that we are going to exceed the 
cap, and we will hopefully have--the administration will be 
getting us material soon. And I think we are going to need to 
do that.
    Mr. Camp. But it is something we are aware of and need to, 
obviously, continue some effort there. So thank you.
    Mr. English. Thank you, Dr. Golden, and thank you again for 
your testimony.
    Ms. Golden. Thank you.
    Mr. English. The Chair recognizes the next panel 
participating today, consisting of Karen Spar, from the 
Congressional Research Service; William Waldman, executive 
director of the American Public Human Services Association; 
Kimberly Warburton, chairman of the board of the KidsHELP! 
Foundation, and Mary Lee Allen, director of Child Welfare and 
Mental Health for the Children's Defense Fund.

   STATEMENT OF KAREN SPAR, CONGRESSIONAL RESEARCH SERVICE, 
                      LIBRARY OF CONGRESS

    Ms. Spar. Good morning, Mr. Chairman and Members of the 
Subcommittee. My name is Karen Spar, and I am with the 
Congressional Research Service. Thank you for inviting me to 
testify before you this morning.
    I have been asked to address two specific issues in my 
testimony. First, to outline the history of the Federal Child 
Welfare Review System leading up to the recent proposal of the 
administration, and second, to briefly discuss the role played 
by advocacy litigation in providing public oversight of child 
welfare programs.
    I would like to preface my comments by noting that when 
analysts from the Congressional Research Service testify before 
Congress, it is typically to discuss some particular research 
that we have conducted. In this case, I have not conducted a 
formal CRS study of child welfare research systems or 
litigation; rather, I have been asked to testify today in my 
capacity as a nonpartisan observer of Federal child welfare 
policy and to give the Subcommittee background information that 
might be useful as it conducts oversight in this area.
    On September 18 of last year, the Department of Health and 
Human Services published a proposed rule in the Federal 
Register. When final, this regulation will establish in the 
review system for Federal review of State compliance with 
requirements under title IV-B and IV-E of the Social Security 
Act.
    These requirements comprise the bulk of Federal policy 
regarding child welfare.
    The history of this review system goes back almost 20 
years, to passage of the Adoption Assistance and Child Welfare 
Act of 1980. That legislation established titles IV-B and IV-E 
in their current form and specified for the first time certain 
Federal protections for children in State foster care systems.
    At that time, many of these protections were included in 
section 427 of the Social Security Act and were voluntary 
incentives for States to meet in order to receive their full 
allotment of child welfare grant funds. Among these 
protections, States were required to conduct an inventory of 
all children in foster care, to provide each foster child with 
a written case plan, and to review each foster child's case 
according to prescribed timetable in order to achieve a 
permanent placement for that child.
    The 1980 law also established eligibility requirements to 
determine which children could qualify for federally subsidized 
foster care payments under title IV-E. Those requirements also 
contain child protection provisions. For example, Federal 
reimbursement was allowed only for children for whom reasonable 
efforts were made to enable them to remain with their family or 
to return to their family.
    In the early eighties, HHS developed and operated review 
systems for monitoring State compliance with the section 427 
protections and with the Federal foster care eligibility 
requirements under title IV-E.
    However, beginning in 1989, Congress suspended the 
collection of penalties associated with those reviews, and in 
1994 Congress directed HHS to develop a new system all 
together. Advocates, agency officials, and Members of Congress 
grew dissatisfied with the early review systems for various 
reasons, both procedural and programmatic.
    Procedural concerns included a lack of formal regulations 
frequently resulting in confusion about the standards the 
States were expected to meet. Reviews were conducted 
retrospectively, sometimes for fiscal years long past so that 
current practices were not examined.
    Of greatest concern, however, was the perception that the 
reviews did not result in improved services for children and 
families. Both section 427 and title IV-E eligibility reviews 
focused on paper compliance with legal requirements. For 
example, section 427 reviews primarily identified whether 
certain mandatory procedures were conducted according to the 
prescribed timetable but did not evaluate the quality of those 
procedures or the outcomes for children. Moreover, States were 
sometimes held accountable for circumstances beyond their 
control such as the schedule of the courts.
    Likewise, foster care eligibility reviews focused on 
whether the court had properly documented it finding that the 
State had made reasonable efforts to avoid foster care 
placement for an individual child. But if a judge failed to 
document this finding correctly, the State could fail its 
review regardless of the services actually provided to that 
child and family.
    The reviews were criticized for focusing on isolated 
components of the State's child welfare system rather than the 
system as a whole. When problems were identified, penalties 
were imposed, but little technical assistance was provided. On 
the other hand, the reviews were also criticized for failing to 
identify problems. The fact that some States passed these 
reviews while at the same time they were being successfully 
sued in court raised additional questions about the 
effectiveness of the review system.
    In 1989, Congress imposed the first in a series of 
moratoriums prohibiting HHS from collecting penalties resulting 
from these reviews. And finally, in 1994, Congress mandated the 
development of a new system altogether to review State 
conformity with Federal requirements under title IV-B and IV-E.
    A 1994 law directed HHS to develop a system that would 
incorporate the concepts of technical assistance and corrective 
action. HHS was directed to specify in regulations the Federal 
requirements that would be subject to review and the criteria 
that would be used to determine if a State was substantially 
meeting those requirements.
    The law directed HHS to specify a method for determining 
financial penalties in cases of substantial nonconformity. 
However, Congress also mandated that before such penalties 
could be imposed, States must be given an opportunity to 
implement a corrective action plan and required that HHS 
provide technical assistance.
    I would like to just briefly mention the role of advocacy 
litigation in providing public oversight of State and local 
child welfare systems. As I mentioned, one of the concerns 
about the effectiveness of the old review system was the fact 
that some States were given a clean bill of health by HHS while 
at the same time they were found in court to have violated 
Federal and State child welfare laws.
    Since the early eighties, lawsuits have been filed against 
States and localities in at least 24 States that I have been 
able to identify based on a quick review of summaries prepared 
by organizations representing the plaintiffs. Some of these 
cases and their outcomes have been narrow. Many, however, have 
been class actions alleging a wide variety of violations of 
Federal and State child welfare laws as well as Constitutional 
violations and have sought comprehensive reform.
    The kinds of policy and practice changes that have resulted 
from child welfare litigation, either directly or indirectly, 
have affected the full range of child welfare services. In some 
cases, the courts have been very specific in their orders such 
as in establishing caseload standards, where social workers are 
establishing timetables for, excuse me, permanency planning. In 
other cases, court orders or settlement agreements have 
outlined broader goals such as improved service delivery to 
foster children or timely planning without specifying the 
actual steps to be taken by the State or locality.
    Mr. Chairman, that concludes my statement. I would be happy 
to answer questions.
    [The prepared statement follows:]

Statement of Karen Spar, Congressional Research Service, Library of 
Congress

    Good morning, Madame Chairman and Members of the 
Subcommittee. Thank you for inviting me to testify before you 
today. I've been asked to address two specific issues in my 
testimony. First, I've been asked to outline the history of 
federal child welfare review systems, leading up to the recent 
proposal of the Administration. And, second, I've been asked to 
briefly discuss the role played by advocacy litigation in 
providing public oversight of child welfare programs.
    I'd like to preface my comments by noting that, when 
analysts from the Congressional Research Service (CRS) are 
asked to testify before Congress, it is typically to discuss 
some particular analysis or research that we have conducted. 
However, in this case, I have not conducted a formal CRS study 
of child welfare review systems or litigation. Rather, I've 
been asked to testify this morning in my capacity as a 
nonpartisan observer of federal child welfare policy, and to 
give the Subcommittee background information that might be 
useful as it conducts oversight in this area.

                   Origins of Current Review Proposal

    On September 18 of last year, the Department of Health and 
Human Services (HHS) published a notice of proposed rulemaking 
in the Federal Register. When final, this regulation will 
establish a new system for federal review of state compliance 
with requirements under Titles IV-B and IV-E of the Social 
Security Act. These requirements comprise the bulk of federal 
policy regarding child welfare services, foster care, and 
adoption assistance.
    The history of this review system goes back almost 20 
years, to passage of the Adoption Assistance and Child Welfare 
Act of 1980. That legislation established Titles IV-B and IV-E 
in their current form, and specified for the first time certain 
federal protections for children in state foster care systems. 
At that time, many of these protections were included in 
Section 427 of the Social Security Act and were voluntary 
incentives for states to meet, in order to receive their full 
allotment of child welfare grant funds. Among these 
protections, states were required:
    <bullet> to conduct an inventory of all children in foster 
care;
    <bullet> to provide each foster child with a written case 
plan; and
    <bullet> to review each foster child's case according to a 
prescribed timetable, in order to achieve a permanent placement 
for that child.
    The 1980 law also established the current eligibility 
requirements to determine which children could qualify for 
federally subsidized foster care payments. These eligibility 
requirements address the income level of the family from which 
the child has been removed and the licensing status of the 
foster care provider where the child has been placed. The 
requirements also contain provisions that were intended to work 
together with other parts of the law to protect children in 
foster care. For example, the 1980 law limited federal 
reimbursement only for children for whom ``reasonable efforts'' 
were made, to enable them to remain with their family or to 
return to their family. This provision was meant to reinforce 
another section of Title IV-E that requires states to make such 
reasonable efforts for all children in foster care, regardless 
of whether they are eligible for federally subsidized foster 
care payments.
    In the early 1980s, HHS developed and operated review 
systems for monitoring state compliance with the Section 427 
protections, and with the federal foster care eligibility 
requirements under Title IV-E. However, beginning in 1989, 
Congress suspended the collection of penalties resulting from 
these reviews, and in 1994, Congress directed HHS to develop a 
new review system altogether. This new system would be 
established under the regulation that HHS has now proposed.

                    Problems with Old Review System

    Child welfare advocates, state and federal officials, and 
Members of Congress grew dissatisfied with the earlier review 
systems for various reasons, both procedural and programmatic. 
These concerns were expressed during hearings before this and 
other congressional committees during the late 1980s and early 
1990s, and were identified by the HHS Inspector General in a 
1994 report. These concerns also were summarized in the 
preamble to the Administration's September 18th proposal for a 
new child welfare review system.
    Procedural concerns with the earlier review system included 
a lack of formal regulations, frequently resulting in confusion 
about the standards that states were expected to meet. Reviews 
were conducted retrospectively, sometimes for fiscal years that 
had long past, so that current practices were not examined. 
Exacerbating this problem was the late release of final reports 
by HHS, so their findings and recommendations were sometimes 
irrelevant by the time they were issued. State officials had 
limited ongoing contact with federal regional office staff, so 
that formal reviews were seen as adversarial and punitive, 
rather than collaborative and potentially helpful. The reviews 
were often seen as time-consuming, labor-intensive, and 
burdensome for the states.
    Of greater concern, however, was the perception that the 
reviews did not result in improved services for children and 
families. Both Section 427 and Title IV-E eligibility reviews 
focused on paper compliance with legal requirements. For 
example, Section 427 reviews primarily identified whether 
certain mandatory procedures were conducted according to the 
prescribed timetable, but did not evaluate the quality of the 
procedures or the outcomes for children. Moreover, states were 
sometimes held accountable for circumstances beyond their 
control, such as the schedule of the courts. Likewise, Title 
IV-E eligibility reviews focused on whether the court had 
properly documented its finding that the state had made 
reasonable efforts to avoid foster care placement for an 
individual child. But, if a judge failed to document this 
finding correctly, a state could fail its review regardless of 
its actual services to that child and family.
    Reviews were criticized for focusing on isolated components 
of a state's child welfare system, rather than the system as a 
whole. When problems were identified, penalties were imposed 
but little technical assistance was provided. The review system 
contained no mechanism for helping states to improve the 
quality of their programs. On the other hand, these reviews 
were also criticized for failing to identify problems in state 
child welfare programs. The fact that some states passed these 
federal reviews, while at the same time they were being 
successfully sued in court, raised additional questions about 
the effectiveness of the federal review system.

                         Congressional Response

    In 1989, Congress imposed the first in a series of 
moratoriums, prohibiting HHS from collecting penalties 
associated with these reviews. Finally, in 1994, Congress 
enacted two significant provisions as part of the Social 
Security Amendments of that year. First, Congress restructured 
Title IV-B, so that the foster child protections previously 
contained in Section 427 were no longer voluntary incentives, 
but rather mandatory components of the state Title IV-B plan. 
Second, Congress mandated the development of a new system to 
review state conformity with federal requirements, including 
state plan requirements, under Titles IV-B and IV-E.
    The 1994 legislation directed HHS to develop a review 
system that would incorporate the concepts of technical 
assistance and corrective action. Specifically, HHS was 
directed to specify the federal requirements that would be 
subject to review and the criteria that would be used to 
determine if a state was substantially meeting those 
requirements. The law further directed HHS to specify a method 
for determining the amount of financial penalties that would be 
imposed in cases of substantial nonconformity. However, 
Congress also mandated that before such penalties could be 
imposed, states must be given an opportunity to implement a 
corrective action plan, and required that HHS provide the 
states with necessary technical assistance.
    The 1994 legislation directed HHS to promulgate 
regulations, establishing this new review system, by July 1, 
1995, to take effect on April 1, 1996. HHS has now proposed 
these regulations, in the Federal Register of September 18, 
1998.

                    The Role of Advocacy Litigation

    As I mentioned earlier, one of the concerns raised about 
the effectiveness of the old federal review system was the fact 
that some states were given a clean bill of health by HHS, 
while at the same time they were found in court to have 
violated federal or state child welfare laws. Since the early 
1980s, lawsuits have been filed against states or localities in 
at least 24 states that I have been able to identify, based on 
a quick review of summaries prepared by two organizations that 
represented the plaintiffs in many of these cases. These 
organizations are Children's Rights, Inc., in New York 
(formerly a component of the American Civil Liberties Union) 
and the National Center for Youth Law in San Francisco.
    Some of these cases, and their outcomes, have been narrow 
in focus. However, many of these cases have been class actions 
alleging a wide variety of violations of federal and state 
child welfare laws, as well as constitutional violations, and 
have sought comprehensive child welfare reform. It is important 
to note that many of the child welfare reforms that have been 
attributed to litigation were not always directly mandated by 
the courts or specified in settlement agreements or consent 
decrees. Rather, some of these reforms were initiated by 
governors, agency administrators, or state legislatures 
simultaneously with litigation, or after litigation focused 
attention on certain problems. In some cases, the litigation 
helped to produce the necessary data to document these 
problems.
    The kinds of policy and practice changes that have resulted 
from child welfare litigation, either directly or indirectly, 
have affected the full range of child welfare services, 
including child protection, preventive and rehabilitative 
services for children and families, foster care, and adoption. 
In some cases, courts have been very specific, such as in 
establishing caseload standards for social workers or 
establishing permanency planning timetables. In other cases, 
court orders or settlement agreements have outlined broader 
policy goals, such as improved service delivery to foster 
children or timely permanency planning, without specifying the 
actual steps to be taken by the state or locality.
    In general, some of the outcomes that were frequently 
sought in child welfare lawsuits include: more timely and 
thorough child abuse and neglect investigations; caseload 
standards for social workers and supervisors engaged in 
protective and preventive services; creation of new 
administrative units and other initiatives to provide better 
and more targeted services to children and families; standards 
to ensure that certain services are provided to children in 
foster care, such as health screenings; improvement and 
automation of management information systems; visitation 
standards for foster children with biological families when 
reunification is the permanency goal; targeted efforts to 
reduce stays in foster care and to reduce backlogs of children 
awaiting adoption; and enhanced training for caseworkers and 
other employees.
    Madame Chairman, that concludes my formal statement. I'd be 
happy to answer any questions that you or other Members of the 
Subcommittee may have. Thank you.
      

                                <F-dash>

    Mr. English. Thank you, Ms. Spar. Mr. Waldman, welcome. 
Your testimony, sir.

  STATEMENT OF WILLIAM WALDMAN, EXECUTIVE DIRECTOR, AMERICAN 
               PUBLIC HUMAN SERVICES ASSOCIATION

    Mr. Waldman. Thank you. Congressman English and Members of 
the Subcommittee, I am Bill Waldman. I am the executive 
director of APHSA, the American Public Human Services 
Association. I want to start by thanking you very much for the 
invitation. The organization that I direct, represents all the 
States and the localities that are engaged in human services, 
significant among which are programs of public child welfare.
    The testimony I am going to provide today was gleaned from 
many meetings and much work of our association members. I want 
to say it is also supported by some of my own experience. Prior 
to joining APHSA, 9 months ago, I concluded a 33-year career in 
public human services, starting as a caseworker, ending up as a 
commissioner of human services in New Jersey, working for 
Governors of different political parties. I also served for 3 
years as the State's child welfare director.
    Balancing those two things, I want to start off with an 
important point. I want to reiterate what several of you have 
said about the significant progress that has been made. I want 
to express our appreciation to Congress for the law that 
contributed to a sea-change of thinking about how we practice 
out in the States and localities, also to our Federal partners, 
and I want to acknowledge very much the State performance in 
this area. I think the States have made an extraordinary 
effort. A few of my colleagues that are here today representing 
the States of Illinois and Florida have made some outstanding 
progress.
    The second point I wanted to make is that the regulations, 
on balance, are, in fact, very positive. There are issues we 
have with them, and I am going to summarize those very quickly 
for you, but I think they are a step in the right direction 
because they focus on outcomes and accountability, which are 
key.
    In going through the areas, rather than read the testimony, 
what I'd like to do is summarize the four principles that I 
think are vital to adhere to in the Federal-State relationship, 
and in the nature of these kinds of regulations.
    The first principle I would postulate is that these kind of 
regulations have to have accountability for outcomes balanced 
with flexibility on how those outcomes are achieved. That is an 
extraordinarily important principle that has been historically 
lacking in this field. If you look, for example, at how the 
whole system is financed, you will see a rigidity. In fact, the 
Chair mentioned it in her opening comments about it being 
directed predominantly to foster care.
    We are working on some changes in that area. We hope that 
you will be open; and we hope to present those to you at a 
future time.
    Oftentimes, when States talk about flexibility there is a 
feeling or perception, I think, that we don't care about 
accountability, we want to avoid that. I'm here to say that is 
not true. We don't want flexibility as a smokescreen to be able 
to redirect Federal funds for this purpose to other areas. I'm 
not here to advocate for a block grant but I think we need to 
do things to unleash the creativity and the innovation that I 
believe is out there in my many colleagues that I have worked 
with for many years in the States.
    In my view, if we are to sustain and expand these important 
gains, we have to look at this issue very, very seriously.
    In that particular area or principle, I am concerned about 
the degree to which the judicial determinations are required to 
be documented. The regulations are very extensive, and I would 
say rigid. And I will ask the department, and for your 
consideration as well, to make those more flexible. That's a 
difficult area for States.
    The second principle is the idea that oversight should be 
conducted in a framework and spirit of program improvement. We 
are not saying that penalties aren't appropriate to be used. 
But we think there is a process that needs to be involved and I 
think is generally reflected here, that starts with 
identification, remediation, corrective action, technical 
assistance, and then penalties if there is no success in 
achieving the desired result.
    I think the rules generally adhere to that formula. There 
is one around MEPA, the Multiethnic Placement Act, that doesn't 
follow that, and we hope that that is adjusted as well. We 
think there has been some real good technical assistance 
provided by the department, but we think, given the challenges 
ahead, that needs to be expanded and include peer-to-peer 
assistance as well.
    The third point I would make or principle, is that 
regulations should be judged from a standpoint of general 
clarity, fairness, and balance. As several of you have 
expressed, I am concerned about the lack of specificity around 
certain terms, particularly those associated with the children 
and family services reviews.
    What, for example, does ``substantial compliance'' really 
mean? What are the elements that determine it from partial 
compliance or noncompliance? Will the people who do the reviews 
be trained so there is a consistent application of those across 
the States. I was encouraged to hear what the assistant 
secretary had to say, that more work has to be done with that.
    There is an issue about the sample size for those reviews. 
Only 80 cases are taken. I used to live through the old 427 
reviews. Some of you may be familiar with them. And frankly 
there is some element of luck of the draw in this. There was 1 
year I was sure I would fail it, and we passed. And it could 
have been the other way around, certainly.
    The last issue I would mention is the need for congruence 
and consistency in regulations. There are two outcome measures 
that are being used here that I'm not sure relate to each 
other, and they are both important. One is the results from the 
children and family service review; the other is the report to 
Congress on the aggregate performance of the States.
    The way I understand it is that a State may pass one and 
fail the other, or do very well on one and poorly on the other. 
I think these items should be looked at as building blocks, not 
separate stovepipes, as indications of performance. So I would 
urge the department to look at that.
    I would also look for a more comprehensive review and 
rationalization of the penalty system. Again, not trying to 
avoid penalties, but there are MEPA penalties, AFCAR's 
penalties, and jurisdictional adoption penalties, and the list 
goes on and on. And I think if we stepped back and looked at a 
broader system that relates to a cohesive whole, we could be 
more effective.
    In closing, we recognize our responsibilities. We are doing 
some work as an association. We are committed to promote 
successful implementation. We are focusing on outcomes 
ourselves. We support that work. We have a list very similar to 
what the department has. We are working on important 
collaborations with the substance-abuse community and with the 
judicial community as well. We have a task force on 
facilitating interstate adoptions.
    I look forward to working with you to improve this. We are 
committed to it.
    Thank you.
    [The prepared statement follows:]

Statement of William Waldman, Executive Director, American Public Human 
Services Association

    Chairman Johnson, Congressman Cardin, Members of the 
Subcommittee, I am William Waldman, Executive Director of the 
American Public Human Services Association (APHSA).
    I am pleased to have the opportunity to testify today about 
federal oversight of child protection programs. As the national 
organization representing state and local agencies responsible 
for the operation and administration of public human service 
programs, including child protection, foster care and adoption, 
APHSA has a long-standing interest in developing policies and 
practices that promote improved performance by states and in 
the process that the federal government uses to monitor and 
assess state performance in operating these programs.
    Prior to joining APHSA nine months ago, I concluded a 33-
year career in the public human services in the state of New 
Jersey. I began as a caseworker, and held numerous titles and 
responsibilities including those of director of the state child 
welfare agency--the New Jersey Division of Youth and Family 
Services--as well as Commissioner of the New Jersey Department 
of Human Services, a cabinet level position with responsibility 
for broad array of human services. I served three governors--
Democrat and Republican. In the course my career, I have 
implemented many federal and state child welfare initiatives 
and value the state and federal partnership that is critical to 
the success of many public human service programs.
    On behalf of states, we are pleased that this hearing is 
also examining state successes in increasing adoption. In the 
year and a half since enactment of the Adoption and Safe 
Families Act (ASFA), states have enacted legislation to comply 
with ASFA and are building on their own reform efforts 
initiated in recent years, consistent with the goals of ASFA, 
to achieve safety, permanency, and well-being for children 
served by the public child welfare system. ASFA has clearly 
contributed as a part of a sea change in public child welfare 
practice. We have seen tremendous strides taking place in the 
states resulting from ASFA and state reform initiatives and 
innovations. For example, statistics have demonstrated 
significant state successes in increasing the number of 
adoptions of children from foster care--with increases in 
nearly every state, in many cases rising by 50 percent or more 
in less than two years. .Agencies are employing a number of 
promising practices such as subsidized guardianship, 
performance-based contracting, family group decision making, 
cross-system collaborative efforts with substance abuse 
agencies and juvenile courts--all of which are promoting more 
safe, stable and timely permanent arrangements for children, 
whether they be adoptions, reunifications or guardianships.
    In order to ensure that this improvement and innovation is 
sustained and expanded, we must remove barriers to optimal 
performance. One of the most serious constraints for states is 
a federal financing structure for child welfare that is 
constrained by fiscal incentives that do not necessarily reward 
the desired outcomes for children. . The current federal 
financing system disproportionately funds the deepest and often 
least desired end of the system--out of home care--that we are 
all striving to minimize in terms of lengths of stay and 
numbers of children, while funding directed at activities to 
achieve permanency, safety, prevention and early intervention 
are comparatively limited. Although we do not support a block 
grant for child welfare funding, we do strongly urge that 
additional flexibility in the use of Title IV-E dollars be 
afforded to states so that they can invest these dollars in the 
kinds of activities that are yielding success and test 
innovative ideas to generate new programs that work. 
Flexibility is also critical to enabling states to develop 
comprehensive approaches and a broad array of tailored 
interventions to address the complex and individual needs of 
children and families rather than encouraging responses that 
are driven by categorical programs that deal with only part of 
the system.
    In addition, we would also urge that Congress look at 
federal policy on the Title IV-E waivers to ensure that the 
promise of innovation and flexibility agreed to in ASFA is not 
limited by overly prescriptive and rigid federal 
implementation. Furthermore, we would also encourage increased 
federal investment into child welfare programs to meet the 
increased demands and capacity needs these systems are facing, 
but increased spending must not come at the expense of other 
human service programs that serve our nation's most vulnerable 
children and families. APHSA has a workgroup that is crafting 
recommendations on how to restructure federal child welfare 
financing to support the outcomes for children and families we 
are all seeking to achieve. We anticipate the completion of 
these recommendations this summer and are very eager share them 
with this subcommittee.
    Before I speak directly to the regulations, I want to make 
it very clear that states strongly believe that the public 
child welfare system must focus on results and accountability. 
Our appeal for flexibility is often characterized as a 
rejection of accountability and as taking precedence over 
serving children and families, and I would like to end that 
mischaracterization here and now. Accountability, safety and 
permanency for children, and flexibility are not mutually 
exclusive, but rather are dependent on each other. We view 
flexibility not as the end goal, but a key means to an end--
that is achieving positive results for the children and 
families we serve.
    The proposed regulations issued by HHS in September of 1998 
establish two new review processes for monitoring state child 
welfare activities. The first process, known as the child and 
family service review, monitors states' conformity with their 
Title IV-B and IV-E state plan, and replaces what was called 
the Section 427 review. The other process, known as the Title 
IV-E eligibility review, revises the review that determines 
whether Title IV-E funds were legitimately spent on Title IV-E 
children and providers and that all Title IV-E requirements 
were met in cases where IV-E funding is being claimed. 
Furthermore, the regulations address compliance with the Multi-
Ethnic Placement Act of 1994 and the Interethnic Adoption 
Provisions of 1996, and certain provisions of ASFA.
    APHSA held a series of conference calls and meetings in 
which state agency administrators discussed the proposed rules 
probable effect on state child welfare programs. My testimony 
today represents the broad consensus resulting from that 
process.

                   Child and Family Services Reviews

    APHSA, and the state and local agencies we represent, have 
advocated for more than a decade for a review system that is 
predicated on outcomes and encourages system improvement. HHS, 
the Congress, and the field, including states and advocacy 
organizations, have all agreed that the section 427 review 
system elevated process issues over quality of services and was 
a poor measure of state performance in operating child 
protection systems and of results for children being served. 
The suspension of these reviews in the early nineties and the 
succession of moratoriums on penalties and disallowances was 
instituted in response to this realization of their 
inappropriateness and ineffectiveness. After much deliberation 
in the field, studies by HHS, APHSA (then APWA) and others, 
Congress in 1994 called on HHS to develop a new review system 
that was outcome based, and provided for corrective action and 
technical assistance. The goal was system improvement and 
better outcomes for the children and families served.
    Many states today are developing outcome-based systems to 
assess their own performance and to ensure quality services and 
positive outcomes for children and families. The commitment to 
outcomes by states is also reflected in the collective work of 
states undertaken by APHSA last year to develop a core set of 
national outcome measures for HHS to assess state performance 
as required by ASFA. We have shared our recommendations with 
the subcommittee staff on both sides of the aisle.
    In order for states to achieve positive outcomes for 
children and families, child welfare agencies need the 
flexibility to continue to design and implement innovative 
programs, and to make individualized decisions and 
interventions for children and families. For these reasons, the 
federal rules applied to titles IV-B and IV-E must provide the 
flexibility to engage families on a case-by-case basis and to 
emphasize outcomes over process. The general thrust of the new 
child and family services review recognizes this and we welcome 
this landmark change in orientation. We commend HHS for its 
thoughtful development of a new process for federal oversight 
of child welfare programs and for engaging state agencies and 
the field in this deliberative process. We also appreciate that 
program improvement is the foundation of this review system and 
the recognition that such improvement takes time and, often, 
technical assistance. States have long felt that penalties, 
without opportunity for corrective action and program 
improvement, are not the way to advance critical program and 
practice changes. States must be accountable and are committed 
to being accountable. However, penalties only make sense if 
they reinforce good practice and are directed toward achieving 
the right outcome.
    The states that underwent pilot reviews to test the new 
system overwhelmingly valued the self-assessment approach, 
noting that it was a helpful process and tool for examining 
their system. That said, states have identified a number of 
concerns with this proposed review system, even though valuable 
lessons and modifications have occurred as a result of the 
pilot reviews. Some of the questions raised are posed here. 
Will the system equitably and accurately measure state 
conformity? Will a small sample size accurately reflect the 
totality of the system? How will terms be defined and measured 
so that the review process will not be too subjective? How will 
disagreements among team members regarding substantial 
compliance be resolved? Will the federal officials recognize 
and appreciate the uniqueness of specific state programs and 
reform efforts? Will technical assistance be available and of 
such quality and diversity to be tailored to the specific 
program improvement needs of a particular state? How does this 
system comport with the new annual report on state performance 
required by ASFA?
    We want to be clear that in raising these questions we are 
not implying that we would want to return to a review system 
similar to the old Section 427 review system. Yet, we are 
cautious that even with the best intentions, the system may 
not, in practice, accurately and equitably assess performance 
on a system-wide level. Even with the lessons learned from the 
pilot reviews, the new system is still too untested to conclude 
at this time whether the process is workable, appropriate and a 
good measure of conformity with the state plan. Overall, we 
support the general approach to the reviews but urge HHS to 
refine it in the final rule based on specific recommendations 
that we enumerated in detail in the comments we submitted on 
December 17, 1998, and to build in a process to monitor the 
implementation and effectiveness of the system in order to make 
necessary improvements over time.
    One of our priority concerns relates to the proposed 
standard for determining outcome achievement and substantial 
conformity. While we fully support the overarching outcomes of 
safety, permanency and well being, states are very concerned 
about the proposed standard for substantial conformity. We have 
considered carefully the proposed standard of 90 percent for 
the first review and 95 percent for subsequent reviews and have 
deliberated at length about the appropriate standard. State 
agencies continue to aim for 100 percent compliance and outcome 
achievement as the goal, but the question for the regulations 
is not about the goals we aim for but rather the point at which 
a penalty is imposed. As such, we believe that a standard of 95 
percent is too high. Given the potential for human error and 
the probability of a disproportionate number of 
unrepresentative cases in such a small sample size of 30 to 50 
cases, ninety-five percent is virtually the equivalent of 
perfection. Setting the standard for conformity at a fair and 
accurate level is crucial given that the availability of 
critical federal resources is at risk. Therefore, we recommend 
90 percent as the standard for substantial conformity for the 
initial as well as subsequent reviews, but only if other 
factors are operating concomitantly with this standard.
    These other factors are as follows: First, the sample size 
of cases must be representative of the state--otherwise the 
information is anecdotal at best, and we question how the 
judgment of conformity can be credibly made. Second, the review 
must be conducted by federal reviewers who have demonstrated 
knowledge and experience in child welfare. Third, the outcomes 
criteria must be consistent with the annual report to Congress 
on state performance. Lastly, significant discrepancies between 
the aggregate data and the on-site review findings must also be 
considered as a factor in determining the state to be in 
substantial conformity, not just to determine that a state is 
not in substantial conformity as is described in the preamble 
of the regulations. The specific level of outcome achievement 
we are recommending is contingent on these recommendations 
regarding the statistical validity of the sample size, the 
quality and experience of the federal review team and the 
interrelationship with the outcome measures in the annual 
report to Congress. These items are all inextricably linked to 
a fair and effective review system. If the three factors 
mentioned above are not addressed as a package with the 
recommended standard for conformity, then the standard must be 
lowered further. Furthermore, we urge HHS (1) to regularly 
monitor the review system, (2) study and assess its impact on 
practice and compliance, and (3) build into the regulations a 
process for amending and changing it. Vulnerable children and 
families and the public agencies that serve them deserve no 
less.
    States generally view the qualitative nature of the review 
as positive. However, this type of approach raises concerns 
about subjectivity in the review process. States have many 
concerns about what the actual standard and criteria will be 
for making the final decision for whether an individual case 
has substantially achieved, partially achieved or not achieved 
the outcome in question. States believe that they should be 
made aware of exactly how ACF plans to assess them. There is 
also concern about whether outside reviewers will understand 
the basics of a state's system, its complexity and the nuances 
in order to make accurate assessments. Again, we raise the 
issue that training of reviewers and their demonstrated 
knowledge of and experience with state child welfare 
administration is critical to the fairness of the process.
    We are also concerned about the lack of an explicit link 
between the outcomes proposed in the child and family services 
review and the outcomes proposed for the annual report to 
Congress on State performance on outcome measures which was 
required in Section 203 of ASFA. It is essential that these two 
systems are relevant to each other and that the respective 
outcome measures not only do not conflict but also are in 
agreement. If states are working to achieve two different sets 
of outcomes that may be in conflict with each other, it will 
not advance good practice and improved programs. Furthermore, 
serious questions would be raised by federal and state 
legislators and the public if a state was in substantial 
conformity in the children and family service review system and 
ranked poorly in the annual report, or vice versa.
    These comments are not intended to suggest that the 
proposed system be discarded and replaced. We truly view the 
proposed process as an evolutionary one and commend HHS for the 
work it has done. We have urged HHS to be cognizant of our 
concerns in approaching and conducting the reviews and to 
continually monitor the process, revise the instruments and 
make changes to both as necessary. We have requested to HHS an 
ongoing dialogue between HHS and the states be maintained, both 
individually and collectively. We would be pleased to engage in 
a similar dialogue with this subcommittee as lessons are 
learned from implementation of the new system.

                     Title IV-E Eligibility Reviews

    We are concerned that the focus of the proposed regulations 
on process and paperwork in the interpretation of specific 
title IV-E requirements and the proposed IV-E eligibility 
review process are inconsistent with an outcomes-based approach 
to monitoring. Paperwork and process are important so as to 
ensure certain protections for children, but are meaningless 
and a misdirection of limited resources when they do not 
comport with outcomes. Our concern specifically relates to the 
excessively rigid and prescriptive requirements around 
documentation of judicial determinations. In this respect, the 
proposed regulations emphasize process and place requirements 
on court activities that states cannot control. Under these 
rules agencies could be penalized if these activities are not 
completed by the courts in the time frames and to the 
prescriptive specifications required by the regulations that 
have no statutory bearing. In some respects these concerns are 
not new, but the proposed regulations exacerbate what has 
already been acknowledged as a problem by imposing even more 
prescriptive timelines, processes and documentation on the 
court and tying them to a state agency's ability to claim IV-E 
for otherwise eligible children. Under state constitutions' 
separation of powers, state administrators, governors and 
legislators have no control over the judiciary. Neither ASFA 
nor the regulations can make the courts accountable either. As 
a result, HHS should provide the states with as much 
flexibility as possible with respect to court activities such 
as documentation. Denial of IV-E eligibility because of court 
failures will only make it more difficult for states to realize 
the goals of ASFA. Such reliance on process is inconsistent 
with the agreed upon principle of the importance of outcomes 
over process.

  Penalties and Corrective Action Related to MEPA and the Interethnic 
                          Adoption Provisions

    State agencies understand that the process for assessing 
MEPA penalties must be unique to a certain extent, but believe 
that the statute affords HHS the flexibility to make the MEPA 
enforcement process aimed at program improvement as well. We 
are concerned that the process proposed in the regulations is a 
retreat to the old way of doing business with the states where 
there is no clear standard of compliance and no real attention 
to program improvement. Unlike the process outlined for the 
child and family services reviews, the proposed regulations 
make no mention of HHS' obligation to inform states 
specifically of the reasons for non-compliance, to work with 
states to develop a corrective action plan, to develop a 
specific timeline for HHS to approve corrective action plans, 
or to inform states of what needs to be done to be in 
compliance.
    We strongly disagree with HHS' interpretation of the 
statute as it relates to penalties for a violation with respect 
to a person. The statute provides for the opportunity for 
corrective action before penalties are assessed. However, the 
proposed regulations impose immediate penalties and successive 
reductions in funding, with corrective action only serving to 
stop additional penalties from being assessed. We believe that 
the regulation is inconsistent with congressional intent, 
legislative history, and the conference report, and violates 
the understanding in which the statutory language was 
negotiated with our organization. We urge the subcommittee to 
take action to ensure that this matter is resolved in the final 
regulations so that corrective action is allowed before 
penalties are imposed.

                     Cumulative Effect of Penalties

    There are a substantial number of penalties imposed by the 
federal government on state child welfare systems (i.e., MEPA, 
AFCARS, interjurisdictional adoption, child and family service 
review and IV-E eligibility reviews). Contrary to the views of 
others who commented on the proposed regulations, we do not 
view the new review systems established by these regulations as 
overly lenient with respect to the penalties imposed. In fact, 
we are concerned that the cumulative effect of these penalties 
is immense and has the potential to undermine the historic 
state-federal relationship around the state plan process. While 
we do believe states must be accountable in how they use 
federal funds to operate state programs, we contend that this 
piecemeal approach to penalty assessment obscures the overall 
impact on states. We urge the Congress and HHS to take a 
serious look at the current piecemeal penalty approach and 
consult with the states on a more rational approach to 
assessing performance across programs, rather than continuing 
to add on individual penalties by program. If program 
improvement is a serious objective, we must recognize that 
resources, along with the opportunity for corrective action and 
positive incentives that are linked to outcome, are critical to 
achieving success. We urge you to consider these issues as you 
undertake proposals on the development of a performance-based 
incentive system and other proposals related to the 
restructuring of Title IV-E financing.
    The individuals with the most at stake are the children and 
families we serve. Accordingly, states need to be allowed to 
focus their time and resources on serving these children and 
families. While federal regulations are obviously necessary, we 
want to ensure that they do not hinder states' programs and 
their ability to achieve the very outcomes the federal law 
seeks in the process.
    We commend HHS for developing a framework for federal 
review that truly focuses on outcomes and provides a meaningful 
opportunity for program improvement. We view the proposed 
review system as a significant improvement over the former 
system. We are hopeful that the final regulations will address 
the issues we identified and will support state efforts to 
achieve our mutual goals of safety, permanency and well-being 
for children.
    In closing, I want to let you know that APHSA is working 
hard as an organization to promote successful implementation of 
ASFA and other comprehensive child welfare system reforms. In 
addition to the work we are doing on outcomes and financing, we 
have initiated national partnerships with two key entities that 
are critical to the success of ASFA--one with the juvenile 
courts through a collaboration initiative with the National 
Council of Juvenile and Family Court Judges (NCJFCJ) and 
another with state substance abuse agencies through a joint 
workgroup with the National Association of State Alcohol and 
Drug Abuse Directors (NASADAD). We have also established a task 
force to develop solutions to geographic barriers to interstate 
adoption. APHSA, and its member states and localities are 
deeply committed to achieving the goals of ASFA and positive 
results for children and families, and we look forward to 
continuing to work with you.
      

                                <F-dash>


    Mr. English. Thank you, Mr. Waldman.
    Ms. Warburton, we look forward to your testimony.

 STATEMENT OF KIM WARBURTON, CHAIRMAN OF THE BOARD, KIDSHELP! 
                 FOUNDATION, CHICAGO, ILLINOIS

    Ms. Warburton. Good morning, Chairman Johnson and 
Subcommittee members. My name is Kim Warburton. My husband and 
I entered the arena of child welfare when we adopted, at 4 days 
old, a little boy who was taken from us by his biological 
father when he was 4 years old.
    We named him Danny. The world knew him as baby Richard. 
When our son was taken from us, we dedicated the remainder of 
our life's work to helping children, making sure that they were 
put first.
    KidsHELP! Foundation is a nonprofit human rights initiative 
for children, dedicated to fostering child-centered systems and 
seeking to promote early permanent placement of children in 
stable families. The Adoption and Safe Families Act of 1997 was 
passed to shift the focus of welfare from reunification at all 
costs to the child's health and safety. KidsHELP! urges 
Congress to watch closely over the implementation of the 1997 
act to ensure that it is carried out as you intended it to be.
    KidsHELP! supports the stated goal of the Adoption and Safe 
Families Act of 1997. A child's health and safety should be the 
paramount concern. When Health and Human Services 
Administration proposed its regulations on the statute, we 
wrote to ACF, the Administration for Children and Families, and 
submitted comments that we would like to have reviewed before 
the regulations become final.
    We seek to encourage to adopt regulations that place 
children first by basing all decisions about a child on the 
child's health and safety. KidsHELP! comments focus on two 
central things. One, all decisions about a child should be 
based on the safety and needs of the child. Two, every child 
needs a safe and permanent home as early as possible.
    These are also the goals of the Adoption and Safe Families 
Act. These child-centered goals should be the guiding 
principles of every decision made about a child. Each decision 
should be based on a child's need for safety and permanency 
rather than adults' desires for reunification.
    KidsHELP! disagrees with several of the outcomes which will 
be used to judge the results achieved by State programs because 
they are inconsistent with the act's fundamental goals, to 
protect the safety and health of children first and foremost.
    The first safety outcome provides that children are first 
and foremost protected from abuse and neglect and are safely 
maintained in their homes whenever possible. The second phrase 
in this outcome, ``and are safely maintained in their homes 
whenever possible,'' undermines the primary goal of ensuring 
child safety. Maintaining children in their homes may directly 
conflict with protecting children from abuse and neglect.
    This outcome also sends a confusing message to agencies as 
to whether they should protect children or maintain children in 
their homes. Congress unequivocally resolved this debate in 
passing the act by setting the primary goal to keep children 
safe.
    KidsHELP! suggests that the first safety outcome be, 
children are first and foremost protected from abuse and 
neglect, period. The second safety outcome is risk of harm to 
children is minimized. The goal should be to eliminate harm, 
not merely minimize it. State programs should be judged on 
whether they are successful at protecting children, which means 
eliminating harm to children.
    We suggest deleting the second safety outcome because it is 
redundant, if not inconsistent with the first safety outcome of 
protecting children.
    ACF proposes to use the outcomes as a measure to evaluate 
whether State programs conform with Federal requirements. ACF 
plans to use performance indicators to evaluate States' 
results. Unfortunately, ACF's performance indicators are vague 
and difficult to measure. The performance indicators should be 
more quantifiable and focus on child safety, not reunification. 
The numbers should be broken down and reported by categories. 
States should report the age ranges for each category, which 
would enable a profile of entries and reentries to be 
established and analyzed to assist in the development of future 
initiatives. States should compare current data with data from 
the previous 5 years to evaluate the State's progress.
    The proposed penalties are too low to encourage compliance. 
KidsHELP! supports ACF's efforts to forge partnerships with 
States to develop high-quality child welfare programs; however, 
ACF should not use program improvements to the near elimination 
of penalties.
    The proposed penalties are too low and should be increased. 
The best incentive for States to conform to Federal standards 
is not only the threat of withholding Federal funds but the 
practice of implementing those penalties when the State, 
regardless of which branch of government or appropriate agency, 
fails or refuses to comply with, apply, or implement those 
Federal standards.
    Furthermore, penalties should not be suspended while the 
State is attempting to come into compliance because if States 
continue to receive money, they have no incentive to improve. 
ACF's rules violate the act by requiring States to terminate 
parental rights of parents who commit certain felonies against 
children.
    There is a slight conflict which exists within the act 
itself. Under section 675(5)(E), there is a mandatory 
requirement of termination of parental rights, yet, on the 
other hand, section 671(a)(15)(D) provides that States need not 
make reasonable efforts to reunify the child when a parent has 
committed felonies under the act. Once a court determines that 
reasonable efforts to reunify are not necessary, the State must 
hold a permanency hearing within 30 days.
    Thus a conflict as to determination of parental rights 
arises within the act as one section requires termination 
proceedings when a parent commits a felony against a child 
while another section, under those same felony circumstances, 
gives the States the discretion to make reasonable efforts and 
to proceed to permanency hearings.
    I would like to thank you very much today for the 
opportunity to speak and share our objectives and our 
viewpoints regarding this particular aspect of ASFA and the 
regulations that oversee it. We have provided you with a copy 
of our long-term statement today, and most importantly, I would 
like to thank you for your concern regarding children.
    [The prepared statement follows. An attachment is being 
retained in the Committee files.]

Statement of Kim Warburton, Chairman of the Board, KidsHELP! 
Foundation, Chicago, Illinois

                            I. INTRODUCTION

    Good morning Chairman Johnson and committee members. My 
name is Kim Warburton. My husband and I entered the arena of 
child welfare when we adopted, at 4 days old, a little boy who 
was taken from us by his biological father when he was 4 years 
old. We named him Danny. The world knew him as ``Baby 
Richard.'' When our son was taken from us, we dedicated our 
life's work to helping children.
    KidsHELP! is a non-profit, human rights initiative for 
children, dedicated to fostering child-centered systems, and 
seeking to promote early permanent placement of children in 
stable families.

                             II. BACKGROUND

    I would like to start with a brief background to the 
Adoption and Safe Families Act and these rules. In 1980, 
Congress passed the Adoption Assistance and Child Welfare Act 
to decrease the number of children in foster care. The statute 
required states to make reasonable efforts to prevent the 
removal of children from their homes. ``Reasonable efforts,'' 
however, was left undefined by Congress. Without guidance, 
states made every possible effort and left no stone unturned in 
reunifying families. States wrongly interpreted the statute to 
require that they must give parents every possible chance and 
service to get their children back. As a result of the 1980 
statute, the number of children in foster care actually 
increased. The statute was a failure.
    There was no effective Congressional oversight of the 1980 
statute. Perhaps if there had been, Health and Human Services 
and the states would not have veered so far astray from the 
statute's intent. To correct this problem, Congress passed the 
Adoption and Safe Families Act of 1997 to shift the focus of 
child welfare from reunification at all costs to child health 
and safety. KidsHELP! urges congress to watch closely over the 
implementation of the 1997 Act to ensure that it is carried out 
as you intended.
    KidsHELP! supports the stated goal of the Adoption and Safe 
Families Act of 1997--a child's health and safety shall be the 
paramount concern. When Health and Human Services' 
Administration for Children and Families proposed its 
regulations on this statute, we wrote to ACF and submitted 
comments that we would like ACF to review before the 
regulations become final. We have provided a copy of those 
comments to you today. We seek to encourage ACF to adopt 
regulations that place children first by basing all decisions 
about a child on the child's health and safety.

                             III. COMMENTS

    KidsHELP!'s comments focus on two central themes:
    1. All decisions about a child should be based on the 
safety and needs of the child
    2. Every child needs a safe and permanent home as early as 
possible
    These are also the goals of the Adoption and Safe Families 
Act. These child-centered goals should be the guiding 
principles of every decision made about a child. Every decision 
should be based on a child's need for safety and permanency, 
rather than an adult's desires for reunification. In the 
comments kidsHELP! submitted in December, kidsHELP! pointed out 
where ACF's proposed rules deviate from these goals.

A. OUTCOMES DO NOT PROTECT CHILDREN FIRST AND FOREMOST.

    KidsHELP! disagrees with several of the outcomes which will 
be used to judge the results achieved by state programs because 
they are inconsistent with the Act's fundamental goal to 
protect the safety and health of children first and foremost. 
In its December comments, kidsHELP! suggested specific changes 
to the outcomes. Here, I will point out just a couple of 
examples of how the outcomes need to be more child-centered.
    The first safety outcome provides that ``children are, 
first and foremost, protected from abuse and neglect, and are 
safely maintained in their homes whenever possible.'' The 
second phrase in this outcome'' and are safely maintained in 
their homes whenever possible,'' undermines the primary goal of 
ensuring child safety and rather is reminiscent of the former 
focus on family reunification. Maintaining children in their 
homes may directly conflict with protecting children from abuse 
and neglect. This outcome sends a confusing message to agencies 
as to whether they should protect children or maintain children 
in their homes. Congress unequivocally resolved this debate in 
passing the Act by setting the primary goal to keep children 
safe. KidsHELP! suggests that the first safety outcome be 
``children are, first and foremost, protected from abuse and 
neglect,'' period.
    The second safety outcome is ``risk of harm to children is 
minimized.'' The goal should be to eliminate harm not merely 
minimize harm. State programs should be judged on whether they 
are successful at protecting children which means eliminating 
harm to children. KidsHELP! suggests deleting the second safety 
outcome because it is redundant, if not inconsistent with, the 
first safety outcome of protecting children.

B. OUTCOMES SHOULD BE MEASURED BY OBJECTIVE, QUANTIFIABLE 
INDICATORS.

    ACF proposes to use the outcomes as a measure to evaluate 
whether state programs conform with federal requirements. ACF 
plans to use performance indicators to evaluate state's 
results. Unfortunately, ACF's performance indicators are vague 
and difficult to measure. Furthermore, many of the performance 
indicators improperly address reunification. In its December 
comments, kidsHELP! made numerous suggestions on revising the 
performance indicators to make the indicators more quantifiable 
and to focus on child safety not reunification. For example, 
the performance indicators for safety outcomes should be 
indicators such as:
    1. Number of cases where there is risk of harm to child
    2. Number of cases of neglect
    3. Number of cases of abandonment
    4. Number of initial and repeat cases of physical or 
emotional maltreatment
    5. Number of child deaths due to physical or emotional 
maltreatment
    6. Number of child deaths following removal and return of 
child to parents
    7. Number of cases in which state did not initiate an 
investigation within 24 hours of receiving a report
    These numbers should be broken down and reported by 
categories such as biological home, foster care, kinship care, 
adoptive placements, and subsidized guardianships. States 
should report the age ranges for each category and compare 
current data with data from the previous five years to evaluate 
the state's progress.
    State and federal agency employees, as well as the public, 
need more specific guidance on how to evaluate a state's 
performance. Please see our December comments for more 
suggestions on indicators for each of the outcomes.

C. PROPOSED PENALTIES ARE INSUFFICIENT INCENTIVES FOR STATES TO 
MEET FEDERAL STANDARDS.

    The proposed penalties are too low to encourage compliance. 
KidsHELP! supports ACF's efforts to forge partnerships with 
states to develop high quality child welfare programs. However, 
ACF should not use program improvements to the near elimination 
of penalties. The proposed penalties are too low and should be 
increased. The best incentive for states to conform to federal 
standards is not only the threat of withholding federal funds, 
but the practice of implementing those penalties when the 
state, regardless of which branch of government or appropriate 
agency, fails or refuses to comply with, apply, or implement 
those federal standards. Furthermore, penalties should not be 
suspended while the state is attempting to come into 
compliance, because if states continue to receive money, they 
have no incentive to improve. KidsHELP! suggests that Congress 
and ACF consider a graduated penalty approach whereby ACF 
immediately withholds a percentage of federal funds and 
increases that penalty each year until the state program 
conforms with federal requirements.

D. PROPOSED RULES CONFLICT WITH REQUIREMENT TO TERMINATE 
PARENTAL RIGHTS WHERE PARENT HAS COMMITTED A FELONY.

    ACF's proposed rules violate the act by not requiring 
states to terminate parental rights of parents who commit 
certain felonies against children. My remaining comments on 
this point are somewhat technical and require some familiarity 
with specific sections of the statute. However, I ask for your 
patience because it is an extremely important point that states 
be required to terminate parental rights of parents who commit 
felonies against their children. ACF argues in the preamble to 
its proposed regulations that children should be returned to 
parents who have been convicted of felonies against children! 
This is an unconscionable result.
    Section 675(5)(E) of the Act, requires states to terminate 
parental rights when a court determines that a parent committed 
certain felonies against a child. This is not a discretionary 
provision; the state must initiate termination proceedings. On 
the other hand, Section 671(a)(15)(D) provides that states need 
not make reasonable efforts to reunify the parent and child 
when a parent has committed these same felonies. Once a court 
determines that reasonable efforts to reunify are not 
necessary, the state must hold a permanency hearing within 30 
days. Thus, a conflict as to termination of parental rights 
arises within the act as one section requires termination 
proceedings when a parent commits a felony against a child, 
while another section, under those same felony circumstances, 
gives states the discretion not to make reasonable efforts and 
to proceed to a permanency hearing within 30 days but does not 
require the state to terminate parental rights.
    Rather than resolving this conflict by choosing the 
mandatory requirements of Section 675(5)(E), ACF chose the 
discretionary language of Section 671(a)(15)(D). According to 
ACF, after a parent is convicted, a court will determine if 
reasonable efforts are required to reunify the parent and 
child. If a court determines that reasonable efforts are not 
required, the case will proceed to a permanency hearing within 
30 days. If adoption becomes the permanency goal, the state 
then has 30 days to terminate parental rights. The state would 
not be required to terminate parental rights if adoption is not 
the permanency goal. This interpretation completely ignores 
Section 675(5)(E) which requires a termination proceeding. 
Section 675(5)(E) does not give states the discretion to 
terminate only when the permanency goal is adoption. When the 
parent is convicted of a felony, the state should immediately 
terminate parental rights without a permanency hearing.
    Even more alarming, ACF gives an example of how it would 
resolve this conflict by returning a child to the home of a 
parent who has already served prison time for committing a 
felony against a child. ACF explains that if a court ordered 
reunification as the permanency goal, this would be ``a 
compelling reason for the state not to file a petition to 
terminate parental rights.'' The Act, however, does not give 
states any authority not to terminate parental rights in such a 
case. Section 675(5)(E) does not contain any ``compelling 
reason'' exception to terminating parental rights. Rather, 
Section 675(5)(E) requires the state to terminate parental 
rights in ACF's example.
    ACF's proposed rules blatantly ignore the mandatory 
requirements of the Act. KidsHELP! disagrees with ACF's 
approach and encourages ACF to follow the mandatory language in 
Section 675(5)(E).

                             IV. CONCLUSION

    Thank you ladies and gentlemen for the time and opportunity 
to share our views. But most importantly, thank you for your 
concern for children.

                            V. OTHER POINTS

A. ACF MUST BETTER DEFINE ``SUBSTANTIAL CONFORMITY''

    ACF proposes to use the outcomes to evaluate whether state 
programs conform with federal standards. States must 
``substantially conform'' with federal requirements to receive 
full funding. ACF proposes that a state will be in 
``substantial conformity'' with federal requirements if each 
outcome discussed above is rated as ``substantially achieved'' 
in 95% of the cases examined. ACF plans to rate states as 
``substantially achieved,'' ``partially achieved,'' or ``not 
achieved'' but does not define any of these terms. All four 
terms should be defined in the regulations. Failing to define 
these terms, will lead to non-uniform evaluations from state to 
state and does not give states sufficient guidance as to what 
they need to do to receive federal funds and does not give the 
public sufficient information as to the performance of their 
state agencies.

B. TIMETABLES FOR REVIEWS NEED TO BE SHORTER.

    The proposed rules provide timetables for reviewing state 
conformity with federal program requirements. Several of the 
timetables for child and family service reviews are too long. 
Every day in the life of a child affected by these regulations 
is important. Accordingly, states should act as swiftly as 
possible to serve these children. Please see our December 
comments for specifics timetables that need to be shortened.

C. TIMETABLES FOR TERMINATION OF PARENTAL RIGHTS NEED TO BE 
SHORTER.

    The proposed rules provide deadlines for states to file for 
termination of parental rights in cases of abandonment or 
abuse. Several of the deadlines are too long. Every day in the 
life of a child affected by these regulations is important. 
Accordingly, states should act as swiftly as possible to serve 
these children. Specifically, states should initiate 
termination at the same hearing when the court determines that 
a child is abandoned and within 1 week of the court's 
determination that a parent has committed a listed felony.

D. ACF MUST ENSURE ACCURATE AND COMPLETE DATA COLLECTION.

    Much of the success of the proposed rules depends on the 
data ACF collects through its national information collection 
systems: the Adoption and Foster Care Analysis and Reporting 
System and the National Child Abuse and Neglect Data System. 
Although kidsHELP! supports standardized collection of data, 
ACF must ensure that the information is accurate and complete. 
KidsHELP! encourages ACF to oversee that states are properly 
inputting their data.

E. ACF SHOULD NOT LIMIT TERMINATION PROCEEDINGS TO ONE CHANCE.

    KidsHELP! disagrees with ACF's proposal that states need 
only initiate termination proceedings once for a child who has 
spent 15 of the previous 22 months in foster care. ACF states 
that multiple termination petitions are not necessary because 
children are provided sufficient protection to achieve 
permanency through other sections of the statute. Neither the 
statute nor the legislative history provide any support for 
limiting termination proceedings to one time. ACF's approach 
will not promote permanent placements for children but rather 
will keep children in the system for longer periods. 
Furthermore, permanency hearings and alternative placements are 
not sufficient protections for children and cannot replace 
termination of parental rights. Accordingly, kidsHELP! 
recommends deleting this section.

F. ACF MUST BETTER DEFINE ``AGGRAVATED CIRCUMSTANCES''

    The Act provides that states need not make reasonable 
efforts if there is a judicial determination that a parent has 
subjected his child to ``aggravated circumstances.'' Neither 
the Act nor ACF define ``aggravated circumstances.'' Failing to 
define ``aggravated circumstances'' allows states to minimize 
what constitutes aggravated circumstances by using only the few 
examples listed in the statute. Congress intended for states to 
go beyond the statutory examples and intended for aggravated 
circumstances to be a broad exception to the reasonable efforts 
requirement. Accordingly, kidsHELP! suggests defining 
``aggravated circumstances'' to include certain minimum crimes 
but allowing states to further expand the list.
    [An Attachment is being retained in the Committee files.]
      

                                <F-dash>


    Chairman Johnson of Connecticut [presiding]. Thank you.
    Ms. Allen, welcome.

STATEMENT OF MARYLEE ALLEN, DIRECTOR, CHILD WELFARE AND MENTAL 
                HEALTH, CHILDREN'S DEFENSE FUND

    Ms. Allen. Chairman Johnson and other Members of the 
Subcommittee, I am Mary Lee Allen, director of child welfare 
and mental health at the Children's Defense Fund, and I am 
delighted to have received your invitation to testify today at 
your hearing on child protection oversight.
    As you know, this is not a new concern for the Children's 
Defense Fund. We have been working for more than two decades to 
enhance the implementation and enforcement of Federal and State 
laws designed to keep children safe in nurturing families and 
communities. Given that history, I appear today with somewhat 
mixed emotions. I have a bit of sadness that here we are, 20 
years after significant child welfare reform efforts began, 
still talking about how best to provide Federal oversight for 
some of our most vulnerable children.
    On the other hand, I know that important progress has been 
made in reforms in communities and States across the country 
and we will have opportunities to hear about that from the 
second panel this morning.
    I also commend the Subcommittee's interest in examining 
ways that together we can all do a better job to ensure that 
the protections and supports for children and families in 
Federal law, including those in the recently enacted ASFA, 
Adoption and Safe Families Act, can really make a difference 
for children.
    CDF believes that if we are serious about oversight for the 
care of children, that we really need to take action in four 
areas. One of those areas, the pending regulations that address 
Federal oversight, already has been talked about extensively 
this morning. Many of our comments on the proposed regulations 
echo those that have been made already. Therefore, I would 
like, in my very short time this morning, to focus on the three 
other areas very quickly.
    First, we believe that steps must be taken to increase the 
capacity of public systems to promote child safety and 
permanence. Given the mandates of ASFA, we believe that the 
Subcommittee has a unique opportunity to help States ensure 
that they can move the 100,000 children for whom the goal of 
adoption has already been identified into permanent families. 
It is so important that this be done right.
    The challenges to even identify this group of children are 
enormous. It means first identifying in a State's entire 
caseload how many children have been in care for 15 out of the 
22 most recent months; determining the most appropriate 
permanent plans for those children; and then comparing what it 
would take to actually move those children into permanent homes 
with the existing capacity of the system.
    The General Accounting Office projected that in California 
and Illinois alone we are talking about 104,00 children who 
have been in care for over that 15-month period specified in 
ASFA. And in Cleveland, Cuyahoga County, Ohio, a recent report 
indicated that 4,500 children have to be adopted over the next 
year to meet that compliance standard. That is nine times more 
than were adopted in Cleveland last year, which was a record 
year in terms of the number of adoptions.
    I think, though, that States and courts are taking ASFA 
seriously. When they do take the steps required by ASFA, we 
urge you to consider giving them the extra one-time assistance 
they need to move these children into permanent adoptive 
families.
    The request for that sort of assistance will be different 
in different States. However, increased, specially targeted 
resources are necessary so that agency and court staff can 
focus on these cases, but, at the same time, not neglect the 
children coming into the system on a daily basis and children 
with other permanency plans.
    This step alone, we believe, would mean a lot, not only for 
these children but also for the other hundreds of thousands of 
children who, while remaining in the system, might have a 
better chance of getting what they needed because of reduced 
caseload.
    The second area we think is particularly important involves 
additional steps to improve the quality of data. Although it 
has been a long time in coming, we are very pleased about the 
steps that have been taken to improve the AFCARS system and 
also the National Child Abuse and Neglect Data System. And 
these efforts should continue. At their best, however, they are 
limited. These data systems provide a snapshot, a one-point-in-
time look, at what is happening to children and families in the 
system. They tell us nothing about the movement of those 
children throughout the system.
    Therefore, CDF recommends that the Subcommittee take steps 
to help all States develop the data capacity, as Illinois has 
done, to follow children in the system over time. For example, 
States could be given incentives to become part of the Multi-
State Foster Care Data Archive now maintained by Chapin Hall. 
There are 11 States now participating in that system, 
representing about two-thirds of the children in foster care in 
the country. Those data are extremely useful in better 
understanding the movement of children in care, by age, by 
special needs, and other characteristics. They also make it 
possible to look at the trends and the patterns that exist from 
State to State.
    Third, and finally, we believe that a good system of 
oversight must include opportunities for input from parents and 
other citizens, and also judicial recourse to address 
circumstances when children and families are denied the 
services and protections they are to be afforded under Federal 
law.
    Early engagement of parents, when safe and appropriate, and 
I emphasize when safe and appropriate, is essential to ensuring 
the best interest of the child within the ASFA timeline. Other 
citizen involvement in child welfare is also very significant, 
and there is a growing body of experience to draw on. Twenty-
six States are using citizens in their review of foster care 
cases. CASA, Court-Appointed Special Advocate, Programs are now 
in place in all 50 States and the District of Columbia. Child 
death review teams, which in a number of States include 
citizens, are also in place in 48 States--and that is up from 
12 in 1990. And then this July, the new citizen review panels 
mandated by Congress in 1996 in CAPTA, the Child Abuse 
Prevention and Treatment Act, are supposed to be in place in 
all of the States as well. These panels are specifically 
required to look at how States are discharging their child 
protection responsibilities.
    Finally, in any system for Federal oversight, it is 
critically important that there be an opportunity for judicial 
recourse for children and families who have been wronged by the 
system to have an opportunity to challenge these wrongs in 
Federal court. Karen Spar has already talked about the number 
of lawsuits in place across the country. There are 30 States 
now, and the District of Columbia, where child welfare lawsuits 
are pending or have been completed. And Karen already 
described, so I won't go into it, some of the issues being 
addressed by that litigation.
    CDF urges the Subcommittee, in relation to this last area, 
to call upon parents and citizens involved in these review 
activities, and attorneys involved in some of these class-
action lawsuits to hear more about what they are observing and 
to listen to their recommendations.
    The young people you heard from last month, Mrs. Johnson, 
at the hearing on youths aging out of foster care, was a 
testament to the value of this sort of input. The opportunity 
to hear more from those directly involved in oversight 
activities would be very useful.
    We really appreciate the opportunity to present our 
recommendations today, and we look forward to continuing to 
work with you to ensure safety and permanence for children.
    Thank you.
    [The prepared statement follows:]

Statement of MaryLee Allen, Director, Child Welfare and Mental Health, 
Children's Defense Fund

    Good morning. I am MaryLee Allen, Director of Child Welfare 
and Mental Health at the Children's Defense Fund. The 
Children's Defense Fund (CDF) is a privately funded public 
charity dedicated to providing a strong and effective voice for 
all the children of America. As we seek to Leave No Child 
Behind, CDF pays particular attention to the needs of poor and 
minority children and children with disabilities. CDF has never 
taken government funds.
    I appreciate your invitation to testify today on behalf of 
CDF at the Subcommittee's hearing on Child Protection 
Oversight. I am pleased to offer CDF's recommendations for some 
of the steps we believe are necessary to better ensure that 
children and families actually receive the protections and 
services for which they are eligible under federal child 
welfare programs.
    As you know, this is not a new concern for the Children's 
Defense Fund. CDF has been working for more than two decades to 
enhance the implementation and enforcement of federal and state 
laws designed to protect children and families. Our 1979 
report, Children Without Homes: An Examination of Public 
Responsibility to Children in Out-of-Home Care, made a number 
of recommendations that were incorporated into the 1980 
Adoption Assistance and Child Welfare Act. Since then we have 
sought, often in partnership with this Subcommittee, to add 
protections to federal laws and improve enforcement mechanisms. 
We have provided technical assistance to state and local 
officials and advocates who are implementing the laws, 
monitored their impact, sought to promote best practices, and, 
in some cases, sought relief for classes of children who were 
being denied the protections to which they had a right under 
federal law.
    With that history, I appear before you today with mixed 
emotions. On the one hand, it is sad to reflect on the fact 
that while federal child welfare reform began in earnest about 
20 years ago, today we are still struggling to ensure 
meaningful federal oversight for some of our nation's most 
vulnerable children and families. Too many of the problems in 
the child welfare system today are the same ones that CDF 
chronicled in Children Without Homes. Yet, during these two 
decades, a whole generation of children has been born and grown 
to adulthood, too many of them with only the state as parent.
    On the other hand, I recognize the important progress that 
has been made in some communities and states, some of which you 
will hear about from the second panel today. The important 
steps that have been taken to increase public accountability 
for what happens to children and families are encouraging. This 
Subcommittee over the past decade has strengthened avenues for 
overseeing the care children and families receive. There has 
been continuing recognition of the importance of core 
protections for children who have been abused or neglected. 
States have been given the flexibility to experiment with 
improved approaches to service delivery through the federal 
Child Welfare Demonstration Program, that Chairman Johnson 
played such an important role in developing during her earlier 
tenure on the Subcommittee. Recent improvements in the 
establishment of data systems and increased recognition of the 
importance of a results-based accountability for states also 
are causes for hope. The September 1998 publication by the 
Department of Health and Human Services (HHS) of the long 
awaited guidance on the Child and Family Service Reviews and 
the Title IV-E Program Eligibility Reviews, prompted by 
Congress' 1993 legislation in this area, also represents 
important progress.
    We can work together to pass the best new laws, but without 
adequate enforcement, they offer little to children and 
families. Therefore, we commend you for holding this hearing 
today to examine how we can all do a better job to ensure that 
the protections and supports for children and families in 
federal law, including those in the recently enacted Adoption 
and Safe Families Act (ASFA), can really work to benefit 
children.
    In my time this morning, I would like to do two things. 
First, review with you what CDF considers to be some of the 
core components of a meaningful system of federal oversight for 
child protection, and to suggest specific steps that the 
Subcommittee and Congress could take in regard to each of them 
to better promote safety and permanence for children. Second, 
discuss in more detail some of CDF's specific recommendations 
for improving the system of federal Child and Family Services 
reviews proposed last September by HHS.

        KEY COMPONENTS OF FEDERAL OVERSIGHT OF CHILD PROTECTION

    A federal review system that holds states accountable for 
their care of children and the operation of their child welfare 
systems is key to effective federal oversight. However, CDF 
believes that as HHS works to establish a compliance or 
conformity monitoring system that will fairly and equitably 
judge state performance and its true impact on child safety, 
permanence, and well-being, that significant attention is 
needed on at least three other fronts at the same time. These 
include the development of 1) increased system capacity within 
child welfare and related agencies; 2) improved data; and 3) 
expanded opportunities for enhanced public and judicial review 
of system performance. In each, we also believe that there are 
steps for the Subcommittee to take now to help ensure children 
and families will benefit from the services and protections 
offered them through federal law.

Increased system capacity to promote child safety and 
permanence

    Good monitoring systems alone will not protect children, 
unless at the same time steps are taken to improve the capacity 
of the public systems charged with the care of abused and 
neglected children to meet their needs in the manner mandated 
by federal law. Improved capacity to get the job done means 
ensuring increased resources and training to provide children 
what they need within the timeframes within which they need it 
to achieve improved outcomes.
    CDF believes that Congress has a unique opportunity right 
now--as a result of the Adoption and Safe Families Act (ASFA)--
to enhance the child welfare system's ability to better offer 
children and families what they need.
    ASFA reinforces the importance of safety and permanence for 
children. CDF urges the Subcommittee to take steps immediately 
to help ensure that states have the capacity to move the 
100,000 children for whom adoption is already the goal into 
permanent families. This means ensuring that states are doing 
four things:
    1. Promptly identifying and reviewing the cases of children 
who were already in care for 15 out of the most recent 22 
months on December 17, 1997, when ASFA was enacted;
    2. Determining the best permanency plans for them, and the 
steps necessary to achieve permanence, including termination of 
parental rights and adoption;
    3. Assessing what it will take to get the waiting children 
into permanent homes consistent with those plans, what is 
needed to address the backlog, and how this contrasts with the 
current capacity of the courts and public and private agencies 
in the state to accomplish that goal; and
    4. Taking action to move these waiting children to 
permanent homes. </ol>
    The challenges are enormous. Consider, for example, that 
the U.S. General Accounting Office has estimated that in 
Illinois and California alone there are more than 104,000 
children who have been in care longer than the 15 out of 22 
months. On a smaller scale, there is the city of Cleveland and 
its surrounding county. A front-page story in the Cleveland 
Plain Dealer at the end of last month announced that 4,500 
children in Cuyahoga County must be placed in adoptive homes by 
the end of next year, as a result of ASFA. This, officials 
said, is nine times as many children as the county found homes 
for last year--a record year for adoptions in the county.
    Tasks one and two will have no benefit for children unless 
the third is acted on as well so the fourth can happen. We 
recommend that the Subcommittee hold several field hearings 
before the fall on the implementation of ASFA in order to 
identify what is needed to eliminate the backlog of children in 
care who have been identified by states as needing termination 
of parental rights and adoption. I encourage you to ask judges, 
state and local administrators, front line workers, parents, 
foster parents, adoptive parents, and other advocates for 
children and families what it will take to do the job right for 
children, and then to help them get it. It is important that it 
be done right. Children must not be moved prematurely or 
inappropriately to adoptive families or to families not 
prepared for the challenges. Post adoption services will be 
necessary to help adoptive families care appropriately for 
children with special needs.
    It is not sufficient to impose new permanency timelines and 
then to focus attention only on how to hold states accountable 
for complying with these timelines. Capacity development is 
essential. This is especially true given that the ``Ways and 
Means Green Book'' notes that virtually all of the funding 
disallowances that had been made in the Title IV-E Program in 
the past occurred as a result of states not holding timely 
periodic reviews and permanency hearings (which at the time 
were called dispositional hearings). Therefore, it will take 
special efforts for states to meet even tighter timelines.
    Several states already have coupled state reform mandates 
with systematic efforts to increase the capacity of counties to 
comply with the new mandates. For example, as Colorado was 
implementing its Expedited Permanency Planning Program, it 
asked counties what help they would need to move younger 
children into permanent families within one year. Requests 
included more substance abuse, mental health, and domestic 
violence services, and increased staff. The state also offered 
cross-system training and technical assistance. As Alabama 
implemented a series of court-mandated reforms, it also phased 
in clusters of counties sequentially. This allowed the counties 
to get special training and new resources to help implement the 
reforms.
    CDF recommends that the Subcommittee undertake a similar 
approach at the federal level. Extraordinary measures should be 
taken to ensure that states get the help they need to move 
children who are waiting for adoption into adoptive families. 
State agencies and courts that have identified children who 
have been in care too long, established permanency plans for 
them, and know what it will take to move them into permanent 
homes should be made eligible for special one time assistance 
to help move these children into permanent families. The 
Strengthening Abuse and Neglect Courts Act (S.708), introduced 
by Senators DeWine, Chafee, Landrieu, Rockefeller, Levin, 
Kerry, and Kerrey, begins this process. It includes a backlog 
grant program to provide one-time assistance to courts to move 
these cases to termination of parental rights and then on to 
adoption. Increased specially targeted resources are necessary 
so that agency and court staff can focus on these cases without 
neglecting children with other permanency goals or those just 
entering the system.
    This step alone--carefully clearing the child welfare 
system of the backlog of children in care who should have been 
moved to adoptive families many months, and often years, 
earlier--will positively impact the futures of these children. 
It also will impact the futures of hundreds of thousands of 
other children as well. With fewer children in care and reduced 
caseloads, the child welfare system will be better able to 
protect children in the future.

Data systems that allow for internal monitoring and tracking of 
children and also the comparison of trends across states.

    Any meaningful monitoring system is only as good as the 
quality of the data that are available to it. CDF strongly 
believes that it will never be possible to track the extent to 
which children are benefiting from the protections in federal 
law unless significant improvements are made in the data 
available at the local, state, and national levels. Data that 
track the movement of individual children in care can provide 
important indications about the experiences children are having 
in care--both good and bad.
    CDF has been talking with this Subcommittee about improved 
data in child welfare for close to two decades. We had great 
hopes when the Adoption Assistance and Child Welfare Act was 
first enacted, that we would finally be able to have some basic 
data on state performance. Renewed efforts were then made to 
improve state reporting in 1986.
    Now, more than a dozen years later, there finally has been 
important progress in the establishment of the Adoption and 
Foster Care Analysis and Reporting System (AFCARS). Efforts 
also are being made to improve the National Child Abuse and 
Neglect Data System. These efforts must continue. However, even 
in their best form, these two systems will offer only a 
snapshot of the children in care at one point in time. They 
present a picture of a cross-section of the system, but do not 
follow individual children or groups of children over time.
    More is needed. CDF recommends that the Subcommittee take 
steps immediately to help all states become part of the 
MultiState Foster Care Data Archive. The Archive, now 
maintained, with some federal support, by the Chapin Hall 
Center for Children at the University of Chicago, was started 
with five participating states (CA, IL, MI, NY, and TX) and 
this year will have 11 states (AL, CA, IA, IL, MD, MI, MO, NM, 
NY, OH and WI). These states together account for about two-
thirds of the children in foster care nationally. The Archive 
is a multi-state database that contains the complete child 
welfare history of every child who is in the care and custody 
of the state child welfare agency. The data are comprehensive 
at the level of the individual child. They are extremely useful 
in better understanding the movement of children in care, by 
age, type of placement, and other characteristics, and also in 
looking across states at things like different entry and exit 
patterns, lengths of placements, and placement patterns.
    Any such investment must be conditioned upon the assurance 
that these data would be available to HHS, and in some form to 
the relevant Congressional committees and the public. The 
states obviously must have access to the data. Such a system 
would allow more meaningful oversight of the children in care, 
and would expand opportunities for establishing outcomes that 
could be measured within states and applied across states. It 
also increases opportunities to link these data with data on 
child protection, the courts, Medicaid, and other systems with 
which the children and families interact. On a related note, we 
also ask the Subcommittee to support data improvements for the 
courts similar to those in the pending bipartisan Strengthening 
Abuse and Neglect Courts Act mentioned earlier.

Opportunities for parent involvement, citizen review, and 
judicial recourse to address alleged abuses

    A good monitoring system must include federal oversight and 
improved opportunities for the states to carry out their 
activities and track the care individual children receive. It 
must also include opportunities for input from parents and 
other citizens, and judicial recourse to address circumstances 
where children or families are denied the services and 
protections that they are afforded under federal law.
    Incentives must be provided for parent involvement in 
system reform and, where appropriate, in the design and 
delivery of services to children. Increased parent involvement 
in case planning and service delivery will help to provide a 
watchful eye on the system. Certainly there are families who 
because of the nature of the abuse or neglect involved will 
have no further contact with their children, but there are many 
more cases where involvement of the parents at an early stage 
is essential to ensuring the best interest of the child within 
the ASFA timelines. Therefore, we are pleased that HHS, in its 
September 1998 proposed regulations, requires that a child's 
case plan be developed jointly with the parent or guardian of 
the child in foster care. (Sec. 1356.21(g)(1)). Early 
engagement of the parent, where it is safe and appropriate, is 
essential so services can be provided and a decision can then 
be made within the first twelve months of care about the most 
appropriate permanent plan for the child.
    Other citizen involvement in child welfare also is an 
extremely important means of oversight, and there is a growing 
body of experience from which to draw.
    <bullet> Twenty-six states now are using citizens in their 
regular reviews of foster care cases, required by the Adoption 
Assistance and Child Welfare Act. The trained citizens on the 
foster care review boards review individual cases, and also 
bring concerns about policies and practices that are impacting 
children, both negatively and positively, to the attention of 
state officials and the public. Guidelines that describe how 
citizen foster care review boards can be used as an 
accountability tool are pending in HHS.
    <bullet> Court Appointed Special Advocates (called CASAs) 
oversee the care the individual children receive and make 
recommendations to the court. Their combined voices also bring 
information to the public's attention about the larger barriers 
that prevent children from getting the services and supports 
they need. Currently there are 843 CASA programs in the 50 
states and the District of Columbia. S. 708, the Strengthening 
Abuse and Neglect Courts Act, includes funds to expand the CASA 
program in the largest 15 urban areas in the country and in 
rural areas as well.
    <bullet> Child death review teams, which include citizens 
in some states, are in place in at least 48 states, up from 12 
states in 1990.
    <bullet> Citizen review panels, mandated by Congress in 
1996, as part of the Child Abuse Prevention and Treatment Act 
(CAPTA) amendments, must be operational by July 1999. The 
panels are to determine whether state and local agencies are 
effectively discharging their child protection 
responsibilities. This includes compliance with the state's 
CAPTA plan, but also the extent of the child protection 
agency's coordination with the Title IV-E Foster Care and 
Adoption Assistance Programs and the child death review teams 
that are in place in the state.
    <bullet> Community child protection activities underway in 
a number of states aim to promote increased understanding in 
the community of the problems children face and increased 
responsiveness on the part of community leaders, businesses, 
religious organizations, and others to help to keep children 
safe and in permanent families. They promote community 
involvement and oversight and the chance for more prompt 
attention to problems in the system.
    Finally, in any system for federal oversight, it is 
critically important for children and families who have been 
wronged by the system to have an opportunity to challenge those 
wrongs in federal court. As of 1998, child welfare reform 
lawsuits were pending or completed in 30 states and the 
District of Columbia. In these jurisdictions, the cases address 
recurrent, systemic problems in a state or local child welfare 
system, and seek relief on behalf of classes of children harmed 
by these problems. Examples of problems addressed in the 
lawsuits include the inadequacies of case plans and case 
reviews, preventive and reunification services, termination of 
parental rights, adoption activities, training of caseworkers 
and foster parents, staffing, health care, and special services 
for children with disabilities.
    CDF urges the Subcommittee to call upon parents and 
citizens involved in these activities to learn about what they 
are observing and hear their recommendations about what it will 
take to ensure that children are kept safe and placed in 
permanent families. The young people you heard from last month 
at the hearing on youths aging out of foster care was a 
testament to the value of such input. Similarly, attorneys 
directly involved in child protection litigation should be 
asked for their views on improving federal oversight. In any 
system of federal oversight, the views and experiences of these 
outside entities should be seriously considered and in some 
cases trigger a federal agency review of compliance.

Meaningful Federal Agency Oversight

    My leaving the discussion of federal agency oversight to 
the last is not intended to suggest its lack of importance. To 
the contrary, it is an essential part of the monitoring 
process, but it cannot stand alone, even in its best form.
    In discussing federal agency review, I am not going to 
dwell on the past. The record of the Department of Health and 
Human Services in the monitoring of state compliance in child 
welfare has been abysmal through numerous administrations. Now 
it is time to make it work.
    CDF is encouraged by the steps taken by HHS to put a new 
compliance review system in place that will promote improved 
permanency, safety, and well-being for children. At the same 
time, we recognize the challenges involved for both the states 
and HHS in undertaking the reviews, responding when non-
conformity is identified, ensuring that the necessary program 
improvements are made, and imposing penalties when they are 
not.
    CDF submitted detailed comments to HHS on the September 18, 
1998, Notice Of Proposed Rulemaking for Provisions in the 
Adoption and Safe Families Act, the Multiethnic Placement Act, 
and the Child and Family Services Review and Title IV-E 
Eligibility Review and have provided those comments to the 
Subcommittee staff. This morning, I will summarize just several 
of CDF's recommendations about the proposed federal review 
process.
    First, CDF believes that there are some key characteristics 
of the proposed review process that increase the likelihood of 
its effectiveness and should be retained in the final 
regulations.
    Broad partnership. The review process builds upon 
partnership and collaboration between the states and HHS, and 
also broadens the involvement of other interested parties in 
the state. It recognizes the need for a broad base of community 
involvement in both the self-assessment and the on-site review. 
It also provides opportunities for public review and inspection 
of all self-assessments, reports of findings, and program 
improvement plans. In our comments to HHS we recommended that 
opportunities for external representation on the review team 
and for public response to the reviews and program improvement 
plans be expanded. We believe that an expansion will promote 
broader buy-in to program improvement plans, and help to 
eliminate the likelihood that a state will gloss over problem 
areas in the review or steer the review team around them.
    More than paper reviews. The proposed review process 
involves more than a paper review. My discussions with 
representatives of states involved in the pilots of the review 
process indicate that the self-assessment has been especially 
helpful in getting the state to identify real barriers to 
appropriate service delivery and the causes of those barriers. 
The requirement that the full review involve face to face 
interviews with children and families, service providers, 
foster families, and staff also make it more likely that 
problems in the actual delivery of services, likely to be 
missed in a case record review, will be identified.
    Opportunity for corrective action. CDF agrees that a fiscal 
penalty without action first to correct the problems identified 
harms children. Therefore, we support the HHS proposal for 
states to correct the problems identified in a review within 
established timelines, and efforts to hold HHS and states 
accountable for these timelines.
    We also believe, however, that there are a number of areas 
where the proposed conformity review system must be 
strengthened. Both the states and HHS should be required to 
take additional steps to ensure that the process will provide 
the oversight that children and families deserve.
    Clarify and increase penalties. We think it is extremely 
important that HHS make much clearer to state agencies that 
they must be in compliance with requirements in law and 
regulations by a date certain or fiscal penalties will be 
imposed. The bottom line must be clear. Then HHS can state that 
it is focusing on partnership and program improvement because 
it believes that this is the most effective way to ensure 
conformity with what the law and regulations require to protect 
children.
    Especially in the political context in which so much of the 
business of human resources is conducted, and where the work of 
child welfare agencies often is given low priority, the cut off 
of funds may be the only threat that can trigger corrective 
action. There may be nothing more compelling to a Secretary of 
Human Services, who may be several layers removed from the 
operation of the state's child welfare system, than a notice 
from the federal government that the state's failure to conform 
to federal law is depriving that state's abused and neglected 
children and their families and prospective adoptive families 
of millions of dollars of support.
    On a related note, we believe that the fiscal penalty for 
lack of substantial conformity, as proposed by HHS, is too 
modest to provide a real incentive to states to work vigorously 
to establish the program improvements necessary to protect 
children. It is troublesome that the funds exempted from 
penalties are the Title IV-E foster care room and board and 
adoption assistance payments, thereby allowing states to 
continue with business as usual if a penalty is imposed. These 
are the same activities that a state would be most likely to 
continue if federal funds were cut. We recommend that the pool 
of funds made subject to penalties should include all the funds 
subject to state plan assurances. We hope that sufficient 
program improvements will be made by all states and that 
penalties will never have to be imposed. But, if they are, they 
should be applied to all relevant programs.
    Increase the capacity of HHS and the states. The success or 
failure of the proposed review process is totally dependent 
upon both the capacity of HHS and individual states and we have 
serious concerns about the adequacy of that capacity, 
especially given the current staffing limitations within the 
Children's Bureau and the federal regional offices. Staff 
expertise is needed for there to be good reviews and good 
decisions made initially about a state's compliance, and 
quality technical assistance will be necessary for states to 
develop quality program improvement plans and make the 
necessary improvements in a timely fashion. Capacity begins 
with the quality and experience of those doing the reviews. HHS 
must assure the state staff and others participating in the 
reviews that the federal review team will be knowledgeable 
about all aspects of child welfare practice, the statutory and 
regulatory requirements against which state performance will be 
judged, the process for conducting the reviews and determining 
the level of compliance, and the operation of the child welfare 
system in the state where the review is being conducted.
    The technical assistance also must be high quality. This 
will mean developing an individually tailored technical 
assistance package for each state implementing a program 
improvement plan, and having experts available to provide 
assistance in the areas identified for improvement. Given how 
essential technical assistance is to the success of these 
reviews, we are very concerned by the language in the preamble 
to the proposed regulations that conditions technical 
assistance on the Administration for Children and Families 
``having the resources and funds available.'' Congress in the 
1993 amendments of federal oversight that required HHS to 
develop a new conformity review process specifically required 
HHS to make technical assistance available to the states. The 
lack of technical assistance also was one of the problem areas 
cited by the HHS Inspector General in that Office's June 1994 
report on oversight of state child welfare programs.
    Specifying the content on which states will be judged. CDF 
recommends that changes be made in the proposed regulations for 
both the self-assessment and the on-site reviews to state more 
clearly and completely what must be examined. Without some 
statement of what, at a minimum, states must examine in the 
self-assessment, there will be no assurance state to state that 
there has been a comprehensive look at a state's performance 
with regard to the state's protections for children in the 
federal child welfare programs. The lack of clarity about the 
self-assessment is especially troublesome given that the 
preamble to the regulations says that ``the analysis of the 
self-assessment will provide the focus for the on-site review 
by identifying particular aspects of State programs that need 
further review.'' We recommend, at a minimum, that the outcome 
measures developed for the annual reports on state performance 
that were mandated by Section 203 of ASFA should be 
incorporated in the proposed regulations as measures for 
assessing state's conformity in the areas of safety, 
permanence, and well being. We also suggest that the proposed 
regulations be amended to require that the assessment and 
reviews examine all of the state plan requirements that are 
related to outcomes. These must include provisions such as 
those that require periodic reviews of the care children 
receive, including permanency hearings and the new requirement 
expediting termination of parental rights. It is especially 
important that these and others be added because many of these 
provisions were amended by ASFA.
    Finally, the sample of cases being examined must be large 
enough to fairly represent the children and families being 
served and provide a meaningful assessment of specific 
outcomes. We are all too familiar with the pitfalls of making 
policy from anecdote. We agree with HHS on the importance of 
reviewing cases more intensely and doing more than case record 
reviews, but we recommend that HHS reconsider the ``30 to 50'' 
cases referred to in the preamble to the proposed regulations. 
Instead, it should develop a randomized method of sampling that 
will better reflect the different numbers of children served by 
state agencies and the varied experiences in different 
jurisdictions within the states.
    What can Congress do to increase the opportunity for a 
meaningful conformity review process? We recommend that the 
Subcommittee take at least the following steps:
    <bullet> Reinforce to HHS your concerns about the points I 
have emphasized above;
    <bullet> Require the Secretary of HHS to provide estimates 
of the additional staff and technical assistance resources that 
will be necessary to make the proposed conformity review 
process work in a timely manner, and suggestions about how to 
provide the resources.
    <bullet> Emphasize to the Secretary of HHS and the 
President the importance of getting the final regulations on 
conformity reviews published immediately, so children do not 
have to go another year without these important protections; 
and
    <bullet> Request that HHS notify the Subcommittee of the 
schedule for the conformity reviews to be held in the states 
during the first three years, and appropriate follow-up. The 
follow-up should include: the time frames within which those 
reviews were actually completed; the associations of the 
individuals, beyond the representatives of the state and 
Federal agencies, that participated in the reviews; the 
outcomes of each of those reviews (including the specific areas 
to be addressed by the states in their program improvement 
plans); and the timelines within which the individual state 
review was completed and substantial conformity, or lack 
thereof, was identified.
    Thank you for the opportunity to make recommendations as 
you examine improved methods of child protection oversight. The 
Children's Defense Fund looks forward to continuing to work 
with you to ensure safety and permanence for children.
      

                                <F-dash>


    Chairman Johnson of Connecticut. We are going to have to 
recess for 10 minutes to go vote and then we will proceed with 
the questions.
    [Recess.]
    Chairman Johnson of Connecticut. Thank you all for your 
testimony and, Mr. Waldman, I will start with you, Mr. Waldman. 
I was sorry to have to miss your testimony, and I understand 
that you did mention the challenge of increasing State 
flexibility in the use of child protection dollars. And you 
have heard the administration refer to the waivers and the 
other means of creating flexibility that they have employed and 
that are available to them under the statute, but would you 
comment on whether you think the current tools that they have 
at their disposal to create flexibility are adequate.
    Mr. Waldman. I think our association and myself would like 
to see us go further in that area. I think there are additional 
opportunities, short of a block grant, for example, where 
States could be afforded additional flexibility, particularly 
in use of IV-E funds, which is the major source of funding for 
this program. I think so.
    There could be opportunities, for example, on a limited 
basis, to permit a State to identify some of the outcomes that 
we have talked about here today and, if successful, redirect 
some of the funds that might otherwise be designed for foster 
care to a whole array of things like preventive primary 
services, postadoption services, court improvement programs--
others that experience has taught us needs to be fixed.
    Limiting the funds to that one area can be 
counterproductive, and I think we can go further in that area.
    Chairman Johnson of Connecticut. Do you see forces in 
process that will ultimately reduce the number of kids moving 
into foster care?
    Mr. Waldman. I think your observation was right on target 
this morning. I think another compelling reason to look, review 
at the funding system is that it will not be adequate over time 
as States continue to succeed and reduce the length of time 
that children are on foster care. And I think that we want to 
reward the positive outcomes, and we may want to think about a 
shift of how we finance this.
    I think your comments are right.
    Chairman Johnson of Connecticut. If adoption works, if we 
get to a system, the 15-month system is certainly going to 
focus on family problems earlier in the process. If we treat 
those problems, we are going to have fewer children placed into 
foster care----
    Mr. Waldman. Exactly.
    Chairman Johnson of Connecticut. And if you look back at 
the initiative that Ron and I worked on some years ago, if you 
had socked in the expected rise in foster care children, then 
the States would have more money now than they have. So I think 
it is very, very important to give this issue our immediate 
attention because if some of the reforms that we adopted in the 
last couple of years work as we had hoped, the number of 
children in foster care will decline, and that will steeply cut 
the amount of money in the system.
    And if we could go to something that was more like welfare 
reform, when the number of people who went off welfare didn't 
decrease the dollars the State received, then the States would 
be in a far stronger position.
    So this is something we are going to have to think about. 
And I invite anyone who is interested to help us with the issue 
of the trigger, what happens if there is a rise? And how can we 
address the concerns of the States if something happened? But I 
am very concerned that policies already in place--and then if 
we succeed in drug treatment, which is really a big challenge, 
if we succeed in ramping up the drug treatment resources, then 
you are going to have another reason why families don't get to 
the point where their kids get placed in foster care.
    So, if there is going to be money out there for the 
protective services, for the drug treatment, for the family 
strengthening, for the things we know do help, we are going to 
have to be open to much greater alteration.
    And then, briefly, Ms. Spar, would you just comment on the 
States under court order. I am getting a lot of complaints 
about those court orders, that they were done a long time ago, 
that judges don't know much about services, and that sometimes 
the constraints of the court order are preventing the very 
reforms that would help kids.
    Ms. Spar. To be honest, I am not qualified to speak about 
that.
    Chairman Johnson of Connecticut. OK. I'm sorry. Missed your 
testimony. So I wasn't quite sure one way or another. And I'll 
come back to that.
    Mr. Cardin.
    Mr. Cardin. Thank you, let me thank all four of you for 
your testimony. I found it very helpful.
    Mr. Waldman, let me comment on a letter that was sent by 
the Subcommittee last year. It was not sent by Mrs. Johnson or 
myself, but I would like to get your comments on it.
    It dealt with the effectiveness of State penalties, and Mr. 
Shaw, in authoring that letter, indicated that we have no doubt 
that there will be occasions when States will need to be fined 
for violating Federal laws. And the letter goes on to express 
concern as to whether the penalty provisions will be strong 
enough in order to bring about the type of action necessary to 
comply with Federal requirements.
    I thought you might want to comment on that.
    Mr. Waldman. I do have a view on this, and I----
    Mr. Cardin. I thought you might. [Laughter.]
    Mr. Waldman [continuing]. I had comparable experience of 
overseeing counties and having both incentives and consequences 
for not improving. And one of the things I was striking 
recently--you may have followed the litigation or the turn of 
litigation that occurred in New York City, where it was 
recognized that the traditional kinds of settlements with court 
orders and so forth--and I'm getting a little bit into the 
previous question--did not bring about the desired change that 
everybody wanted. Even the advocacy group, the plaintiffs, 
realized that as well.
    I think the judge and everyone opted more for program 
improvement model, where people from significant national 
foundations came in to help the city. I think penalties should 
stay in the law, frankly. But I think there should be, again, 
that spirit--I think States do want to do the right thing. And 
I think if you bring it to their attention, I think if you 
require a corrective action plan, if you require remediation, 
you provide technical assistance, all else fails, and there is 
a penalty in it, it should be a serious one.
    Mr. Cardin. Thank you. I would also refer to one of your 
letters to HHS, on a different regulation, but one that you 
suggested the State-by-State rankings of child welfare outcomes 
would not be useful at this time. I am curious as to your 
concern there because I think people in the State have a right 
to know how their State is stacking up compared to other States 
in dealing with these issues.
    Mr. Waldman. I think that at the point that we have outcome 
measures that are refined, I think that is the right time to do 
it. And I think the law envisions putting out that kind of 
report card. I think we support that at that point.
    One of the difficulties I know I have had in several areas 
is that my own knowledge tells me that laws are different from 
State to State, even things as basic as what constitutes child 
abuse. I would just want to make sure that the outcomes that we 
use are fair to the States and give you really comparable 
examples. And I am pleased to see that we are moving, and in 
your law you moved toward that direction, and I think that is 
positive.
    Mr. Cardin. Oh good. So we can expect a letter that might 
be different from you in the future.
    Mr. Waldman. Yes.
    Mr. Cardin. That's good. Ms. Allen, if I could just get 
your comments on any suggestions you might have as to what we 
do about substance abuse as it relates to child abuse. I mean, 
it is one of the major things that we find in a home in which 
child abuse occurs is substance abuse. And I would be curious 
if you have any suggestions in that regard as to what we might 
want to do.
    Ms. Allen. Certainly the area of substance abuse, as we 
talk to States who are now faced with implementing ASFA, is a 
major issue that needs to be addressed. And it certainly could 
be the subject of a whole hearing, in and of itself.
    We believe that partnerships are key to addressing 
substance abuse and child protection. I mean partnerships 
between child welfare agencies and substance abuse agencies, 
and mental health agencies as well because these issues are all 
intertwined together. Given these partnerships, there needs to 
be more attention in at least four different areas.
    You need attention to how you do that initial screening, 
identification, and assessment of the problem. You need to put 
in place the whole range of comprehensive services and 
treatments that will address the needs, the differing needs, of 
the families that come forward. You need tracking and 
monitoring systems to identify what progress is being made and 
to ensure that children are protected. And you also need 
aftercare and attention to the fact that we are talking about a 
lifelong process of recovery for some of these families.
    We actually have a lot more recommendations in this area. 
CDF has been working with a number of groups and would love an 
opportunity at some point to come back to the Subcommittee 
informally or formally, to talk more specifically about the 
issue of substance abuse and child protection.
    Mr. Cardin. Well, I think that is a good suggestion. I am 
encouraged. If you have some good thoughts on that, just make 
it available to us. It could be very helpful to us.
    Ms. Allen. We will certainly do that. Thanks.
    Mr. Cardin. Ms. Spar, very quickly because my time is 
running out. I was a former State legislator and now a 
Congressman, so I would like to see legislative action and 
executive action. I am always leery about court action, even 
though I applaud many of the court decisions. I look at the 
need to get a court decision against a State as a failure.
    You indicated that there have been numerous cases that have 
been filed. How many States currently are under court order as 
it relates to child welfare.
    Ms. Spar. That number is difficult. What I was able to 
identify was in each--in some cases localities within the 
State. Yes, I think it could be more than 24. It was 24 that I 
was able to identify. This is over a period of about the last 
18----
    Mr. Cardin. They are not all court orders?
    Ms. Spar. They are not all court--not every case is the 
welfare system under a court order per se. In some cases, these 
cases have been resolved. Other cases, they are still open and 
they are ongoing where the court maintains oversight.
    Mr. Cardin. It might be useful if you, if that information 
is readily available, if you could make it available to our 
Subcommittee. It might be helpful.
    Ms. Allen. Mr. Cardin, on that note, the National Center 
for Youth Law prepares periodically a docket of all the child 
welfare reform litigation. I think the most recent one is their 
1998 docket. I would be happy to get a copy of that information 
to you.
    Mr. Cardin. That would be very helpful.
    [The National Center for Youth Law Foster Care Reform 
Litigation Docket 1998 is being retained in the Committee 
files.]
    Ms. Allen. Some of these court cases involve actions in 
counties or cities; some of these are State actions. Many of 
the States are operating under consent decrees, rather than 
actual court orders. I would be happy to get that docket to 
you.
    Mr. Cardin. Thank you. Ms. Warburton, I just want you to 
know I appreciated your testimony and I agree with the point--
and I hope it is our law--that we always put the child's 
welfare first, that we try to do that in ways, sometimes, that 
don't always appear like child welfare is first, but you 
underscored that sometimes it is a very difficult way that our 
system works in that regard. And I very much appreciate you 
adding your voice to that particular issue.
    Thank you, Madam Chair.
    Chairman Johnson of Connecticut. Mr. English.
    Mr. English. Thank you, Madam Chair.
    Ms. Warburton, in your testimony you state that the 
performance measures are vague and difficult to measure, and 
then you suggest seven indicators to measure safety. I take it 
these measures are not incorporated in the regulations as 
proposed, and do you think this submission is significant?
    Ms. Warburton. I would tell you that those indicators are 
not in the regulations as they have been proposed. Those were 
changes that we had suggested that ACF make in order to make 
measuring the outcome more substantive and more quantifiable so 
we could focus the issue on the children and make sure that it 
is the child's need that we are meeting. I believe those, with 
the indicators we have provided, will be a first step toward 
helping us determine whether or not we are meeting the child's 
needs.
    I think we could expand beyond that to go further to 
determine whether or not we are keeping the children safe, are 
we making the right choices and decisions, and are we moving 
them swiftly enough.
    I think that understanding, as Mrs. Johnson raised this 
morning as we opened, the need for more research relative to 
the brain, is important. There has been really only one very 
small posttraumatic stress syndrome research project that has 
been undertaken relative to children. And it is a very 
insightful piece of work, and called for a great body of 
research to be done so that we understand how it is that we 
impact a child once they are traumatized.
    And we continue to traumatize them. We continue to reexpose 
them to their victimizers. Understanding what all of that is, 
the impact on the child, will only then allow us to understand 
fully how we need to move kids through the system and what we 
need to do to make sure it is fully their needs that are being 
met.
    Mr. English. Ms. Warburton, you also state that the 
proposed rules, and I quote here, ``violate the act by not 
requiring States to terminate parental rights of parents who 
commit felonies.'' Could you please amplify on this objection.
    Ms. Warburton. Sure can. If you give me 2 minutes, I will 
do that for you. I had it here in a more lengthy form of 
testimony.
    There are two sections to ASFA, 675(5)(e) that sets out 
certain felony circumstances within which a State is required 
to terminate parental rights. Those felonies have to be 
committed against the child. Then there is another section to 
the act, 671(a)(15)(d), which provides that States need not 
make reasonable efforts to reunify the parent and child when a 
parent has committed these same felonies and that once the 
court determines that the reasonable efforts to reunify are not 
necessary that the State must hold a permanency hearing within 
30 days.
    That is where the conflict arises. In the proposal, ACF 
sets out two examples how they would resolve that conflict. 
They resolve the conflict using the lesser standard. And, 
moving on to--their one example is that after a parent is 
convicted, a court will determine if reasonable efforts are 
required to reunify the parent and the child.
    If a court determines that reasonable efforts are not 
required, the case will proceed to the permanency hearing.
    If adoption becomes the permanency goal, the State then has 
30 days to terminate parental rights. A State would not be 
required to terminate parental rights if adoption is not the 
permanency goal.
    That interpretation of the act ignores completely the 
mandatory requirement to terminate when felonies are committed 
against the child. So we have set up a scenario, thereby 
saying, if the child is not placed out for adoption, then you 
cannot terminate parental rights.
    How do we then achieve permanency for the child and 
guarantee the child is safe and healthy?
    Mr. English. That is a very interesting argument. Well, I 
want to thank all four of you for testifying today. This has 
been wonderful, and this has certainly enhanced my 
understanding of some of the issues involved, having come to 
this Subcommittee, having participated in the past in a number 
of hearings on this subject, having seen the very slow 
progression of the regulations, my hope is that in the near 
future, we will see these issues resolved.
    Thank you, Madam Chairman, and I yield back the balance of 
my time.
    Chairman Johnson of Connecticut. Thank you very much.
    Mr. Foley from Florida.
    Mr. Foley. Thank you, Madam Chairman.
    Ms. Allen, do you think the regulations give the States 
enough information on how and what they will be judged?
    Ms. Allen. No, Mr. Foley, that is one area that we 
addressed in more detail in our written statement. We think 
there needs to be further elaboration about what it is against 
which States will be judged, both in their initial self-
assessment and in the followup review as well.
    Mr. Foley. Let me ask you a more broad question because it 
is troubling today, when you are looking at the newspapers 
about what has just occurred in Colorado, then you look back at 
the Matthew Shepard slaying, and you look at so many instances 
where children commit the most heinous, heinous of crimes, and 
then yesterday's example they do so laughing as they shoot into 
other people and kill other lives. You know, and all different 
backgrounds. Some with good families, some from welfare 
dependency. I talk to judges in local courts where they are now 
talking about a growing concern over crack babies growing up 
and having no remorse in court whatsoever. Can any of you shed 
any light onto some of the causations, some of the cures.
    And I know it may not deal directly with adoption, but it 
is just so frightening today that you see this carnage and 
people just can't explain it.
    Maybe, Ms. Allen, if you start, and then Ms. Warburton.
    Ms. Allen. I think that is the question that we all have 
been asking and continue to ask, certainly given the tragedy 
that we have seen in Littleton.
    What are we giving our young people? Are we giving them the 
guidance and the support that they need? Are we watching for 
signs, for signals, and responding? Are we being there for 
them? Again and again these last couple days we have heard the 
experts who work with young people directly, who have been 
involved in analyzing these situations around violence, 
emphasizing the importance of talking to, interacting with, and 
supporting young people, so that they don't have to look to 
other sorts of settings for the support that they are not 
getting in familiar settings.
    But I think that it also is something that is related to 
what we are talking about today. When you have a group of young 
people who have been abused and neglected, as in the case of 
the children we have been talking about today, and you do not 
give them the treatment and ongoing support that they need, 
then you threaten their futures and you also threaten the 
futures of other children as well.
    We have all got to ensure that we are giving all of our 
young people what they need. We must ensure that they are 
making investments, not only in formal systems, like the child 
protection system that we are talking about today, but also in 
our informal interactions with our own children, with our 
neighbors' children and other children as well.
    Mr. Foley. Ms. Warburton.
    Ms. Warburton. I would just like to add that Mr. Camp 
summed it up very well in the floor debates when he said that 
children deserve a compassionate but effective system that 
works on their behalf, not one that subjects them to continued 
abuse. And the reason that I raise that quote is because it has 
always struck out at me and it relates back to an area that we 
study a lot and an arena in which we work a lot, which is 
trauma and its effect on a developing brain stem, and its 
effect on the developmental trajectory and the ability for 
children to have remorse.
    When a child comes down to even being neglected, if that 
child is neglected on a long-term basis, and that neglect 
continues, and the child is not taken into an atmosphere where 
they are unconditionally loved, unconditionally accepted, 
nurtured, and loved, a part of the developing brain stem that 
is emerging never learns the capacity for remorse. It never 
understands it. If a child is traumatized during the 
developmental stage, where the brain is developing the capacity 
for remorse and that trauma is left untreated, the stimulus 
from it shifts the endocrines that the brain produces, thereby 
eliminating the child's ability to develop along that line.
    We come back down to repeatedly, in my estimation, in my 
mind's eye, the inability to fully assess the trauma that a 
child has sustained, what drove that trauma, and how do we 
remove that child out of that traumatic situation to relieve 
the pressures and allow that child to then fully develop as 
much as the child might otherwise have the opportunity to 
develop.
    When you are dealing with traumatized children, there is 
never any guarantee that you can ever go back and rebuild that 
developmental stage with which they have missed. But if we 
remove the child out of the arena of the trauma, place him in a 
loving and a nurturing environment, and then work with the 
child from that point, we stand a very decent chance of then at 
least helping the child be functional as they arrive into 
adulthood.
    And Bruce Perry out of Baylor Children's Hospital in Texas 
has done four pieces that speak to this. And the one that 
really strikes as being most important to all of you is called 
``Incubated in Terror: Neurodevelopmental Factors in the Cycle 
of Violence.'' And it really calls for breaking that cycle and 
focusing on posttraumatic stress syndrome, identifying it, 
treating it properly, and dealing with the child's placement.
    Mr. Foley. Thank you.
    Mr. Waldman. Just very briefly, I concur with the two 
previous speakers and the Chair, who opened this hearing by 
focusing on the importance of brain research. I would just like 
to add in my own long experience in the field, I have observed 
that violence is a learned behavior and that the youngsters who 
experience it in terms of living in households where a spouse 
is battered or being victims themselves are often doomed to 
repeat that behavior in future generations unless and until 
there is a successful intervention.
    I know in the battered spouse movement that there is some 
focus now on children to help them deal with the trauma that 
they have experienced to unlearn that as a way--that behavior 
as a way of dealing with frustration or anger.
    I think we could do more on that way to understand the deep 
effects of traumatization that we see in children that we serve 
today.
    Mr. Camp. Would you indulge for one last person?
    Chairman Johnson of Connecticut. Mr. Camp.
    Mr. Camp. Thank you, Madam Chairman.
    Ms. Warburton, thank you for being here and for the courage 
that you have and for dedicating your life to helping children. 
And I think part of the reason we are here and passed the 
legislation in 1997 was to make sure what happened to you and 
Danny doesn't happen to anybody else again.
    I am very interested in your comments regarding attachment 
and bonding and how critical that is. In fact, in our 
discussions of this legislation, we found that the studies are 
starting to indicate, as you have quoted and others, that this 
affects a child's, not only emotional state, but also their 
intellectual ability as well. The lack of attachment in bonding 
could have a negative effect on those things.
    Is permanency in adoption a way to sort of break that cycle 
do you think?
    Ms. Warburton. Yes. I would support that one thousand 
percent. I believe that how we view as a Nation, how we view 
families, is very biased and needing to be connected to 
biology. We overlook that in a tremendous amount of 
circumstances children create long-term, indepth bonds and 
attachments with people other than that of biology.
    We minimize the importance of those individuals in the 
children's lives. We view them on a lesser standard. And we 
feel that their lives are not entitled to Constitutional 
protections that families of biology are created or are 
entitled to. Adoption offers a child an opportunity to be 
unconditionally loved, unconditionally accepted, and know that 
for the remainder of their life, no matter what, there will be 
someone there for them. They have a family and they belong.
    Mr. Camp. I think that your written testimony and your oral 
testimony also that we need to watch closely over the 
implementation of this act so we don't repeat the mistakes of 
the eighties with regard to reasonable efforts is very well 
said and certainly something that we need to take note of.
    The other point that you raise, that I have concern about 
and within the letter that the Senators and the Chairman at 
that time and I sent to HHS in December about this conflict 
that you refer to as sort of mixing the safety outcome of the 
children, child safety is the primary item in our bill, that 
they are maintained safely in their homes. And that this is 
mixed in the proposed regulation. And I think that really does 
have the potential to undercut everything we are trying to do 
with regard to making child safety the very most important 
thing.
    Can you just comment on that again?
    Ms. Warburton. Yes. From our focus point and our 
philosophical viewpoint, children don't come into the system by 
happenstance; they come into the system for very real reasons. 
So from our perspective, once a child arrives in the system, if 
you then resolve the child's legal life, based on the child's 
needs, then you focus on the child.
    But if we start the process from the notion that we are 
going to try to maintain a child in their home safely, it seems 
to me our focus then becomes, we are going to keep this family 
together at all costs, and only under the most egregious of 
circumstances are we going to remove this child and place him 
in protective custody.
    One of the aspects that we seem to miss the most is 
emotional abuse in the system. It is the unheard cry of the 
child. You can't see it, you can't measure it, you can't feel 
it, but it is very real and it is very difficult for the child.
    So if we leave a child who is being neglected and abused in 
their home, we are not weighing the safety to the child of what 
we can't measure. You can see physical abuse you can measure. 
You can see it; you can see the scars. You can't see the actual 
emotional abuse. So I think we signal to the States that it's 
OK to leave children in their homes unless you have the worst 
of circumstances present. And I think that is very dangerous to 
the child. And it doesn't place the child first and foremost.
    Mr. Camp. Thank you very much. Thank you, Madam Chairman.
    Chairman Johnson of Connecticut. I thank this panel very 
much. On your comments, Ms. Warburton, about some of the 
research that has been done in Texas and other places--I had a 
very interesting meeting with Dr. Joan Kaufman at Yale and her 
work on just the chemical changes that go on in children in the 
course of placement and replacement. You know, when I look at 
the money this Nation has put into posttraumatic stress 
syndrome to try to help veterans recover from the stress that 
they have endured, and then here are these kids, moved from 
home to home, home to home, hardly any notice, ties broken, I 
mean, it is extraordinary that we have paid so little attention 
to the price the child is paying. And now we do have a lot of 
evidence that the physical damage is real, it is not going to 
change, and we are creating children with emotional deficits 
that will be very compromising of their ability to realize 
their potential as adults.
    I thank the panel very much for their input, and we must 
move on to the next one.
    Welcome. We will start with Kathleen Kearney, the secretary 
of the Florida Department of Children and Families from 
Tallahassee. Thank you for being with us.

   STATEMENT OF HON. KATHLEEN A. KEARNEY, SECRETARY, FLORIDA 
   DEPARTMENT OF CHILDREN AND FAMILIES, TALLAHASSEE, FLORIDA

    Ms. Kearney. Thank you, Madam Chairman.
    Chairman Johnson of Connecticut. Judge Kearney.
    Ms. Kearney. Good morning. I am Judge Kathleen Kearney from 
the State of Florida. I am a recovering judge, as they say. I 
am now the secretary of the Department of Children and 
Families. Living proof of be careful what you ask for, you may 
get it.
    I spent 10\1/2\ years in dependency court in Florida and 
was chair of the Supreme Court of Florida's dependency court 
improvement program, which this Subcommittee oversees and was 
responsible for. I would like to start first by thanking this 
Subcommittee and those Members--and I see that Mr. Camp is 
present today--who were clearly responsible for the passage of 
the Adoption and Safe Families Act. I am here also on behalf of 
the Department of Children and Families, and the Florida 
dependency court improvement program. And we thank you for your 
leadership in this area.
    I have been specifically asked to testify about the 
increase in adoptions in Florida and the success that Florida 
has seen in increasing its adoptions as the result of the 
implementation of the Adoption and Safe Families Act. So my 
written comments are designed to meet that end for you, but 
also I will comment on various things that you have brought up 
this morning that were of interest and concern to the 
Subcommittee.
    Florida has in the past fiscal year 1998 increased 
adoptions by almost 57 percent. That was over our baseline, 
which was from 1995, 1996, and 1997 data. We attribute that as 
follows. First, Florida has had an expedited termination of 
parental rights proceeding in cases of egregious abuse and 
neglect, and in cases of continuing abuse and neglect, 
notwithstanding provision of services. We have had that prior 
to the implementation of the Adoption and Safe Families Act, 
and we believe that that has contributed to our increase in 
adoptions because that has been up and running for many years 
in Florida.
    There are concerns though that I have both as in my past 
career as a judge who sat and did termination of parental 
rights cases, over a thousand in the 10 and a half years I 
served in that capacity. There are concerns that I had both in 
my judicial capacity and now as the secretary of the Department 
of Children and Families that the regulations are in fact 
confusing as set forth by ACF. I am very concerned they are 
mixing signals on family preservation and health and safety of 
the child as paramount concerns.
    Florida has taken the lead in using the expedited 
termination of parental rights proceeding for egregious abuse, 
and I believe that the current regulations as framed may in 
fact water down that act significantly.
    Also, we attribute our increase in adoptions to the passage 
of State legislation that would allow tuition waivers in 
college for children that are adopted out of foster care. We 
had always had the tuition waivers for children that were in 
foster care at the time that they entered college, but once the 
adoption was finalized, at that time then the waiver was lost. 
So we had many children that would stay in foster care, 
particularly older children that would not be necessarily 
adopted, would stay in order to ensure that they would be able 
to have their college tuition paid for.
    In order to give permanency for those children, many of 
whom were in very stable, loving foster families that wanted to 
adopt them, Florida recognized that and it passed legislation 
that would then allow the State to give them a tuition waiver 
as well.
    You will note, if you do look at our adoption data, you 
will see approximately a 6-month lag time at the end of 1997 
that then started up dramatically in the beginning of 1998. 
That was predominantly because families would wait in order to 
qualify, which the qualifying date was January 1st of 1998.
    Also, we as a department, have implemented outcome 
measures, including ones pertaining specifically to the number 
of children who are adopted from foster care. I also share the 
concerns of the Subcommittee regarding the regulation and the 
outcome measures and agree wholeheartedly with Ms. Warburton's 
analysis that those seven outcome measures, ones that we are 
capable at this moment, absolutely, of giving data on, should 
be included there. They are absolutely measurable and they 
truly go to the situation at hand.
    Also, we have increased our recruitment efforts, and we 
have established more significant public-private partnerships 
to facilitate adoptions.
    As to the provisions of the Adoption and Safe Families Act 
pertaining specifically to adoption, we thank you for your 
continuation of eligibility for the adoption assistance subsidy 
in cases of disrupted adoptions. Tragically, we do see that in 
cases of particularly older children that are adopted. The 
trauma is so great that without assistance, we are concerned. 
We are glad that you have continued that.
    Also, the adoption incentive payments to States are 
critical. Florida at this time, because of our statistics this 
year, would have been entitled to $3 million in assistance, 
which we plan to use specifically for postadoption support, 
which was a concern that Mr. Cardin raised about what support 
the States are giving to families once adoption takes place, 
especially from foster care. It is critical that Congress, in 
fact, continue that subsidy and fully fund it so all States can 
receive that incentive.
    Thank you.
    [The prepared statement follows:]

Statement of Hon. Kathleen A. Kearney, Secretary, Florida Department of 
Children and Families, Tallahassee, Florida

    Madame Chair and Members of the Subcommittee of Human 
Resources, I am honored to have been asked to appear before you 
today to testify about the impact of the Adoption and Safe 
Families Act of 1997 on adoptions in Florida.
    I am Judge Kathleen A. Kearney, Secretary of the Florida 
Department of Children and Families, hereinafter referred to as 
the ``Department.'' I was appointed to serve as the Secretary 
by Governor Jeb Bush on January 5, 1999 and was confirmed by 
the Florida Senate on March 2, 1999. The Florida Department of 
Children and Families is responsible for the child and adult 
protection systems; services for the developmentally disabled; 
substance abuse and mental health programs for children and 
adults; licensure of all child care facilities; and economic 
services for the indigent. The Department employs over 27,000 
people and has a budget in excess of $4 Billion dollars for 
fiscal year 1999-2000.
    Prior to accepting this position, I served as a county and 
circuit court judge in Fort Lauderdale, Florida for ten and 
one-half years. I have elected ``retired judge'' status to 
serve as Secretary of the Department. Throughout my active 
tenure on the bench I presided over dependency court 
proceedings including over one thousand termination of parental 
rights cases. I was appointed by the Florida Supreme Court to 
chair Florida's Dependency Court Improvement Program (DCIP) in 
1996 and still serve as a member of the DCIP oversight 
committee.
    On behalf of the Florida Department of Children and 
Families and the Dependency Court Improvement Program, I want 
to express my thanks to members of this Subcommittee who played 
a major role in crafting the Adoption and Safe Families Act of 
1997 (ASFA). I am proud to say that Florida was one of the 
first states in the nation to incorporate the provisions of 
ASFA into state law. I have seen the results of your hard work 
save countless lives and the future of our nation's children, 
and of our country as a whole, is better because of this 
historic piece of legislation.
    Adoptions of children from foster care in Florida increased 
in federal fiscal year 1998 from a baseline of 987 adoptions to 
1,549 adoptions--an increase of 56.9%.\1\
---------------------------------------------------------------------------
    \1\ The baseline was established by averaging the number of 
finalized adoptions for federal fiscal years 1995, 1996 and 1997.
---------------------------------------------------------------------------
    The Florida Department of Children and Families attributes 
this dramatic increase in part to the following factors:
    <bullet> Expedited termination of parental rights (TPR) 
proceedings in cases of egregious abuse and neglect. Florida 
law allowed for expedited TPR proceedings in certain limited 
circumstances prior to the passage of the ASFA. The 
implementation of ASFA has reinforced that the health and 
safety of the child must be the paramount concern in 
determining the ``reasonable efforts'' the state must make to 
reunify the child and parent.
    <bullet> A proactive environment created by the Executive, 
Legislative and Judicial branches of state government. Governor 
Jeb Bush and the late Governor Lawton Chiles established child 
protection as top administration priorities. The 1999 Florida 
Legislature has responded with precedent setting budget 
increases to insure full implementation of ASFA. The Florida 
Supreme Court has consistently endorsed the work of the Florida 
Dependency Court Improvement Program and has incorporated DCIP 
recommendations into court rule.
    <bullet> Passage of state legislation providing for tuition 
waivers at state colleges and universities for children adopted 
out of foster care. This legislation removed a long standing 
barrier to the adoption of foster children. Tuition waivers had 
previously been available to foster children who were in foster 
care at the time they entered college, but waivers were not 
available once the children were adopted. This resulted in many 
children remaining in foster care rather than being adopted so 
that college costs would be born by the state.
    <bullet> Implementation of departmental outcome measures, 
including one pertaining to the number of children adopted from 
foster care. Florida law requires that budgeting for state 
agencies be performance based and the state Legislature has 
mandated that adoption finalization from foster care be a 
performance based measure.
    <bullet> Increased emphasis on recruitment efforts. The 
Department has created specialized adoption workers who are 
responsible for finding adoptive homes for the most difficult 
to place children. The Department has also continued a strong 
working relationship with the One Church, One Child recruitment 
program aimed at finding adoptive homes for African American 
children. Local initiatives like the Special Needs Adoption 
Council of Tampa Bay increase community awareness of the need 
for adoptive parents through the use of local media.
    <bullet> Expansion of public-private partnerships to 
promote adoption of special needs children. The Department has 
entered into contracts with private licensed adoption agencies 
in Florida and throughout the United States to assist in 
locating adoptive families. These agencies are paid a fee to 
recruit, prepare and match waiting families for Florida foster 
children.
    <bullet> Establishment of The Adoption Information Center. 
The Florida Legislature mandated that the Department establish 
the Adoption Information Center to promote adoptions. The 
Center operates a statewide toll free telephone line (1-800-96-
ADOPT), responds to inquiries generated by the Department's 
Internet Website on adoption, and maintains the state's 
adoption registry service.
    The provisions of the Adoption and Safe Families Act of 
1997 pertaining to adoption will continue to have a far 
reaching and positive impact on increasing the number of 
children adopted from foster care. In particular, Florida will 
benefit most from the following provisions of the Act:
    <bullet> Continuation of eligibility for an adoption 
assistance subsidy for children who experience the tragedy of a 
disrupted adoption. These are children whose adoptive parents 
have died or who have had their adoption dissolved for some 
other reason by the court. In Florida, such children were 
previously eligible for state funded assistance. ASFA allows 
the state to receive federal assistance in these cases which 
will allow for increased services to these special needs 
children.
    <bullet> Requirement that states must document their 
efforts to secure an adoptive placement for foster children. 
This requirement will assist the Department in identifying 
trends and will help in our overall quality improvement 
initiative.
    <bullet> Adoption incentive payments to states. The state 
of Florida is projected to receive approximately $3 Million 
dollars in adoption incentive payments based upon the 56.9% 
increase in adoption finalizations in our state. This is 
contingent upon Congress allocating additional funds beyond 
those currently appropriated by ASFA. Florida plans to use its 
incentive dollars for post-adoption support to adoptive 
families, professional development and training for specialized 
adoption staff, and adoptive parent recruitment activities.
    I strongly encourage this Committee, Congress and the 
Clinton Administration to do everything possible to assure that 
incentive payments are available at the levels set forth in 
ASFA.\2\
---------------------------------------------------------------------------
    \2\ States are entitled to an incentive payment under ASFA in the 
amount of $4000 for each adoption exceeding the baseline, plus an 
additional $2000 for each title IV-E eligible child adopted beyond the 
baseline.
---------------------------------------------------------------------------
    Additionally, I bring to your attention a concern expressed 
by adoption staff in Florida regarding the length of time it 
takes to secure FBI clearances for foster and adoptive parent 
applicants. It is currently taking up to six (6) months to 
obtain clearances from the FBI which is resulting in a backlog 
of adoption cases and denial of permanency for children. This 
is a new requirement for adoptive applicants and one that is 
critical to our efforts to place children in safe, as well as 
loving, homes. However, unless some special provision is made 
to insure that these FBI clearances are given special priority, 
full implementation of ASFA is not possible.
    Thank you for giving me this opportunity to speak to you 
today on this very important and exciting topic. I look forward 
to working in partnership with you over the next four years as 
we commit ourselves to insuring the safety and well being of 
all of America's children.
    Respectfully submitted this 22nd day of April, 1999 to the 
United States House of Representatives, Committee on Ways and 
Means, Human Services Subcommittee, Washington, D.C.
                       Judge Kathleen A. Kearney, Secretary
                        Florida Department of Children and Families
      

                                <F-dash>


    Chairman Johnson of Connecticut. Thank you very much.
    Mr. McDonald.

 STATEMENT OF JESS MCDONALD, DIRECTOR, ILLINOIS DEPARTMENT OF 
      CHILDREN AND FAMILY SERVICES, SPRINGFIELD, ILLINOIS

    Mr. McDonald. Thank you, Madam Chairperson. I am Jess 
McDonald, director of the Illinois Department of Children and 
Family Services and we are pleased to be here for another 
reason other than a tragedy in our State child welfare system. 
We have had a 112-percent increase in adoptions over our 
baseline. We are running 45 percent ahead of last year's rate 
of adoptions. And we think that we will continue at a high 
rate.
    Now I must issue my disclaimer that it is not that we had 
foresight and saw that there would be an adoption bonus 
program, but child welfare systems that grow too fast don't 
always keep their focus on the right objectives, and our system 
has had low rates of adoption. Our objective is to have a 20- 
to 30-percent permanency rate within our caseloads, to see kids 
moving to adoption or permanency in short times. To have 
reunification rates that are between 25 and 40 percent, 
respecting safety as the primary consideration here, and to 
have our length of stay drop to between 1 year and 2 years--to 
have a median length of stay of about 12 months.
    So Illinois has a ways to go, although we have made 
significant progress. I do want to tell you that a major reason 
why we made changes in law was because of H.R. 867. This 
Committee, and Representative Camp, were instrumental in 
issuing wakeup calls to many States. Our Governor, Governor 
Edgar at the time, called together bipartisan groups, brought 
in advocates, and we changed laws, and we made changes.
    The reason we got to where we are at and why we are going 
to keep going on this direction is through partnerships with 
the courts and with voluntary agencies. Seventy-five of our 
cases are served by nonprofit voluntary organizations, like 
Catholic charities and so on. Those partnerships are absolutely 
vital. If you don't have a partnership, you may think your 
system is working well, but if the courts aren't ready for you, 
nothing will happen.
    If you don't capacity, that is, if you do not have workers 
that have the time to do the work, nothing gets done. You have 
to have the time to build the case. If you are going to do 
concurrent planning, you have to have workloads that are 
reasonable. Our workloads run between 15 to 25 children per 
worker. And I will tell you, people tell you that the work is 
harder now then when they had a hundred cases. It is because we 
expect them to do the work. And it is not easy work.
    And you have to have the right incentives in the system. We 
do have performance contracting which rewards people for 
getting the right outcomes. As I mentioned in our written 
testimony, we also have a lot of oversight built into that 
because you want to make sure that while people are getting the 
right quantity of what you think are the right outcomes, they 
have to, in fact, be doing the work the right way. So there is 
a lot of oversight that goes into the decisions about adoptions 
and subsidized guardianship.
    The story in Illinois is Cook County. Judge Nancy Salyers 
has done an amazing job. She is a close partner of mine. We 
work together in terms of how we plan changes in the system. 
She has added court calendars. She has done a lot of work. We 
do a lot of work with the private providers and with our own 
staff and with the union. And if we aren't working closely 
together, people try and play one off against the other. You 
have to understand that the courts are absolutely critical to 
any changes.
    And if you take a look at what is happening in Cook County, 
we are seeing amazing turnarounds in terms of the drop in the 
number of cases. It is also in the written materials, but 
adoptions have gone from about 956 in calendar year 1994 to 
about the 5,100 we expect this year. And we expect some 
incredible improvements continuing in the Cook County court 
system.
    The safety issues are interesting because even though we 
are seeing all these improvements and adoptions, people think 
we might be losing our focus on safety. In fact, based on 
research on what we do on the front end and what we do with 
cases managed, we have seen a 26-percent reduction in reports 
of reabuse of children where the department has had prior 
involvement. This includes cases where we have done an 
investigation and decided that the case was not necessary to 
open up. So we are seeing significant improvements there.
    I want to quickly just make some suggestions to you. There 
is a lot of information about the stuff in Cook which I think 
is amazing because urban child welfare systems can work. It is 
an urban myth that they can't. But you had better make the 
investments, and you have to make the investments in the courts 
and you have to make it in terms of the people that do the 
work.
    Four things I would like you to consider. One, we have got 
to deal with alcohol and other drugs. Everyone is talking about 
it. It is absolutely vital that we develop systems that can 
deal with the issue of the two clocks. The fact that the 
permanency clock in Illinois is now 12 months--judges are going 
to make decisions in, practically speaking, 6 months, and at 9 
months, not the day before we walk into court. If a woman has 
dropped out of treatment, it is a problem. And 70 percent of 
our kids in foster care for a year have parents who are 
involved in drugs.
    Seventy-five percent of those parents, unfortunately, have 
dropped out of treatment or never entered treatment. I have 
talked to some of these parents who would say I wish I had 
known there would be these consequences. The power of addiction 
is incredible. And although we have decriminalized it and treat 
it as a health issue, I will tell you that in the child welfare 
field, a lot of our constituencies believe we have 
recriminalized it with probably the most difficult of all 
punishments, and that is the loss of your child. So fair 
treatment systems are critical, and responsive ones are 
critical. And that would include aftercare.
    Most importantly, training. You have got to change the way 
you reimburse training. We absolutely need to be able to 
provide training at the enhanced rate, 75 percent, for our 
private-sector partners. It is a small investment. It will get 
you enormous returns. You train people better, you will get 
better results.
    And continuing support for court improvements. Not one-shot 
deals, but continue the support so that the judges who are 
facing major problems in aligning incentives within the court 
system to keep good judges, to keep the courtrooms reasonable 
and have the time to work with families, it is vital they have 
support.
    And last, expand the waivers. If this system is broken, as 
everyone contends, then what's wrong with innovation that has 
decent parameters. Every State should be encouraged to have as 
many waivers that improve the outcomes in their system as is 
possible. It is not about competing for the 5, or 6, or 10 
waivers that might be available, you want everyone looking at 
how to improve their systems.
    Thank you.
    [The prepared statement follows. An attachment is being 
retained in the Committee files.]

Statement of Jess McDonald, Director, Illinois Department of Children 
and Family Services, Springfield, Illinois

    Every child deserves a stable and lasting family life. This 
basic principle of ``permanency,'' endorsed as far back as the 
1909 White House Conference on the Care of the Dependent Child, 
has been a stated goal of public child welfare systems for most 
of this century. But only in the last few years has substantial 
progress been made in bringing permanency to the lives of 
thousands of children who otherwise would have spent their 
formative years in foster care.
    Thanks largely to bipartisan efforts, state and local 
governments posted a 40 percent increase in adoptions over 
federal FY95. The nation as a whole is well on its way towards 
doubling the number of adoptions out of foster care by 2002.
    I am pleased to report that Illinois, the second-largest 
child welfare system in the nation, was able to achieve this 
goal in just one year. The federal fiscal year that ended in 
September of 1998 resulted in a 112 percent increase in 
adoptions over the annual average of the prior three fiscal 
years--from 2,200 to 4,456 adoptions. And already, we are 45 
percent ahead of last years--performance. If the pace 
continues, the state will boost the annual number of adoptions 
to more than 5,500 by the end of June 1999.
    Illinois' long-term goal is to achieve permanency for most 
children within a two-year time frame. If successful, the 
projected size of our foster care system should shrink to below 
20,000 children by 2,003--a substantial change from 1995 when 
over 50,000 children swelled the state's foster care system.
    Setting challenging goals is an important part of our 
efforts at change. But I am here to emphasize that it is only a 
start. In addition, we need to build the capacity of workers 
and service providers to meet the challenge. Furthermore, we 
must redesign the system so that incentives are directly 
aligned with the outcomes we want to achieve. And lastly, we 
need to recognize that our efforts will succeed only if we 
forge partnerships with private providers, the courts, and 
allied human service agencies. Building capacity, re-aligning 
incentives, and forging partnerships are the essential 
components for honoring our long-standing commitment to 
permanency.

                           Challenging Goals

    While the commitment to permanency is long-standing, most 
states struggled in the early 1990s to make good on the 
promise. Foster care caseloads rose nationwide from 280,000 
children in 1986 to 502,000 children in 1996. There were 6.9 
foster children for every 1,000 children--the highest 
prevalence rate recorded this century.
    In Illinois, the magnitude of the problem was much greater. 
There were 17.1 foster children for every 1,000--the highest 
prevalence rate in the nation. When I became Director of the 
Illinois Department in 1994, tensions were understandably high. 
Foster care growth was eating up far more of its fair share of 
state revenues. Workloads of 50 to 60 children per caseworker 
were commonplace. And there were calls to dismantle the agency.
    It was obvious that change was long overdue. So we set 
about the task of making good on our commitments to 
comprehensive reform that the State had agreed to in its B.H. 
Consent Decree. A central provision of the Decree was the 
reduction of caseloads to below 25 children per worker. To 
accomplish this goal, we needed to get overall growth under 
control.
    First, as a result of the Home of Relative (HMR) Reform 
Plan implemented in 1995, we were able to curtail the runaway 
growth in our intake. By more clearly demarcating the lines 
between child dependency and child neglect when relatives are 
involved, we were able to cut annual caseload growth from 17.1 
percent in 1995 to 5.9 percent in 1996 to 2.5 percent in 1997.
    Although the explosive growth in the Illinois foster care 
system ended in 1997, stabilization of intake was not enough. 
Our read of the situation was that our substitute care system 
should be half its current size. Addressing the permanency 
backlog became our top priority.
    In the course of analyzing our caseload dynamics, we found 
children were staying far too long in substitute care. As a 
result, the median length of time children who entered remained 
in care increased from 10 months in 1986 to over 50 months in 
1996.
    Our studies of children in Illinois foster care showed that 
many of these children were for all practical purposes 
``already home.'' Reunification had been ruled out years 
earlier, and many of the children in relative care had entered 
the system in kinship homes that pre-existed state 
intervention. Our challenge was to convert these stable 
substitute care arrangements into legally permanent homes.

                           Building Capacity

    Turning stable placements into legally permanent homes is 
no simple matter after years of inattention by the child 
welfare system. First, state laws had to be changed so that 
undue hesitancy about terminating parental rights was removed 
as a barrier to adoption. In 1997, the Illinois General 
Assembly passed comprehensive legislation (``Permanency 
Initiative''), which--among other things--eliminated ``long-
term foster care'' as a permanency goal, reduced permanency 
planning timelines to one-year, and directed the Department to 
engage in concurrent planning to help achieve permanency at the 
earliest opportunity.
    To do the important work of permanency requires a skilled 
and qualified workforce. This was a critical deficit in the 
Illinois system. Years of high worker turnover, lack of 
professional training, and new agency start-ups had left 
Illinois with a child welfare workforce that was ill equipped 
to perform the demanding task of securing permanent homes for 
children.
    The Department responded to this need, first, by sending 
its supervisory staff back to school to get their MSWs. Second, 
DCFS initiated the time-consuming but ultimately rewarding task 
of getting the Department accredited by the Council on 
Accreditation. As of today, two-thirds of DCFS sites are 
accredited. And we have made it state policy that DCFS will 
contract only with accredited agencies in the future.
    Capacity-building also meant opening up additional pathways 
to permanency. Because over half of the children in the 
Illinois foster care system were placed with kin, we learned 
that adoption did not always fit the needs of relatives wanting 
to assume long-term responsibility for the children in their 
care. In response, the Department applied for and received IV-E 
waiver authority to mirror its adoption-subsidy program, 
extending subsidies to families assuming private guardianship 
for children who otherwise would have stayed in long-term 
foster care. Since the implementation of the demonstration in 
May of 1997, Illinois has discharged over 2,700 children to the 
private guardianship of relatives and foster parents. Our 
experimental design shows convincingly that subsidized 
guardianship has increased overall permanency by 30 percent 
over what it would have been without demonstration (26.6 
percent v. 20.0 percent).
    Reunifications with parents must also increase to achieve 
our long-term reforms of the system. To enlarge this existing 
pathway, DCFS increased the investment in family reunification 
services from $600 to $8,000 per family. Although the state 
still has a long way to go toward restoring reunification rates 
back to previous levels, the decline has subsided and return-
home rates are rising again for the first time in a decade.
    Beyond building a qualified workforce and expanding the 
pathways out of foster care, we found that permanency efforts 
require a cadre of specialized staff who are dedicated to the 
daily tasks of getting the work done. In response, DCFS devoted 
new resources so that every public and private agency team was 
supported with a permanency worker who could help identify 
permanency opportunities, arrange family meetings, and push 
along the business of the courts.
    The results of our investments in capacity-building speak 
for themselves:
    <bullet> Finalized adoptions in Illinois rose from 1,961 in 
FY96 to 2,229 in FY97 to 4,293 in FY98. As of March 30th, FY99 
adoptions were already 41 percent ahead of last year's pace for 
the same time period.

[GRAPHIC] [TIFF OMITTED] T0978.010


    <bullet> Subsidized guardianships rose from 176 in FY97 to 
1,266 in FY98. As of March 30th, FY99 guardianships are 162 
percent ahead of last year's pace for the same time period.

[GRAPHIC] [TIFF OMITTED] T0978.011


    <bullet> Total adoptions and guardianships rose from 2,411 
in FY97 to 5,559 in FY98. If current trends continue, Illinois 
will close FY99 with 7,000 new adoptions and guardianships.

[GRAPHIC] [TIFF OMITTED] T0978.012


                         Realigning Incentives

    Illinois' record illustrates that permanency can be 
achieved for a far greater percentage of children than many 
believed possible. Goal-setting and capacity-building was 
essential to turning around system performance. But another 
piece of our reform effort involved realigning financial 
incentives to favor permanency outcomes rather than long-term 
care.
    Eighty percent of our relative foster care and 60 percent 
of unrelated foster care is provided by private agencies. 
Starting with the Cook County relative foster care population, 
we implemented performance contracting in FY98. With 
performance contracting, we did more than set outcome goals for 
foster care. We built performance expectations into the 
contract and payment structure. The heart of this structure is 
a mechanism guaranteeing results. We contract and pay for child 
welfare services by building in an expectation that agencies 
will meet specific permanency outcomes: 6 permanency results 
for every 33 children served annually. Within this framework, 
agencies have a clear incentive to perform. They benefit 
directly from exceeding performance expectations by retaining 
savings from lowered caseloads. Consequently, they also bear 
the risk for not meeting their contracted performance level and 
can suffer financially.
    Under performance contracts, agencies must balance entering 
new cases with those exiting in order to ensure payment and 
caseload parity. When permanency standards are exceeded, 
caseloads fall while administrative payments are unchanged. 
This effectively enhances an agency's payment rate. Conversely, 
when permanency expectations are not met, an agency's caseload 
increases (more children enter than leave) while the level of 
payment is unchanged. This effectively lowers an agency's 
payment rate. Added to this is the fact that we use annual 
performance levels to make contracting decisions for subsequent 
years. Successful agencies continue to receive referrals, 
maintaining their contracted caseloads.
    Applying this concept to kinship care in Cook County has 
produced results that exceeded our expectations. Still the 
quality of the care is as important as the quantity of 
outcomes. Agencies have to meet all contractual obligations 
with respect to service standards. Their practices must 
withstand the scrutiny of agency performance monitors and 
juvenile court oversight. Performance contracting is not only 
about producing the numbers; it's about doing the job right.

[GRAPHIC] [TIFF OMITTED] T0978.013


    The application of performance contracting in Illinois re-
energized the
    child welfare system by emphasizing the importance of 
results rather than activities. By mandating uniform results, 
we were able to shift resources and attention from maintaining 
children in care to finding them permanent homes.

                          Forging Partnerships

    The investments in capacity-building and the realignment of 
incentives have begun to pay off. In FY1998, the substitute 
care caseload in Illinois fell for the first time in over two 
decades. From a peak of 51,550 children, the caseload now 
stands at 41,500. If current trends continue, we expect to 
stabilize at a level of approximately 20,000 children in foster 
care by 2003. This translates into a prevalence rate of 6.4 per 
1,000 children in substitute care--slightly below the current 
nationwide rate.
    It is safe to say that these accomplishments would not be 
possible without the partnerships we have forged with the Court 
and private child welfare providers. Under the creative 
leadership of Judge Nancy Salyers, Presiding Judge of the Cook 
County Child Protection Division, the Cook County Juvenile 
Court has taken the lead in establishing the legal groundwork 
for moving Illinois wards into permanent homes.

[GRAPHIC] [TIFF OMITTED] T0978.014


    The flip-side of the termination trend is the growth in 
adoptions out of foster care in Cook County. These results 
clearly show that state and county governments can achieve the 
goals promised by the Adoption and Safe Families Act.

[GRAPHIC] [TIFF OMITTED] T0978.015


    The Cook County Juvenile Court has also cooperated with 
DCFS efforts at reforming the front-end of the child protective 
system so that children are served in their home only when 
their safety can be assured. Our efforts at improving the 
technology of child safety assessment with the help of the 
American Humane Association and developing more comprehensive 
safety plans for children at risk have enabled DCFS to reduce 
the rate of child removal from intact family cases. From 1993 
to 1997, the percentage of children taken into custody while 
being served by DCFS as an intact family cases was cut in half, 
falling from 11 percent to 4 percent of children.
    The evidence for the decline in placement demands at the 
front-end and the alleviation of placement pressures at the 
back-end is clearly conveyed by the changes in the Cook County 
Court docket.

[GRAPHIC] [TIFF OMITTED] T0978.016


    New petitions for state custody have dropped from 9,991 in 
1994 to 4,440 in 1998 while the number of closed petitions due 
largely to adoptions, guardianships, and reunifications have 
risen from 3,947 in 1994 to 10,230 in 1998. The net result of 
these crisscrossing trends is a steadily shrinking system in 
Cook County from a peak of 39,682 active petitions in 1995 to 
29,375 active petitions in 1998.

                          Safety Is Paramount

    The steps Illinois has taken to reduce the size of the 
foster care system by reducing placement demands and increasing 
permanency outcomes obviously raises the question: are the 
children safer? The answer, I am pleased to report, is an 
unqualified yes.
    A report soon to be released by the University of Illinois' 
Children and Family Research Center finds that there has been a 
steady decline in the recurrence of abuse and neglect in intact 
family cases. This rate has declined from 3.6 per 100 in FY95 
to 2.7 per 100 in FY97, and the first six months of FY98 shows 
an annualized rate of 1.8 abuse and neglect findings per 100 
intact family cases.
    In addition, safety in foster care has improved. This trend 
is led by kinship care, which registers the best safety record. 
For every 100 children in kinship care, the annual rate of 
abuse and neglect declined from 3.3 in FY95 to 1.3 in FY98. The 
rate of indicated abuse and neglect for children in foster 
family care was 2.4 per 100 children in FY98.
    Lastly, improvements in the technology of child safety 
assessment have helped to produce a 28 percent decline in the 
rate of recurrence of abuse and neglect among children 
investigated by DCFS since 1995.

                            Future Prospects

    Illinois' record of ensuring child safety and pursuing 
permanency stands among the best in the nation. While we are 
pleased with this performance, in the back of my mind, I wonder 
whether the reason we're doing so well now simply reflects the 
fact that we may not have done as well as we should have in the 
past. Whatever the case, one thing is clear: tough work remains 
ahead.
    To achieve our projected size of 20,000 children in foster 
care by 2003, we'll need to tackle the alcohol and other drug 
(AOD) problem head-on. A 1998 GAO report showed that 74 percent 
of Cook County, Illinois parents with children in foster care 
have AOD problems. More troubling is the fact that 76 percent 
of parents with children in the system for at least one year 
either failed to complete or never entered drug treatment.
    Illinois has submitted a letter of intent to gain IV-E 
waiver authority to test innovative approaches in serving AOD 
involved families early enough to prevent children from 
remaining in foster care beyond the two-year mark. Two clocks 
are running: the addiction-recovery clock and the permanency 
clock. With the waiver, we are confident that we will be able 
to quicken the tempo of recovery so that no children are 
unnecessarily severed from their families because of a lack of 
AOD resources and treatment.
    To meet the AOD challenge, we require a highly skilled 
workforce that is capable of providing, within the tightened 
time frames, the AOD services, family group meetings, and 
concurrent planning that are critical for achieving the 
permanency goals set by Congress. Enhanced federal support of 
training (75% federal match) needs to be made available to all 
sectors of the system, not just public employees. Seventy-four 
percent of the foster care business is handled by private child 
welfare agencies in Illinois. Making enhanced federal match 
dollars available for training caseworkers in the private 
sector needs to become a top Congressional priority.
    Similarly, we need to make sure that no permanency pathway 
out of the system is closed off. Our first IV-E waiver on 
subsidized guardianship is scheduled to expire in 2002. We 
believe that Illinois has gained sufficient experimental 
evidence to show that subsidized guardianship works and ought 
to be made a formalized part of the permanency package that the 
federal government makes available to relative and foster care 
families.
    Lastly, permanency can not be accomplished without making 
investments in the work of our judicial partners. States need 
federal support for continuing court improvements in ensuring 
safe reunifications, handling permanency hearings, and ruling 
on terminations of parental rights. This year in Illinois, we 
are celebrating the centennial of the founding of the Cook 
County Juvenile Court--the first such court in the nation. It 
would be a fitting tribute to this venerable institution if 
Congress were to pass legislation that recognizes the critical 
role that juvenile and family courts play in the achievement of 
permanency for children.
    [An attachment is being retained in the Committee files.]
      

                                <F-dash>


    Chairman Johnson of Connecticut. Thank you very much.
    Mr. Kroll.

  STATEMENT OF JOE KROLL, EXECUTIVE DIRECTOR, NORTH AMERICAN 
       COUNCIL ON ADOPTABLE CHILDREN, ST. PAUL, MINNESOTA

    Mr. Kroll. Thank you, Madam Chairwoman, Members of the 
Subcommittee. I want to say how pleased I am to be here today 
and thank you for the kind words about our study. We are the 
voice from the hinterland who discovered early in the fall of 
1998 that States had made remarkable achievements in adoption 
and we decided we better ask them all.
    Someone has asked me what happened to my hand, and I have a 
response, but my son who has joined me today suggested a better 
one, and that was that someone came up to me and said a 12-
year-old that they knew was unadoptable and I overreacted. 
[Laughter.]
    That probably would be closer to the truth as opposed to an 
old man's sports injury. I represent the North American Council 
on Adoptable Children. I am also here on behalf of the National 
Foster Parents Association and Voice for Adoption, two other 
groups that I am very active with. Eight thousand, five hundred 
and eleven is the current count on the increase in adoptions 
over the baseline from the previous 3 years to 1998. I had 
tried to use my cell phone in the hall to get Ohio's numbers 
because we are struggling with a couple States that just can't 
quite get them out of their computers, and we think that may go 
up to 9,000. That is a phenomenal increase. And if you look at 
the bar chart in the testimony, which many of you have already 
done, you will see that there has been a steady increase since 
1995, but an even more dramatic increase between 1997 and 1998.
    I remember standing here in February, I think it was, of 
1997 and Representatives Camp and Kennelly proposed what turned 
out to be the Adoption and Safe Families Act. And it was just 
like what NACAC has been working on for 25 years in our 
organization, became the mission of Congress. And to hear how 
it has changed and how the States have responded is a great joy 
to us. But it means even more, I think, to the children who are 
represented. You have heard me testify before about the 
dramatic placements of older children, of sibling groups. 
Unfortunately, when we collected these data, we could only ask 
for one thing, and that was total numbers of adoption.
    When AFCARS says their report is officially done, I think 
that we will see dramatic increases in sibling groups, with 
children of color particularly, and something that we should 
all be proud of because there is a great deal of movement in 
the system. I just wanted to make a comment about the kids in 
the picture because they are the ones who really are the story.
    The sibling group of four from Indiana, they were placed as 
a direct result of being on the poster that we do every year 
for adoption month, and which I think we send to all Members of 
the Subcommittee. They were placed in the same State, in 
Indiana. The other two boys, a little bit older, were placed 
after being in the system for a number of years. And, as matter 
of fact, Damion, who is 15, was removed from active 
recruitment. Then a family who had seen him stepped forward and 
all of a sudden active recruitment occurred and a placement was 
made.
    So someone had stopped doing the work and a family stepped 
forward and said: Oh no, don't stop. We are still here.
    The other part of the story I wanted to share was again 
from my testimony of a sibling group of three children in 
Mississippi, 13, 15, and 17, who many folks said were 
unadoptable. What happened, was one couple said we can take the 
15- and 17-year-old, and the worker said you shouldn't have the 
13-year-old. So the couple found another family in the same 
community to adopt the 13-year-old.
    The work of families and workers in Mississippi caused a 
sibling group of three boys with some real tough life 
experiences to be placed in permanent families. The families 
still face challenges, and I think that that is one of the 
messages that we always have from NACAC is that when we make 
placements, we need to support the families.
    In the adoption incentive program, there is mention of how 
the dollars should be spent. That they should be spent on IV-A 
and IV-B and that can include postadoption services, which is 
an editorial that we always put into our press releases. The 
money has to be targeted back to the families who have stepped 
forward to take on these tough kids.
    It goes for respite care, it goes for counseling, in some 
cases, it needs to go for residential treatment for kids who 
have had real tough experiences, whose families are committed 
to them but need more help.
    In my testimony, you will notice that I suggest that figure 
was $25 million to fully fund the adoption incentive program 
based on the calculations that we had done. I appreciate the 
fact that $28 million is a slightly higher number. I think when 
the situation is taken care of for this year and the States are 
able to receive full reimbursement, we need to look at the next 
2 years. Does it need to be $30 million? Does it need to be $40 
million? Try to get some projections, check with our good 
colleagues in Illinois, Florida and Texas, where some huge 
strides are being made. Better make sure that we have the 
program taken care of so that States are rewarded for the work 
they have done. Because if States are rewarded for they work 
they have done, it is another way to provide support directly 
to the families who created the placements, the families who 
stepped forward, the children who took the chance and said I 
will try a permanent family.
    Those are the people we are talking about supporting, and 
providing the full incentive payments will allow that to occur.
    Thank you very much
    [The prepared statement follows:]

Statement of Joe Kroll, Executive Director, North American Council on 
Adoptable Children, St. Paul, Minnesota

    Madam Chairwoman and Members of the Committee, I thank you 
for this opportunity to appear before you today.
    I am Joe Kroll, executive director of the North American 
Council on Adoptable Children (NACAC). I also serve as the 
adoption chair of the National Foster Parents Association and 
Vice-President of Voice for Adoption, a coalition of over 50 
state, local, and national adoption organizations. More 
importantly, I am a parent of two adult children, one by birth 
and one by adoption.
    NACAC represents adoptive parents and parent groups, 
adoption agencies, adopted children, and most importantly the 
110,000 ``special needs children'' waiting for families in the 
U.S. For nearly twenty-five years we have been involved at the 
local, state, and national level as advocates for these 
children.

    1998 U.S. Adoptions from Foster Care Projected to Exceed 36,500

    Finalized adoptions of children from the U.S. foster care 
system rose significantly during the last year. Preliminary 
reports from 45 states from federal fiscal year 1998 project 
adoptions of at least 36,500 foster children, which includes 
increases of 8,511 (see table 1 for details) over the average 
number of adoptions from the previous three years. The attached 
bar chart reflects the growth in public agency adoptions 
between 1995 and 1998. The figures for 1995 to 1997 are drawn 
from the Department of Health and Human Services AFCARS system 
and state by state totals are reflected in table 2.
    This is the good news and everybody in this room should be 
proud of the outcome. There is enough praise to go around. 
Representatives Camp and Kennelly and Senators Rockefeller, 
DeWine, and Chaffee provided congressional leadership to ensure 
passage of ASFA. Their staff worked long hours negotiating the 
final language and should be proud of the outcome. At the state 
level, you will hear from Jess McDonald, Director of Illinois 
Department of Family and Children Services on the remarkable 
progress they have made in doubling the number of adoptions in 
the past year. Judges have played a key role in making children 
a priority in their courts and making permanent decisions in 
one year. Judges Patricia Macias of El Paso and Judge Harold 
Gaither of Dallas have provided dramatic leadership in Texas 
resulting in reductions of nearly 5 years in the time children 
spend in care.
    Every waiting child needs an adoptive parent and they are 
stepping forward in record numbers for children waiting in 
foster care. Many foster parents (it is estimated at least 2/3 
of children adopted from the public child welfare system are 
adopted by their foster parents) have stepped forward to 
provide permanency for children in their care. Twenty years 
ago, social work practice dictated that foster parents should 
not become emotionally attached to their foster children and if 
they showed any interest in adoption, the children were 
removed. Times have changed.
    Even children perceived to be difficult to be placed are 
finding homes. Over 2/3 of the children of color featured on 
NACAC's 1997 Adoption Month poster have been adopted. I would 
like to share the story of a sibling group in Mississippi. 
Three boys ages 13, 15, and 17 needed a permanent family but 
the social worker determined that they should not be placed 
together. When one couple offered to adopt the 15 and 17 year 
old, another family in the same community was found for the 13 
year old. The families agreed to keep the children in contact 
and schedule regular visits. Many might assume that these 
children were unadoptable but the creative worker and flexible 
families allowed a sibling group of teenagers to find permanent 
homes.
    But the real heroes in adoption are the children 
themselves. I have offered pictures of two older boys and a 
sibling group of four that were placed as a result of the 
Adoption Month poster. They were in foster care from 2-6 years 
and had multiple placements. Yet they were willing to give new 
families a chance to parent them. They are all part of the 
dramatic growth in adoptions in 1998.
    Following recent changes in public opinion, political 
support, and law, many states have shortened foster care stays, 
found more adoptive homes, and designated new resources to 
support adoptions. As a result, more children than ever before 
have found permanent families.
    In December, NACAC staff began polling states to obtain 
their data on the number of finalized adoptions completed in 
fiscal year 1998. Of the 45 states that submitted figures, all 
but five reported an increase in adoptions. Dramatic changes 
were seen in several states: Illinois more than doubled the 
number of adoptions from foster care--the state averaged only 
2,200 adoptions from 1995 to 1997, but achieved 4,656 adoptions 
in 1998. State officials attribute this 111 percent increase to 
reduced average caseloads (from 75 children to 25 children per 
worker) and streamlined court processes. In Texas, adoptions 
from foster care are up 75 percent (to 1,548 in 1998) due to 
changes in state law that limited the length of time children 
could remain in foster care and administrative reforms that 
assigned additional staff to move children to permanence. 
Iowa's 54 percent increase is the result of the creation of 
adoption specialist positions, expanded recruitment activity, 
and the commitment of former Lieutenant Governor Corning to the 
cause. Wyoming nearly doubled the number of adoptions in one 
year (from 16 in 1997 to 29 in 1998). The state attributes the 
dramatic jump in an increased focus on terminating parental 
rights (TPR), including the assignment of a staff person in the 
attorney general's office who is dedicated to TPR hearings. 
Twenty states experienced increases of 20 percent to 55 
percent. Several states reported even higher increases, 
including South Carolina (84.4 percent), Mississippi (64.9 
percent), North Dakota (68.1%), and Minnesota (61.2 percent).
    The increased adoptions show great promise that the country 
can meet the goals identified in President Clinton's Adoption 
2002 initiative and the Adoption and Safe Families Act (ASFA) 
of 1997. In addition to legislative guidance that helps states 
increase the number of foster children who are adopted, ASFA 
also included an adoption incentive program that will make 
additional funds available for child welfare services. 
Beginning with fiscal year 1998, states became eligible to 
receive incentive payments for all adoptions over a baseline 
number determined by HHS.\1\ Table 1 shows each state's 
baseline figure, the state reported estimate of finalized 
adoptions for 1998, and the difference between the two figures. 
For each adoption over the baseline, HHS will pay the state 
$4,000, plus an additional $2,000 if the child has a federal 
Title IV-E Adoption Assistance agreement in effect. States may 
spend incentive payment funds on child and family services, 
including post-adoption support.
---------------------------------------------------------------------------
    \1\ To determine the baseline for each state, HHS averaged the 
number of finalized adoptions for federal fiscal years 1995, 1996, and 
1997. States are eligible to receive incentive payments for federal 
fiscal year 1998 only if they have an approved Title IVE plan for the 
year, provide HHS with data to determine the baseline, meet other data 
requirements, and exceed the baseline number of adoptions.
---------------------------------------------------------------------------

       Adoption Incentive Payment Authorization Level Inadequate

    Unfortunately, there will not be enough funds to provide 
states with their full adoption incentive payments. Congress 
appropriated $20 million per year for four years for the 
incentive program.\2\
---------------------------------------------------------------------------
    \2\ Pro Rata Adjustment if Insufficient Funds Available.--For any 
fiscal year, if the total amount of adoption incentive payments 
otherwise payable under this section for subsection (h) for the fiscal 
year, the amount of the adoption incentive payment payable to each 
State under this section for the fiscal year shall be the amount of the 
adoption incentive payment that would other wise be payable to the 
State under this section for the fiscal year; multiplied by the 
percentage represented by the amount so appropriated for the fiscal 
year, divided by the total amount of adoption incentive payments 
otherwise payable under this section for the fiscal year.
---------------------------------------------------------------------------
    If we assume that 75 percent of adoptions will qualify for 
the total payment of $6,000, the appropriation will cover 
increases of 3,636 adoptions for 1998.\3\ If claims exceed the 
appropriated amount, ASFA requires HHS to reduce the incentive 
payments proportionately. As NACAC's preliminary estimates 
show, states have already achieved increases of 8,511--more 
than twice the 3,636 mark--with six states not reporting. NACAC 
expects the final numbers to reflect total increases of nearly 
9,000 which would result in dramatically reduced incentive 
payments.
---------------------------------------------------------------------------
    \3\ This assumption is based on the fact that at least 75 percent 
of children adopted during federal fiscal years 1995, 1996, and 1997 
were eligible for Title IV-E Adoption Assistance.
---------------------------------------------------------------------------
    NACAC is asking Congress to increase the authorization and 
appropriation for the adoption incentive program by $25,000,000 
for fiscal year 1999 for a total of $45,000,000. This would 
allow states to receive full payments for the excellent work 
they did in increasing adoptions last year. Congress should 
also consider increasing the authorization for the next three 
fiscal years to $30,000,000 in anticipation of annual increases 
in adoptions of 5,000 per year.
    We applaud the work of the committee and encourage Congress 
to continue providing the states with incentives to increase 
the adoption of children from the public foster care system.

[GRAPHIC] [TIFF OMITTED] T0978.007

[GRAPHIC] [TIFF OMITTED] T0978.008

[GRAPHIC] [TIFF OMITTED] T0978.009

      

                                <F-dash>


    Chairman Johnson of Connecticut. Thank you very much.
    First of all, I thank the panelists for all their 
testimony. It really is exciting to see what's happening. It is 
just really thrilling. Rarely have I ever seen a law change 
that concretely affected the lives of so many children and 
adults in a positive way. Really wonderful. Also, it is 
wonderful to see the system responding because you are right, 
without systems change, you can't get the teamwork you need to 
get complicated situations resolved. So that is very, very 
encouraging.
    Mr. McDonald, you mentioned in terms of the four things you 
would like to see, that everyone should have a chance to have a 
waiver. What do you think of the department's comment that the 
cap on waivers creates competition and puts more thought into 
their projects.
    Mr. McDonald. No. This is the kind of situation where you 
want every State winning. I mean, you want improvement from 
States that aren't doing well, you want innovation above and 
beyond from the States that have been doing consistently well. 
And, it seems to me, it would assist the department in its 
efforts at quality improvement. You know, if you have an area 
of improvement that you think a State ought to move in, you 
ought to be saying why not try something here.
    But I think--I cannot imagine why we wouldn't want to 
encourage as much improvement across the States as possible. 
Like I said, when the system has been declared by so many 
people to be broken, then what's wrong with innovation that has 
decent parameters.
    Chairman Johnson of Connecticut. Thank you very much. I 
find that interesting. It seems to me that also many of these 
waiver projects are focused on just the kind of things that you 
all are talking about.
    Mr. Kroll, I did want to mention to you that the 
Subcommittee is very interested in the independent living 
program, and we certainly don't want to divert kids from 
adoption that could be adopted, the opportunities for adoption 
do vary tremendously, and we do want to improve the independent 
living program. Would you have any comment on that?
    Mr. Kroll. I guess I am first and foremost an advocate for 
children, and my concern over the years as the pendulum has 
swung back and forth on what we think on different issues is 
that too often we give up on placing in an adoptive home a 14- 
or 15- or 16-year-old. And that we need to make sure that 
teenagers in foster care are aware of all their options.
    I think any 16-year-old might respond to the question, ``Do 
you want to live with your parents or do you want to live on 
your own?'' Well, they might want to live on their own because 
there is a little rebellion going on or whatever. I think a 
child who has been neglected by the system, who doesn't trust 
adults, if offered the option of independence versus a 
permanent home would say ``I have had enough with adults.''
    So I think we really need to counsel the children who are 
older and make sure they are aware of the options because as we 
have young people speaking out on their own behalf, we hear 
many voices of teenagers who are saying I still want a family. 
And we know of young people who have been adopted after 18 
because the State did not terminate parental rights prior to 
their reaching maturity. And when they became an adult, they 
asked their foster parents if they would be willing to adopt 
them now since it is their decision.
    So I think there is a real range of behaviors there and 
attitudes by children so that we shouldn't, as we help the 
older kids who have to leave the system without a family, we 
shouldn't make kids leave the system without a family.
    Chairman Johnson of Connecticut. Right. It certainly is 
true the family provides a lifelong support system that no 
amount of independent living can provide you.
    Ben.
    Mr. Cardin. Thank you, Madam Chair.
    Mr. Kroll, I thought that maybe your injury was related to 
getting in the ring with your Governor in wrestling. 
[Laughter.]
    Mr. Kroll. If you see--I won't go there. [Laughter.]
    Mr. Cardin. I wouldn't advise you going there.
    I was really struck by your chart that you attached to your 
testimony. We all are very pleased by the increased number of 
adoptions from foster care, but the last column is really 
remarkable, and that is the variation among States from a high 
of 111-percent increase to a low of a minus 28 percent and all 
numbers in between.
    I mean, it seems like there is no consistency among the 
States. Am I reading this right or wrong?
    Mr. Kroll. You are absolutely right.
    Mr. Cardin. What accounts for that?
    Mr. Kroll. Well, another use of the dollars that the States 
are going to receive might be to clone Jess McDonald and Judge 
Kearney. Leadership comes into play in some of these States. 
There are foundation efforts, like the Kellogg Families for 
Kids and the Casey Family to Family, where there have been true 
initiatives in some States and others there haven't.
    And so, there is a lot of leadership around the country but 
it isn't equally spread.
    I'm not sure I could address a specific State, why it was 
low. Some of the States had made dramatic increases in the more 
recent years. So their numbers have leveled out. I have heard 
from a couple of States. Some of the numbers, and I think 
Louisiana particularly, which had the largest decline, they 
reported the numbers they could but they believe those numbers 
have improved. So that when the AFCAR's numbers make it 
official, their number of placements in 1998 will be higher 
than originally reported.
    This was, you know, informal estimates, as best as the 
States could do in January and February this year.
    Mr. Cardin. Well, I appreciate that observation because 
obviously we have offered incentives and would be curious 
whether there is a need to deal with changes in Federal law to 
make it easier for all States to show more progress. I don't 
know.
    But thank you for that observation. Illinois, of course, 
has done very well. But I am very interested in your 
observations, Mr. McDonald, on substance abuse and the 
challenge that places to us achieving our objectives. What 
should we be doing? What are you doing? You have got the 
children's programs; you don't have all the health programs, 
obviously. How do you coordinate to make sure that you can deal 
with substance abuse in order to succeed in protecting the 
child?
    Mr. McDonald. We have a $25 million initiative with the 
Department of Human Services, but I will tell you a significant 
portion of that is assessment and, frankly, reassessment. 
Someone drops out of treatment, they come back, they get 
assessed again. The real key is keeping someone in treatment. 
If you assume the prognosis for recovery is 2 years and that 
relapse is part of recovery, then you have to figure out what 
to do to keep a woman who has an interest in her children in 
treatment.
    That is a design issue. In Cook County we put an assessment 
program in the courts so clients go right from the courtroom 
right to an assessment program. The next thing we are 
installing is independent case management so that all 
substance-exposed births will be case managed independently as 
well as by the child welfare worker.
    We get no Federal reimbursement for this iniative.
    We are also intending on trying to figure out how you 
change and alter the structure of services. Women will stay in 
treatment if they can stay close to their children. What 
motivates someone to succeed? You have to provide some 
incentive for people to crack what I think is a very difficult, 
difficult issue. So the design of substance-abuse services is 
the next thing we are going to be looking at, and we are 
applying for a IV-E waiver to test alternative treatment models 
in Cook County and several of our larger areas downstate.
    The rural issues are even more dramatic because you have so 
much travel involved in getting to treatment that oftentimes 
you have more difficult problems structuring service in rural 
areas.
    But it is incredibly important to tackle this issue, and 
NASADAD, National Association of State Alcohol and Drug Abuse 
Directors, and APHSA are working together to at least have a 
dialog on it. But if you don't tackle this, we will continue to 
have problems in the system.
    Mr. Cardin. Well, let me applaud you for showing 
initiative. Unfortunately, a lot of people look at their 
responsibilities with tunnel vision and they don't look at the 
broader ways of dealing with the problems. So I really do 
applaud you for taking the initiative to provide the services 
so you can succeed with children.
    Judge Kearney, I want to ask you just one question on--you 
were at the hearing that we had in Florida. I was not at that 
hearing, but you were at the hearing that we had in Florida. 
And one of the issues that came up was the high turnover of 
social workers and the difficulty that causes in carrying out 
responsibility. I think we all can relate to that.
    Has Florida done anything about the problems of social 
workers and I guess it is the pay issue.
    Ms. Kearney. It is a pay issue. It is also a caseload 
issue, which I think is probably more problematic. Right now we 
have many of our caseworkers who carry caseloads in excess of 
50 cases per worker. We have tried in the area of adoption to 
lower the caseloads, and that has been effective in increasing 
our adoption rate. But the problem we have, particularly, is in 
the protective investigator side, when the cases are coming 
into the system. We have a tremendous backlog.
    Right now in Dade County alone, we have a backlog of over 
3,000 open protective services cases that have not been 
cleared. The Florida legislature in this session under Governor 
Bush's proposed budget, which they have adopted, have given us 
a 25-percent increase, most of which will go into the field in 
order to provide additional workers. I have also totally 
revamped the training program for our investigators. It 
originally had been 12 weeks of straight lecture without any 
field-based training. We were having many of our workers coming 
out of training totally unprepared for the reality of what they 
saw in the field.
    So we have now revamped the training. We are--at this time 
they come into the field the very first week. They are there 
the entire week. We have established a mentor program, and then 
the rest of the program, which is now shortened to 8 weeks, has 
2 days in the classroom but 3 days in the field. So they can 
truly see what they are getting into.
    Mr. Cardin. That's great. I just want to underscore what 
Mr. Kroll said: We have good leadership in Florida and 
Illinois. We could use that model in other States. 
Congratulations.
    Ms. Kearney. Thank you.
    Chairman Johnson of Connecticut. Mr. Camp.
    Mr. Camp. Thank you, Madam Chairman.
    I want to thank the three of you, first of all, the people 
who testified today for your testimony. I very much appreciate 
it, and my first question is to Judge Kearney. Thank you for 
your help with the Adoption and Safe Families Act because you 
were a busy judge getting on the phone and helping us craft 
that.
    Ms. Kearney. Thank you.
    Mr. Camp. I wanted to ask you, do you think--I mean, 
obviously, the message of that legislation was child safety and 
permanency--do you think States are getting that message 
clearly? You know, Minnesota, Illinois, and Florida have from 
the tremendous improvements that you have made. But do you 
think in general that is occurring?
    Ms. Kearney. Mr. Camp, again, I am concerned and I can't 
say in all honesty that Florida has gotten the message because 
the reality is I did a teleconference last week with over 200 
of our child-protection leaders from the Department of Children 
and Families, particularly on the implementation of the 
Adoption and Safe Families Act because I am concerned that they 
are not understanding that the health and safety of the child 
is the paramount concern.
    I have to tell you that I had to enact operations 
procedures that made it clear that our children that are in 
foster care that they could not put children who sexually 
perpetrate in the same home as victims. And I have to tell you 
that there were workers upset and angry that I had entered an 
order that required that because they said they didn't see any 
problem with that.
    They have a problem in being able to assess risk. They have 
a problem in being able to make the very hard call in the 
beginning as to whether or not a child should be removed. And 
they are still holding dear to an outdated model of family 
preservation at all costs. And it has been very difficult to 
enact truly the spirit of your legislation. I am concerned that 
the regulations at this time are giving that same mixed 
message, that same signal. That is not what this act and 
Congress intended, and I would strongly encourage that you 
continue your effort to make certain that the true intent of 
the act is followed.
    I would also ask that Congress would enact legislation to 
ensure that the States, particularly those like Florida that 
are moving to a community-based care model, privatization 
model, if you would, would also ensure that training is held 
for the private sector taking over the child protection system. 
It is absolutely imperative that that be done.
    We have had great success in Florida with our pilot 
programs, but we have also had one or two that are not 
successful and refuse to be trained in the adequate protection 
of children. So I would strongly encourage that you get 
oversight there also.
    Mr. Camp. Thank you very much. My next question is 
regarding the methods of the funding stream to the States and 
foster care. And obviously our goal is to decrease time spent 
in foster care where possible. Do you have any, or does the way 
the money goes to the States for foster care, the streams of 
funding, is that consistent or inconsistent with the goal of 
decreasing time in foster care?
    Ms. Kearney. I have to say from my judicial experience in 
dependency court improvement as well as coming to the 
Department of Children and Families at this point is 
inconsistent. It is very difficult. We have so many different 
funding streams. Our reporting requirements are so different. 
We have workers that are in the field spending countless hours 
doing paperwork that should be providing direct services to 
children and families so that they can meet that goal.
    Florida has shortened its timeframe even further. We are a 
12-month State for permanency. And what Mr. McDonald said in 
Illinois is exactly the situation in Florida, where we actually 
are looking at a 6-month and a 9-month period. And so I am 
concerned that given all of the paperwork that we are truly 
inundated with and the different funding sources that we are 
not adequately being able to serve the population that we must 
serve in order to make reasonable efforts and to then have a 
strong court case for termination of parental rights if a 
petition is filed.
    Mr. Camp. And last, if you could comment on--obviously we 
wrote this legislation to take into account needed State 
flexibility--can you comment on the balance between the need 
for State flexibility and the need for accountability?
    Ms. Kearney. I am living that firsthand right now because 
we are in a district structure of 15 districts in Florida. And 
having that, allowing them the flexibility to spend the funds 
as appropriate, taking into consideration local needs but at 
the same time being accountable to the State while I, in turn, 
account to the Federal Government, I think it is imperative 
that we have the flexibility to do things such as what we are 
now compelled to do in Florida, which is privatize our child 
welfare system. We must have the flexibility in order to do 
that.
    But at the same time, I absolutely do believe it is 
imperative that we account for every taxpayer dollar that is 
spent on child protection. In the current system I think that 
is not there at all. I am concerned about the regulations 
because it does seem to be somewhat confused, and the answers 
that I heard this morning were not what I would have liked to 
have heard in order to really determine where we are going and 
what flexibility will be given to the States.
    I have no problem accounting for it, but I also have to be 
responsible for serving that population, and I need the 
flexibility to do that.
    Mr. Camp. Well, thank you very much for that testimony, and 
thank all of you for your efforts to increase the adoptions in 
your States. And I have completed my questions.
    And Madam Chairman, I just want to thank you for holding 
this hearing and for beginning the discussion on the oversight 
role, but also to let us get the reporting on how this 
legislation is being enacted. Thank you very much.
    Chairman Johnson of Connecticut. I am really struck by the 
fact that in order to make this work you had to improve 
systems, and I get the impression that to improve systems you 
had to get waivers?
    For the most part, would you say that improving your 
systems required waivers?
    Mr. McDonald. May I?
    Chairman Johnson of Connecticut. Yes.
    Mr. McDonald. It's more than one thing. I mean, the waivers 
definitely help. The IV-E waiver was invaluable in terms of 
helping turn around the response to the field. We were able to 
construct performance contracting around the use of the waiver. 
The subsidized guardianship option actually uncovered more 
adoptions, and adoptions went up. When you start asking about 
permanency, when you tie it to incentive-based work, what we 
found is that you ask relatives, who are a major portion of our 
caregivers, do you want to adopt? You have to rule out adoption 
in order to consider guardianship. That is one of our deals 
with the court. Relatives were very interested. But workers 
never talked to them about permanency.
    What you have to do is to force the system to perform. You 
have to get to the top of every private agency and every 
manager because they start to understand that their future 
business, if you will, depends on performing well today. And we 
have seen improvements in stability, fewer moves in the system, 
because we evaluate them on stability in the system as well.
    Chairman Johnson of Connecticut. But do you think these 
current regulations adequately get the information we need, not 
only the number--they clearly don't get the number of kids in 
foster care. But we do need to know how long they are staying 
there and how many moves they are making.
    Mr. Mcdonald. Yes. For instance, Mr. Cardin, you mentioned 
that the rate of increase--112-percent rate of increase in 
Illinois. One good year, one great year, does not make a great 
child welfare system. I do hope that is not a sound bite that I 
see in the paper tomorrow, Ben. [Laughter.]
    But the fact of the matter is, is that many States have 
been performing consistently well. If they had a 20-percent 
increase and they had had on an ongoing basis of a 20-percent 
permanency rate or something like that, and if they had short 
lengths of stay in their system, it is not just one measure 
that you want to look at. It is length of stay. You want to 
look at median and maximum lengths of stay. You want to look at 
new populations, old populations.
    We are doing well in Illinois. We will get back to where we 
ought to be. But I, you know--we will have a couple of very 
good years. But we had a median length of stay of almost 6 
years.
    When you have that, we should have some adoptions. We 
should have a lot of adoptions. This system is going to be half 
the size it is, and we are moving there. In another 3 years we 
will have around 20,000 kids in the system, and we will look 
more like the States that have been progressive all the way 
along.
    Child welfare is something that you have to manage for the 
long haul. It does not respond well to mood swings from any 
direction. If you have caseloads of 50, you get no results. The 
investments that have to be made over the long haul are the 
ones you need to look to. Don't look to a quick fix overnight. 
It's not the best way to go.
    Chairman Johnson of Connecticut. When you look at the fact 
that all of you have to make changes. You have to respond to 
what you think is going to motivate people and so on and so 
forth. And then you look at Florida's challenge. And what I 
hear you saying is that you think you can design a system 
through which you will be able to hold your community-based, 
privatized system accountable. Well now, if you can hold them 
accountable, why can't we hold you accountable? And are these 
regulations asking for the information that you, as a 
practitioner, know you need from those you must hold 
accountable and nothing more.
    I mean, are these regulations going to fit into the system 
as you see it developing from your perspective?
    Mr. Kearney. As currently framed, no.
    Chairman Johnson of Connecticut. Well, we really want to 
get very precise about what changes you would want to make, and 
because this is a pivotal moment.
    Ms. Kearney. Yes.
    Chairman Johnson of Connecticut. And we have enough 
experience with change in the system so that we really have to 
do, and this is with no disrespect meant, but, as we try to 
change Medicare, you know, you have people writing regulations 
for a system for which it's been many years since they have 
been involved in it. And, you know, and they are writing 
regulations for entities that they don't know well. So we then 
don't succeed in our objectives.
    So, you see this in education. We wrote special-ed law 
reform, and frankly the bureaucrats thought that it was 
terrible. HHS is far better than this. But I mean they wrote 
regulations that not only didn't recognize the reform in law 
but went back. And it was so bad the groups, everybody were up 
in arms. That is just too bad. But one of the problems we face 
is that government, especially in Washington, with all due 
respect for the many wonderful people that really work with us 
on these things, is removed.
    And they aren't experiencing the pace of change you are 
experiencing. They aren't experiencing the intensity of the 
challenge of these very difficult families, and the creativity 
at the local level that is allowing you to do different things 
with these families.
    So I am really very anxious to be sure that at a very 
specific level you give us input on why these regulations will 
or will not work, and how they will help you move forward.
    Ms. Kearney. Madam Chair, I absolutely agree with--it also 
is a many-faceted problem, but it is also a question of 
leadership. And one of the things that we have seen in Florida, 
in particular, is that the Department of Children and Families 
did not exercise the leadership in moving forward the Adoption 
and Safe Families Act. That came from the court, not from a 
Federal lawsuit, it came from the Supreme Court of Florida 
through the dependency court improvement program.
    And it was absolutely imperative--I think the success in 
Florida is attributable to a strong executive branch, judicial 
branch, and legislative branch that now has adequately funded 
our funds. But we do need the flexibility and we need the 
ability to draw down more Federal dollars to maximize. Florida 
right now is 47th in the Nation in social service funding.
    And obviously I am very concerned. I am taking over a 
system that is so broken that it is going to take every ounce 
of creativity to be able to fix it.
    And I appreciate the attention that Congress has paid to 
this problem because it helps me at the statewide level focus 
our State on how important this is.
    Chairman Johnson of Connecticut. Well, we really appreciate 
your very good input here today, and the input of both panels 
and the administration. Any final comments? Any final 
questions?
    Mr. Kroll. Could I make a comment since in my testimony I 
focused on children and parents? I think one group that needs 
to heard from are the judges who are running model courts 
throughout this country that make a huge difference. And in my 
written testimony, I talked about a couple in Texas. In El 
Paso, where Judge Patricia Macias through many different good 
ideas working in that community was able to reduce the waiting 
for children who had been legally free for adoption from 57 to 
6 months, I mean, just a phenomenal drop. But it was because 
everybody got together and there was judicial leadership, and 
there was a little bit of resources.
    It is kind of like the waivers are a tool for good leaders. 
You know, if you don't have a good leader, the waiver doesn't 
help. And so we have the Federal Government providing the tools 
that they have in their toolbox to the good leaders. And I 
think the waiver program and making it as universal as possible 
is the way to go.
    Chairman Johnson of Connecticut. I appreciate your comment 
about leadership. Obviously, it is just phenomenally true, from 
magnet schools to nonmagnet schools, to manufacturing basic 
commodities that when you say we aren't competitive and then 
there they are. It is just extraordinary the difference that 
leadership makes.
    One of the things we are going to do, and Judge Kearney and 
I were talking about this earlier, and Ben pursued it in his 
questioning. We really are going to be looking at this issue of 
substance abuse, both our treatment capability, the flow of 
people into treatment, the variety of treatment settings that 
are available, but also, we have a whole system in place to 
require child support payments because if you bring children 
into this world, you are obliged to support them.
    If you bring a child into this world, you are obliged not 
to abuse. You just lose that right. And I think that not only 
do we have to look at the resources available, but I think we 
have to do some real rethinking about the penalties, about the 
pressure, about the incentives for parents to take their 
responsibility very, very seriously, and prenatally.
    So I don't know how we do this. But I can tell you, it has 
got to be done. And we have got to find a way to do it. And we 
can start by finding a way to at least improve treatment and 
flow into treatment and management of treatment.
    So any thoughts that you have on that, we will be looking 
into that, probably through an informal breakfast first and 
then through a hearing. But if there is one thing that has been 
loud and clear, and I chaired a child guidance task force in my 
hometown for about--I don't know, but was chair or treasurer 
for 12 years. And then when I was elected to Congress, the 
first thing I heard out there in the small towns was 80 percent 
of our cases had an abuser in the family.
    Well, isn't that dumb. And we are still there, and we still 
aren't focusing on that as aggressively as we need to.
    So I am delighted that the Adoption and Safe Families Act 
has been such a success, and if we really focus now on other 
aspects of the system, we ought to be able to give you both the 
flexibility and support that you need.
    Thank you.
    [Whereupon, at 12:50 p.m., the hearing was adjourned.]
    [Submissions for the record follow:]

Statement of Child Welfare League of America, Inc.

    The Child Welfare League of America (CWLA) welcomes this 
opportunity to submit testimony on the implementation of a 
federal review system for child protection systems, and on the 
impact of the Adoption and Safe Families Act (ASFA) on the 
number of adoptions in the United States.
    CWLA is a 79-year-old national association of over 1,000 
public and private voluntary agencies that serve more than two 
million abused and neglected children and their families. CWLA 
member agencies provide the wide array of services necessary to 
protect and care for abused and neglected children, including 
child protective services, family preservation, family foster 
care, treatment foster care, residential group care, adolescent 
pregnancy prevention, child day care, emergency shelter care, 
independent living, youth development, and adoption.
    Our brief comments that follow chiefly focus on the impact 
of ASFA on adoptions. They also suggest ways to improve 
adoption and other permanency outcomes. With respect to the 
proposed review system, CWLA strongly supports federal efforts 
to strengthen the quality of services and the capacity of 
agencies to deliver them. We applaud DHHS and its focus in the 
proposed rule on outcomes and program improvements. Our 
comments on the proposal are available on the CWLA web site at 
http://www.cwla.org/cwla/publicpolicy/pl105-89.html.
    The Adoption and Safe Families Act, which originated in 
this Subcommittee, made clear our shared national goal of 
helping more children in foster care become part of permanent, 
loving families when they cannot safely return home. ASFA 
authorizes payments to states for increasing the numbers of 
children with special needs who become part of permanent, 
adoptive families. Early results indicate that many states have 
been successful in achieving that goal as adoptions of children 
with special needs have increased 22 percent according to the 
North American Council on Adoptable Children.
    We are pleased and encouraged by the increases in 
adoptions. At the same time, we have concerns that we urge you 
to address to ensure that safety and permanency are achieved 
and maintained. ASFA demands faster permanency decision making, 
but few new resourcesincluding the very limited adoption 
incentive funding and additional funding under Promoting Safe 
and Stable Families programneeded to build capacity among 
caseworkers and others in the child welfare agency, the courts, 
and the wider provider community to make good decisions in a 
timely fashion. We urge Congress to take the following actions 
to increase and improve stability and permanency for children:

             Increase Resources for Post-Adoption Services

    Adoptive families need support after, as well as before, an 
adoption is made final. Children who have been abused or 
neglected often have special needs and present special 
challenges for their adoptive families. Post-adoption services 
help parents meet the specific needs of their adopted children 
in order to maintain nurturing and permanent families. Post-
adoption services often are key in preventing disruption and 
dissolution and should be available to all families that adopt 
a child with special needs from the child welfare system. 
Federal or state adoption subsidies do not pay for the parent 
training and education, counseling, respite care and 
residential treatment that these families need. New resources 
need to be dedicated to ensure that adoptive families have the 
support they need to care for these vulnerable children.

  Make all Children with Special Needs Eligible for Federal Adoption 
                               Assistance

    Under current law, children with special needs awaiting 
adoption are eligible for federal adoption subsidies under the 
title IV-E Adoption Assistance Program, only if their 
biological family from whom they are being separated received 
SSI or welfare benefits (or would have been eligible to receive 
welfare benefits under the former AFDC program, given the 
income and resource standards in place in each state on June 
16, 1996). Eliminating AFDC eligibility as a criterion for 
federal assistance would allow all children with special needs 
to be eligible for a federal adoption subsidy. This change 
would help more children with special needs be adopted, would 
replace a current cost and administrative burden, and would 
treat all children with special needs more equitably.

                       Support Court Improvements

    In order to achieve the goals of ASFA, the already 
overburdened abuse and neglect courts also need help. CWLA 
supports legislation, such as the Strengthening Abuse and 
Neglect Courts Act (S. 708) recently introduced in the Senate 
to help courts deal with the accelerated timelines for the 
termination of parental rights and other requirements imposed 
by ASFA that increase the demands on abuse and neglect courts.

     Help Older Children in Foster Care Transition to Independence

    We are delighted by the interest expressed by members of 
this Subcommittee to extend support to young people in foster 
care who reach their eighteenth birthday and are facing life on 
their own without the support of a permanent family. The 
hearing held by this Subcommittee on March 9, highlighted the 
needs of these young people and documented how the federal 
government can help them become productive, self-sufficient 
adults. We thank the Subcommittee for its attention to the 
serious problems facing emancipating foster youths and urge 
action to meet critical health and shelter needs, as well as 
the skills needed to become self-sufficient adults.
    We appreciate this opportunity to share our views and look 
forward to working with the Subcommittee on these issues during 
the coming months.
      

                                <F-dash>


Statement of Cory J. Jensen, Legislative Assistant, Men's Health 
Network

    As the Subcommittee on Human Resources examines current 
child protection laws, they should take note of successful 
efforts at the state level. While states are accountable for 
their own guidelines, the federal government should promote 
those initiatives that have had a positive impact in moving 
children off the adoption roles and into caring families. We 
urge the subcommittee to consider the following three 
improvements to the foster care-adoption system.

           Foster Care Alternatives Must Be Considered First

    By statute, Child Protective Services in the state of Texas 
must initially consider placing a child with a fit and willing 
relative instead of in foster care. The specific statue reads:
    The court shall place a child removed from the child's 
custodial parent with the
    child's noncustodial parent or with a relative of the child 
if placement with the noncustodial parent is inappropriate, 
unless placement with the noncustodial
    parent or relative is not in the best interest of the child 
[S.B. 359 (e)].
    An example CPS letter documenting child custody is included 
with written testimony provided at the hearing (Exhibit A). A 
recent Washington Post article (April 13, 1999) cited Texas as 
having the fourth highest increase in adoption rates. In 1998, 
Texas had a 76 percent increase in the number of adoptions (the 
above statue went into effect September 1997).
    Other states should be required to seek placement with 
relatives before putting a child in foster care. The practice 
of placing the child with a relative forgoes future long and 
costly court fights over custody of a child that has 
unnecessarily been placed on the adoption track. In turn, this 
accelerates the adoption process for other children and allows 
resources to be used for foster care and on placing those 
children who do not have ``fit and willing relatives.''

                    Requiring Professional Standards

    In order to ensure that well trained professionals are 
handling child protection cases, the federal government should 
require states to set caseworker standards. For example, 
Louisiana requires that a person performing social studies have 
a master's degree in marriage and family therapy or a related 
field. Texas' requirements are less strict, requiring a college 
degree and relevant experience. By requiring states to set 
their own standards, qualified caseworkers will be appointed to 
protect the best interests of the children.

                         Reporting Requirements

    To better protect abused children, states should be 
required to report the specific relationship of the perpetrator 
to the abused. Current guidelines for the National Child Abuse 
and Neglect Data System only require for data to be accumulated 
on the number of perpetrators and if the perpetrator was a 
parent (not which parent), caretaker, day care provider or of 
another relationship to the victim. Documenting the familial 
relationship of the perpetrator to the abused would provide 
policy makers with the information necessary to develop better 
policy and procedures to address the perplexing problem of 
child abuse.

    [An attachment is being retained in the Committee files.]
      

                                <F-dash>


Statement of National Association of Foster Care Reviewers, Atlanta, 
Georgia

   Why Does the Child Welfare System Need a System of Accountability?

    More than 500,000 children nationally were in the foster 
care system in the 1970s. While most of these children had been 
removed from their families as a result of abuse or neglect, 
some had been removed as a result of poverty; still thousands 
of other children were at risk of being removed from their 
homes. Once placed in care, children often experienced foster 
care ``drift,'' as they were moved from one placement to 
another with little prospect of returning home or placement in 
a permanent family. Many of these children remained in foster 
care for years.
    Few safeguards existed in the child welfare system at that 
time to regulate the unrelenting stream of children entering 
foster care, and few practices were in place to move children 
through and out of the system back to their biological families 
or to a permanent placement with kin or an adoptive family.
    In 1980, Congress passed P.L. 96-272, the first national 
attempt at instilling accountability into the national child 
protection system. This legislation called for the review of 
both state child protection systems (427 reviews/audits) by the 
federal government and provided for state oversight of child 
welfare cases through a two-tiered system of individual case 
review by the courts or administrative body; periodic reviews 
(every six months) and dispositional hearings (after eighteen 
months). Though good intentioned, the accountability provisions 
of P.L. 96-272 were never fully operationalized, never 
supported.
    In many places state review systems focused their activity 
on monitoring procedural compliance of foster care cases. In 
addition, potential users of review information such as judges, 
child welfare administrators, policy and budget developers, had 
neither the tools nor the relationships to capture and utilize 
review data in their practice.
    In many other places, state review systems have contributed 
to raising community expectations for good foster care practice 
by raising critical questions about what works in child welfare 
practice, questioning the relationship between procedures and 
improved outcomes for children. They have used aggregate and 
anecdotal information from reviews to obtain increased 
resources and alter policy that prevents permanency for large 
groups of individual children in foster care. The review 
systems that have demonstrated an impact on outcomes for 
children have fed back information from reviews to the parties 
who have the authority to eliminate barriers, change policies 
and practices, and expand resources. This activity is described 
in management literature as a ``feedback loop,'' and is an 
essential element of an effective organization, one that 
achieves its objectives and can adapt to changing environments 
and circumstances.
    Now again, we are faced with the same problem--a growing 
crisis in child welfare. A growing number of children in and 
out of the child protection system are dying each year. The 
list of well-documented abuses within the management and 
operation of child welfare systems across the country is also 
growing, with 22 jurisdictions under consent decree or court 
oversight. Since 1980 the cost of protecting our nation's 
children has risen dramatically, while we have seen more 
children enter the system, stay longer, and eventually ``age-
out'' of the system less prepared for adulthood. We have seen 
countless audits and sanctions imposed by the federal 
government on these systems, however, these penalties have had 
little impact on improving the system or the outcomes of 
children. Litigation, federal audits and penalties have been 
unsuccessful in holding state child protection systems 
accountable.
    The Adoption and Safe Families Act of 1997 (P.L. 105-89) 
has provided for states a clear legislative direction. The Act 
clarifies that the focus of child welfare systems is ensuring 
the safety and swift permanency of children in need of 
protection. P.L. 105-89 reinforces the need to monitor foster 
care systems in terms of these outcomes. ASFA, like P.L. 96-
272, once again holds great promise for bringing accountability 
to our child protection systems.
    We can not repeat the mistakes of our past. The future of 
our child welfare systems and of the children in care rests on 
the implementation of ASFA and the construction and 
implementation of a sound accountability system.

       What Would an Adequate System of Accountability Look Like?

    An adequate system of accountability would build on the 
system begun in 1980 under P.L. 96-272 and would ensure:
    <bullet> Only children who are ``unsafe'' are brought into 
care.
    <bullet> Children who do enter the system are kept safe.
    <bullet> Children in care are either reunified with their 
parents or found permanent, life-long families quickly.
    <bullet> Children who spend time in care are provided the 
same opportunity for success as any other child, the same 
opportunity as our own children.
    1. Objective Outcome Measures: The development of an 
adequate system of accountability for child welfare would start 
with outcome measures that are objective, and quantifiable.
    <bullet> Criteria for valid outcome measures would include:
    <bullet> Can be objectively quantified.
    <bullet> Able to be tracked over time.
    <bullet> Validated by independent sources.
    <bullet> Outcomes that you desire for your own children.
    2. Independent Oversight: An adequate system of 
accountability would be developed and administered independent 
of the child protection system that provides services, allowing 
for an objective assessment of the work performed and the 
results of these efforts. It would draw on existing 
accountability and independent review structures already in 
place in state and local communities. Such a system would 
collect management and child outcome data, have the capacity to 
aggregate and analyze this information, to transmit and share 
it with stakeholders throughout the system who have decision-
making authority at the case and policy level, and to 
facilitate problem-solving and reform where needed.
    3. Accountable to All Stakeholders: An adequate system 
would be accountable to the citizens and taxpayers, to Congress 
and state legislatures, to families and children.

         Is the Proposed System of Accountability ``Adequate''?

    According to the criteria outlined above the system of 
accountability proposed by HHS is not adequate to ensure the 
safety, permanency, and well-being of children in foster care.
    1. An adequate accountability system requires a foundation 
of child-specific and system outcomes. The outcome measures 
proposed by HHS provide important management data for state 
child welfare systems, however, they are not objective 
indicators of outcomes for individual children in care. Given 
the organizations the Department selected to consult with, it 
is not surprising that the outcome measures selected are highly 
subjective. These organizations have a vested interest in the 
measures being subjective, so as to allow for broad 
interpretations of compliance and success. If the outcome 
measures had been formulated by former foster children, and 
natural, foster and adoptive parents, the measures would focus 
on child outcome indicators, not indicators of system 
performance and would look quite different:
    <bullet> Minimal academic truancy
    <bullet> Academic performance consistent with IQ
    <bullet> An absence of criminal arrests or convictions
    <bullet> High school/college graduation
    <bullet> An absence of out of wedlock pregnancy
    <bullet> An absence of sexually transmitted disease
    Each of these outcomes can be objectively quantified and 
tracked into adulthood. Each of these outcomes can be validated 
by reference to independent databases. These are the outcomes 
which should be linked to eligibility for Federal and State 
funds. The measures proposed by the Department can be helpful 
if modified as management tools for the States and service 
providers, but ultimately what parents and taxpayers want for 
children in care is what they want for their own children.
    2. An adequate accountability system must be truly 
independent of state and local child welfare agencies. The 
proposed system is not independent; it allows states in 
partnership with the Children's Bureau to hold themselves 
accountable for their own work and practice. States and HHS 
will remain under suspicion by the media and public as long as 
they are reviewing their own work --much like the fox guarding 
the hen house. The only way to ensure real accountability and 
convince stakeholders that the data and information collected 
through federal oversight is accurate it to design an 
independent accountability system, one free of political and 
financial interest.
    Opponents to independence will claim that State child 
welfare agencies must be critical participants in the 
accountability system if systemic improvements will be 
successful. While we agree that State input into the design is 
valuable and that States will need to be engaged in problem-
solving and implementing reform and corrective action plans, 
there is no justification for why representatives of the state 
child welfare agency should be members of the team which is 
assessing their own work and performance. Imagine if students 
graded their own papers--everyone would get an ``A+.''
    The proposed HHS framework does focus accountability 
efforts on continuous improvement, however, the structures and 
mechanisms are not in place nor identified for ensuring that 
improvements are made or are effective in resolving systems 
issues. In addition, these improvement schedules are far from 
timely.
    Effective accountability systems need to have uninterrupted 
access to every stakeholder in the system including the 
citizenry who pay for these services. There is no mechanism for 
reporting or being accountable to local communities.

                         What Needs To Be Done?

    Our child welfare systems are managed by headlines. 
Administrators are forced to make rapid, often ill-considered 
policy and practice responses to isolated cases of severe abuse 
or child death. We need an accountability system that is 
focused on the outcomes we want to achieve, not the situations 
we want to avoid.
    Experience demonstrates that litigation and class action 
suits have not been effective oversight mechanisms. Where they 
have occurred, outcomes for children and systems have not 
improved, but in fact have gotten worse. Litigation has proven 
to be a blunt accountability tool, focused more on process than 
outcome. The result, a continued deterioration of outcome 
measures.
    A solid accountability system needs to be constructed now.
    1. HHS' recommended outcome measures need to be expanded to 
include child-specific, objective indicators as described 
above.
    2. The assessment phase of the child and family review 
system needs to exclude representatives from state and local 
child welfare agencies. This team should be convened by federal 
representatives and composed of representatives from local 
independent review programs as well as other stakeholders in 
the system who are independent of practice. This team should 
also be part of the problem-solving conferences where the 
findings are presented and discussed and should also be the 
entity to monitor timely compliance with corrective action 
agreements.
    3. State and local independent review programs need to 
become an integral part of the accountability framework for 
child welfare. Since being mandated as part of P.L. 96-272 in 
1980, foster care review has been found to be an invaluable 
accountability tool. Many state and local independent review 
programs around the country have the capacity to serve in this 
role. In fact, many already do, except their efforts are not 
tied to the federal accountability structure and they lack the 
authority needed to require corrective action by the child 
welfare agency. We need to expand the capacity of these 
independent review programs to be the accountability tool they 
were intended to be.
    With their inception in 1980, Congress gave states 
discretion in the design of their independent review systems, 
allowing reviews to be conducted by either a court or 
administrative body. Congress intended that that there be an 
independent review of cases that would result in agency 
improvements, greater levels of accountability, and enhanced 
community awareness of foster care issues.
    We learned from these early efforts that foster care review 
helps focus casework activity on the achievement of permanency 
goals and on the improvement of conditions for children in 
care. Periodic review serves two critical purposes; a timely 
reminder of a child's needs and a monitor of the child welfare 
systems' efforts to meet these needs.
    After nearly twenty years Congress saw insufficient 
progress and again became dissatisfied with the number of 
children in foster care and the length of time they spent 
there. Fueled by the public's anger over the failure of child 
protection systems' efforts to prevent the severe abuse and 
sometimes murder of children in their custody, Congress 
legislated new priorities for system accountability: safety, 
permanency and well-being. The Adoption and Safe Families Act 
(ASFA) reflects the intent of Congress to achieve 
accountability and improved outcomes for children in foster 
care. ASFA mandates shorter timelines, more focused permanency 
decision-making, and emphasizes making reasonable efforts to 
prevent placement, reunify families, or secure an alternative, 
permanent home.
    The review of cases is a valuable tool for improving the 
safety, permanency and well-being of children in foster care. 
Congress has recognized the importance of focusing child 
welfare systems on these outcomes for children and through the 
implementation of the Adoption and Safe Families Act of 1997 
(ASFA), has initiated a transition in child welfare policy from 
a system focused on procedure to one focused on positive 
outcomes and greater levels of accountability.
    Recent research suggests that increased accountability and 
more positive outcomes for children in care are more likely to 
occur when a competent, independent case review program is in 
place. One of the reasons case review programs are linked to 
better outcomes for children is that these programs serve as a 
catalyst for both case and systemic improvements, essential 
processes if we are going to meet the requirements and intent 
of this new federal policy. Linked to a revised HHS' child and 
family review process, independent review could provide a 
powerful accountability system for our country's child welfare 
system and for our children in care.
      

                                <F-dash>


Statement of Hon. Fortney Pete Stark, a Representative in Congress from 
the State of California

    Madame Chairwoman, thank you for holding a hearing on an 
issue that often gets swept aside in the debate over welfare 
reform. The critical issue of adoption for children in the 
child welfare system must remain a priority as we search for 
the best way to assist families in successfully caring for 
their children. I'd like to begin by saying that I believe that 
all children deserve a single, stable family environment.
    Today we are reviewing a system created with the passage of 
the Adoption and Safe Families Act of 1997 that provides 
financial incentives to states that increase the number of 
adoptions out of foster care. When this Subcommittee addressed 
this legislation in the last Congress, I expressed my 
reservations with a system that provides financial incentives 
to States that swiftly move children through the foster care 
system. My concern then, as it is now, was that a per-child 
bonus would encourage states to jump at the chance to cash-in 
at the expense of cases that need a longer review. With this 
carrot dangling overhead, I suspected Governors would not do 
what they should to encourage the public child welfare system 
to work intensively with the child and family to meet their 
individual needs.
    My fear that we would see a rush to get children adopted 
regardless of whether it is in the best interest of the child 
and family is being confirmed. An article published in the 
Tuesday, April 13, 1999 edition of the Washington Post reports 
that the push to place children is raising the fears about the 
appropriateness of many State placement decisions.
    The Post reports that the encouragement of financial 
incentives has driven up the number of foster children adopted 
in virtually every state, and in many cases has increased the 
number of adoptions by fifty percent.
    Child advocacy groups such as the Child Welfare League of 
America share my fear that States are getting lazy, that 
caseworkers are giving up on trying to reunite children and 
parents because of federal laws forcing agencies to decide 
sooner on a child's fate, and that children are quickly being 
placed with adoptive parents who may not have access to the 
services necessary to prepare them to care for a child with 
special needs.
    I am all for providing technical assistance to States so 
that they can identify barriers to permanency and develop 
strategies for ensuring that children have a permanent home. I 
am all for providing increased funding for the training of 
public child welfare workers so that they have the skills 
needed to address the individual needs of children and their 
families and to make appropriate decisions about permanency. 
And I am all for providing additional funding to states in 
order to reduce the ratio of children in foster care to case 
workers. But I remain fearful of any strategy that provides a 
funding incentive that our States can use to halt efforts to 
strengthen and reunify families.
    Adoption is a worthy and important option for many 
children, but there shouldn't have to be financial incentives 
for the States to do right by their children. Only if adoption 
is the chosen option by way of thorough permanency planning 
efforts that adequately provide services to children and 
families, then adoption it should be. 

[GRAPHIC] [TIFF OMITTED] T0978.001

[GRAPHIC] [TIFF OMITTED] T0978.002



                                <F-dash>


Statement of Voice for Adoption

    Voice for Adoption is a coalition of over 50 state, local, 
and national adoption organizations that is committed every day 
to working on behalf of children who are waiting for adoptive 
families. Following are a few examples of children who have 
been adopted over the past year as a result of the increased 
emphasis on adoption of special needs children.
    Daron, a handsome 15 year old African American youth, had 
been in 20 foster care placements in Nevada since birth. He had 
one failed adoption but he never gave up hope on having a 
family of his own.A family from Salt Lake City got on the 
internet, found the FACES of adoption site and read about 
Daron. Several months later the Daron became their son. In 
Daron's words, ``Knowing that you're not waking up the next 
morning and not having to move to a new family to have a 
permanent home is great.''
    Stephanie, a 12 year old Latino girl from Arizona wants to 
be an actress. She appeared on the Maury Povich show that was 
devoted to children waiting for adoptive families in January 
1999. Stephanie said, ``I'm jealous of my friends. They get to 
go home to a family and I just can't do that.'' A family from 
Alabama called about Stephanie after seeing her on the TV show. 
By March she was with her new adoptive family.
    Michael, 9; Antoine, 7; James, 4; and Shawn, 3 are four 
spirited, active brothers. Their recent adoption assured that 
they will grow up together. The boys all entered foster care 
when Shawn was born with a positive toxicology screening for 
cocaine. Their birth mother has not been able to recover from 
her drug addiction. Antoine has some learning disabilities and 
needs special tutoring at school. Shawn evidenced tremors and 
other signs of drug exposure as an infant, but has since 
developed into a typical preschooler. The older boys are very 
healthy and doing well in school, but they worry about their 
birth mother and younger brothers. They were afraid that 
adoption might mean separation from their brothers, and were 
relieved when a family was found for all four of them. Their 
adoptive parents are adapting well to the permanent addition to 
their home of four little boys. They note that they would not 
have been able to commit to the care of all four brothers 
without the availability of title IV-E Adoption Assistance.
    The children above represent many of the children that 
Congress sought to help with the implementation of the Adoption 
and Safe Families Act. Many children like Daron age out of 
foster care without ever having the opportunity to be part of 
an adoptive family. Daron's dream was realized because he was 
listed on the internet. Stephanie moved from Arizona to Alabama 
to realize her dream and the state of Arizona had the courage 
to include Stephanie on the Maury Povich show. Michael, 
Antoine, James and Shawn represent the thousands of children in 
foster care because of their parent (s)'s substance abuse 
problems. Access to title IV-E Adoption Assistance assisted 
with their placement with an adoptive family.
    Children who leave the foster care system through adoption 
often have special needs and the families who step forward to 
adopt these children need to be prepared to address the special 
needs of these children. Resources are needed to develop and 
maintain a comprehensive system of adoption supports and post 
adoption services that recognizes and addresses the challenges 
these children present and the support that the families who 
adopt them will require. In addition, we need the legislative 
changes to provide the necessary structure. The waiting 
children need your continued support. This support is critical 
to assuring waiting children have the opportunity to be part of 
an adoptive family.
    Voice for Adoption (VFA) is pleased to have the opportunity 
to submit testimony to the Committee on Ways and Means, 
Subcommittee on Human Resources discussing the increase in the 
number of special needs adoption. VFA has been a consistent 
partner in development of strategies to move the thousands of 
children who have been trapped in the foster care system to 
safe, stable, permanent adoptive homes. Early results indicate 
marked improvement in state efforts to recruit adoptive 
families with permanent safe homes. We believe that these 
results are directly tied to Congressional efforts to focus on 
permanency and safety for children in the foster care system. 
Passage of the Adoption and Safe Families Act with the 
inclusion of Adoption Incentive Payments has sent a clear 
message to the states that children must not be allowed to 
languish in foster care.
    National attention on the need for states to move children 
who can not return home to permanent adoptive placements has 
focused state work on finding adoptive families for children in 
the foster care system. Adoption 2002, the Adoption and Safe 
Families Act, and Congressional hearings send a clear message 
that there is strong interest in children moving to adoptive 
families when they can not return home. States' performance has 
exceeded the expectations of the Congress and many advocacy 
groups. Voice for Adoption calls on Congress to continue to 
support efforts to move foster children who can not return home 
to adoptive families. Full funding for the Adoption Incentive 
Program will continue to send the message to states that 
Congress recognizes and supports the work done in the first 
year. VFA estimates that the additional cost will be close to 
$25million dollars.
    Voice for Adoption feels strongly that the incentive 
dollars to states must continue to support additional adoption 
related work. As states fully implement the Adoption and Safe 
Families Act, the number of children who will require adoption 
services will increase. While many of these children will be 
adopted by their foster parents, others will require 
recruitment of adoptive families. Adoption professionals and 
State officials agree that as time goes on the children 
requiring adoptive placement will be more challenging and 
require more time and energy to place in adoptive families.
    Voice for Adoption has developed a Public Policy Agenda 
that addresses the various components that must be in place to 
achieve our goal of adoption for children who cannot return 
home.
    VFA supports the following funding and legislative 
initiatives.

                             Funding Issues

    <bullet> Increased funding for adoption incentive payments. 
We believe that the strong performance by the states in the 
first year should be matched with full funding for the adoption 
incentive program. VFA asks Congress to increase the 
authorization and appropriation levels to assure full funding. 
We estimate the need for an additional $25million to bring 
total funding to $45 million. Congress recognized the need to 
direct the incentive payments back to the states to support 
additional adoption related activities. VFA supports 
continuation of that requirement.
    <bullet> Full funding for the Adoption Opportunities Act. 
Voice for Adoption calls on Congress to re-establish an 
authorization level and fully fund the Adoption Opportunities 
Act at $50 million.
    This level of funding is needed as the numbers of children 
double or even triple in the next few years.
    Model programs must be developed and supported which
    1. Recruit and prepare adoptive families
    2. Match waiting children with approved families on the 
state, regional and national levels
    3. Apply the latest technology such as the internet and 
video conferencing to the adoption process in order to 
streamline the process
    4. Office training and technical assistance to states on 
all aspects of adoption
    5. Measure the cost effectiveness of adoption services.
    Public and private agencies, adoption exchanges and 
adoptive parent organizations must be eligible for these funds 
as they all play key roles in permanency for children.
    <bullet> Support development and funding of a national 
purchase of service system. There is broad recognition that as 
the easiest to place children move to adoptive families, the 
recruitment of adoptive families for the remaining children 
will be more challenging. The inclusion of interjurisdictional 
placement language in AFSA challenges states to look throughout 
the country to find families for children in need of adoptive 
homes. One barrier to full implementation of this provision is 
the lack of funding to support adoptive family preparation and 
post adoption services in locations outside of the ``home'' 
jurisdiction and fully utilize the resources of the private 
sector. It is unlikely that this provision of AFSA will reach 
full implementation until the funding issues are addressed 
through a national purchase of service system.
    <bullet> Support for funding for increased court and legal 
costs associated with the increased number of special needs 
adoptions. VFA congratulates Senators DeWine, Rockefeller, 
Landrieu, Chaffee and others for their recently introduced 
legislation and calls on the House of Representatives to 
support this issue.
    <bullet> Support increased funding for post adoption 
services either through existing funding streams or through 
creation of new funding.All the good work that has been done, 
and will be done, to secure safe permanent adoptive families 
for children will be for naught if we do not support the 
families who have adopted these special needs children. 
Children who have been abused, neglected or abandoned present 
special challenges for their adoptive families. If the families 
and children are not supported these adoptions may not last and 
the children will wind up back in the state child welfare 
systems.

                        Legislative Initiatives

    <bullet> Support equal access to title IV-E Adoption 
Assistance for all foster care children who need a permanent 
loving home. Voice for Adoption calls on Congress to ``level 
the field'' for all children who would benefit from a safe 
permanent adoptive family. The financial background of a 
child's birth family should have nothing to do with whether or 
not their adoptive family has access to adoption assistance. 
title IV-E Adoption Assistance must be extended to all special 
needs children.
    Assure legislation related to the implementation of the 
Hague Convention on Intercountry Adoption is consistent with 
current adoption requirements under AFSA with regard to 
geographic boundaries. Legislation has been introduced in the 
Senate related to the Hague Convention. VFA will be following 
that legislation carefully to assure that the process created 
for intercounty adoptions is not in conflict with adoption 
requirements set forth in the Adoption and Safe Families Act.
    What has happened to create the increased number of 
adoptions throughout the country? The increase is a result of 
national attention focused on foster children who have grown up 
in foster homes that were created as temporary solutions for 
children who had been abused or neglected. Too often foster 
children who can not safely return to their homes ``age out'' 
of foster care never having been a member of a loving family. 
Congressional interest and attention has focused state and 
local officials on the need to do more for foster children.
    The first year has been a success, but the work has only 
begun. Congressional support is needed to establish and fund a 
comprehensive system of adoption supports and post adoption 
services. That system should include, but not be limited to,
    1. Assurance that staffing in the state and local offices 
is in place to focus on securing permanency through adoption 
for waiting children,
    2. Strengthening recruitment of adoptive families,
    3. Providing thorough preparation of adoptive families,
    4. Allowing all adoptive families of special needs children 
access to title IV-E Adoption Assistance
    5. And continuing to provide support for the adoptive 
families post adoption.
    Voice for Adoption thanks the committee for the opportunity 
to submit testimony and looks forward to continuing to work 
with Congress on these important issues.

                                   - 
                                 <ALL>
</pre></body></html>
